<html>
<title> - CURRENT AND FUTURE READINESS OF THE ARMY AND MARINE CORPS</title>
<body><pre>[Senate Hearing 110-166]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-166
 
       CURRENT AND FUTURE READINESS OF THE ARMY AND MARINE CORPS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 15, 2007

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
38-324 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   LINDSEY O. GRAHAM, South Carolina
HILLARY RODHAM CLINTON, New York     ELIZABETH DOLE, North Carolina
MARK L. PRYOR, Arkansas              JOHN CORNYN, Texas
JIM WEBB, Virginia                   JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           MEL MARTINEZ, Florida

                   Richard D. DeBobes, Staff Director

             Michael V. Kostiw, Replublican Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

       Current and Future Readiness of the Army and Marine Corps

                           february 15, 2007

                                                                   Page

Schoomaker, GEN Peter J., USA, Chief of Staff, United States 
  Army; Accompanied by LTG Stephen M. Speakes, USA, Deputy Chief 
  of Staff, G-8..................................................     5
Conway, Gen. James T., USMC, Commandant, United States Marine 
  Corps..........................................................     7

                                 (iii)


       CURRENT AND FUTURE READINESS OF THE ARMY AND MARINE CORPS

                              ----------                              


                      THURSDAY, FEBRUARY 15, 2007

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, Reed, 
Bill Nelson, E. Benjamin Nelson, Webb, McCain, Warner, 
Sessions, Dole, Cornyn, Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Daniel J. Cox, Jr., professional staff member; Creighton 
Greene, professional staff member; Michael J. McCord, 
professional staff member; Michael J. Noblet, research 
assistant; and William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Paul C. Hutton IV, research assistant; Gregory T. 
Kiley, professional staff member; Derek J. Maurer, minority 
counsel; David M. Morriss, minority counsel; Lucian L. 
Niemeyer, professional staff member; Christopher J. Paul, 
professional staff member; Sean G. Stackley, professional staff 
member; and Richard F. Walsh, counsel.
    Staff assistants present: Fletcher L. Cork, Micah H. 
Harris, and Benjamin L. Rubin.
    Committee members' assistants present: Sharon L. Waxman, 
assistant to Senator Kennedy; James Tuite, assistant to Senator 
Byrd; Elizabeth King, assistant to Senator Reed; Christopher 
Caple and Caroline Tess, assistants to Senator Bill Nelson; 
Eric Pierce, assistant to Senator Ben Nelson; Andrew Shapiro, 
assistant to Senator Clinton; Gordon I. Peterson and Michael 
Sozan, assistants to Senator Webb; Nichole M. Distefano, 
assistant to Senator McCaskill; Sandra Luff, assistant to 
Senator Warner; John Bonsell, assistant to Senator Inhofe; Adam 
G. Brake, assistant to Senator Graham; Lindsey Neas, assistant 
to Senator Dole; Russell J. Thomasson, assistant to Senator 
Cornyn; Stuart C. Mallory, assistant to Senator Thune; and 
Brian W. Walsh, assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. We welcome this 
morning to our committee General Peter Schoomaker, Chief of 
Staff of the Army, and General James Conway, Commandant of the 
Marine Corps. We note that this may be General Schoomaker's 
final appearance before this committee as the Army's Chief of 
Staff before he retires for the second time, after over 35 
years of uniformed service. We are pleased that we could meet 
with you, General, before you pass leadership of the Army to 
General Casey, not only because we want to discuss Army 
readiness today, but also to express our gratitude to you for 
your lifetime of service to this Nation, to our soldiers, and 
to their families. Thank you, sir.
    Thank you, of course, General Conway. We will be seeing 
more of you, but we are also grateful that you could make it 
today.
    We note we believe that among our observers this morning 
are nine members of the parliament of the Republic of 
Montenegro. Are they here? They are here. We welcome you to 
visit our committee, to see how we operate, and hopefully to 
get some benefit out of it. We would be interested in your 
reaction at some point as to what you see and what your 
thoughts are about how we do operate here, and we would be 
interested as to how you operate back home in Montenegro. We 
welcome you.
    Today's hearing examines the current and future readiness 
of our ground forces. Over the last 3 years the rotation of 
Army and Marine personnel in units into and out of combat 
operations in Iraq and Afghanistan have put extraordinary 
pressures and stress on all aspects of military readiness. The 
readiness of our forces deployed to war zones should never be 
in question. The recent Department of Defense (DOD) Inspector 
General (IG) report identifies problems with force protection 
equipment shortages in Iraq and Afghanistan. Press reports 
expose persistent shortages of armored Humvees and armor 
protection kits for Humvees and other vehicles. We also 
continue to receive complaints highlighting equipment items 
requested by deployed troops that appear to be unavailable in 
the supply system.
    While many of these reports are anecdotal, we cannot ignore 
them. In some cases there are limitations in production 
capacity or lead times that we cannot do anything about in the 
short term, but some of these issues can be addressed by action 
of Congress and DOD. We want to continue to work with the Army 
and the Marine Corps to resolve as many of these issues as 
possible as we move forward, and we look forward to the remarks 
of our witnesses in this regard.
    I am going to repeat what many, I think all, members of 
this committee have said many times in the past, which is, 
Congress is going to provide whatever forces in harm's way 
need. We are particularly concerned that in order to sustain 
the necessary higher readiness levels in our deployed forces 
the readiness of our non-deployed forces has steadily declined. 
Less ready non-deployed forces makes getting those units fully 
equipped and trained for the next deployment that much more 
difficult and that much more risky.
    The President's plan to surge an additional five Army 
brigades and three Marine battalions and General Petraeus's 
request to get them into Iraq as quickly as possible puts 
pressure on an already strained training and equipment 
readiness situation. We are concerned that deploying units will 
not have the required equipment and the time to train with that 
equipment before they are sent into harm's way.
    This morning we will be looking for answers and hopefully 
assurances from the two uniformed leaders directly responsible 
for the readiness of our ground forces that surge units will 
deploy fully trained and equipped before they are deployed into 
Iraq. Simply stated, our ground forces are stretched thin and 
equipment is wearing out faster than planned and is not being 
replaced in a timely manner, which raises questions about the 
Nation's readiness to deal with other contingencies in a world 
which has many dangers and uncertainties.
    In testimony to the House Armed Services Committee last 
month, both General Schoomaker and General Conway were clear in 
their apprehensions about the short and long-term risks 
resulting from the lower readiness levels of our non-deployed 
forces. General Conway indicated that the Marine Corps, 
historically the force the Nation calls upon first, would 
respond more slowly if needed to meet another contingency. 
General Schoomaker was direct in his concern for the, quote, 
``strategic depth'' of our Army and its readiness, in other 
words whether it is able to commit forces to another 
contingency if necessary.
    General Schoomaker and General Conway, we share your 
concerns for the readiness shortfalls of our current forces and 
the unacceptable risks which result. We are also concerned 
whether the administration's proposal to increase the end 
strength of the Army and Marine Corps would simply create a 
larger version of a less ready force. Army and Marine Corps 
plans for expansion must be comprehensive, detailed, and fully 
resourced. Congress must know what you need to bring our 
current and expanded ground forces to the levels of strength 
and readiness necessary to meet our National security 
requirements into the future.
    We cannot solve readiness issues merely by increasing the 
size of the force, unless we have sufficient time and money to 
equip and sustain that force. So we look forward to discussing 
these issues with you both today and in the days ahead.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you very much, Mr. Chairman, and 
thank you for scheduling this important hearing to focus on the 
readiness of our ground forces.
    I would like to welcome both the witnesses and, General 
Schoomaker, I know I speak for all Americans when we express 
our appreciation for your long and dedicated and courageous 
service to our Nation. We know you will continue to contribute 
for many years to come. We thank you for your great service to 
our Nation.
    Since the attacks on September 11, our military has been 
active in Afghanistan, Iraq, and around the world. Our 
servicemembers--Active, Reserve, and Guard--have responded 
magnificently to our Nation's call, often undertaking multiple 
or extended deployments, sometimes with very short notice, and 
performing with the utmost professionalism that reflects credit 
on their individual service and on the great traditions of our 
Nation's military services.
    There should be no doubt that difficult work lies ahead, 
but, as General Petraeus said when he assumed command in Iraq 
last week, ``Hard is not hopeless.'' The operations of the last 
5 years have strained both our personnel and our equipment. We 
all know that. While our men and women in uniform are in harm's 
way, there has also been a serious decline in the readiness of 
our non-deployed units both in equipment and training.
    I hope we do not spend our time here looking back at 
mistakes that have been made over the last few years and fail 
to focus on the critical readiness issues we are facing in the 
here and now. We must not forget that we are in a very long war 
against an uncertain enemy as our Nation is about to implement 
a new military strategy in Iraq, one that could provide Iraq 
with the security necessary to provide sufficient breathing 
space to the Iraqi government that facilitates national 
reconciliation and economic reconstruction.
    The President's recent decision to increase the size of the 
Army and the Marine Corps is a vital part of the readiness 
remedy. Some of us have been calling for this for a number of 
years. This increase will help ease the strain on our deploying 
forces, giving them more time between deployments to rest and 
retrain. It should also reduce our reliance on our Reserve and 
Guard forces, who have met the Nation's call heroically. 
Finally, this increase will ensure we have enough forces 
available to meet other threats as they arrive.
    Unfortunately, this increase in forces cannot occur soon 
enough. It will take time to recruit, train, and equip these 
new forces. I am concerned about the readiness of our forces 
between now and when these new units come on line. I hope our 
witnesses today will address how they plan to improve our 
readiness in the short term as well as how they plan to address 
the challenges in increasing the force structure over the next 
several years.
    As Congress conducts oversight of defense spending, we 
should all take measures to ensure that the services are 
receiving the absolute most value for every tax dollar, and of 
course we want to eliminate duplicative and unnecessary 
programs. As you are aware, I have long advocated for reform in 
both the budgeting and the acquisition process. In this year's 
budget request the services presented long lists of priorities 
that were left without funding. I am concerned about the size 
of these unfunded requests lists, particularly that of the 
Army. The Army's budget request has increased significantly in 
recent years, as has the supplemental funding request, and yet 
the Army's unfunded requirements list increased by almost $3 
billion. I hope, General Schoomaker, that you can explain to 
the committee why that is.
    I have a number of other concerns that the witnesses will 
be asked to address. You should expect questions on your 
services' readiness to respond to the President's plan for Iraq 
on prescribed time lines, the number of waivers granted to Army 
recruits, Humvee armor kits, and the very large unfunded 
requirement of Mine Resistant Ambush Protective (MRAP) vehicles 
and why those vehicles were not in the regular budget request. 
I look forward to your testimony.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    General Schoomaker.

  STATEMENT OF GEN PETER J. SCHOOMAKER, USA, CHIEF OF STAFF, 
UNITED STATES ARMY; ACCOMPANIED BY LTG STEPHEN M. SPEAKES, USA, 
                   DEPUTY CHIEF OF STAFF, G-8

    General Schoomaker. Mr. Chairman, Senator McCain, 
distinguished members of the committee: Thanks very much for 
the opportunity to appear before today and represent the Army. 
I will be very concise here. I have submitted a statement for 
the record that I hope you will accept.
    Chairman Levin. It will be made part of the record.
    General Schoomaker. Thank you.
    I would like to just express my sincere thanks upfront for 
the great support over the last 4 years that the Army has 
received from this committee and to thank you for your kind 
words and to express my appreciation for having the great 
privilege that I have enjoyed of serving the young men and 
women and their families of the United States Army during my 
tenure.
    So I look forward to answering your questions and I thank 
you again for your support.
    [The prepared statement of General Schoomaker follows:]
           Prepared Statement by GEN Peter J. Schoomaker, USA
    Mr. Chairman and distinguished members of the committee, on behalf 
of our Secretary, Dr. Francis Harvey, and the more than 1 million 
Active, Guard, and Reserve soldiers, and civilians of the United States 
Army, serving around the globe, I welcome the opportunity to discuss 
the need to improve Army readiness, to increase strategic depth, and to 
decrease our overall strategic risk.
    We are in a dangerous, uncertain, and unpredictable time. As we 
continue our mission worldwide and prepare to increase our commitment 
in Iraq, we face challenges that exceed the level of demand envisioned 
in the recent quadrennial review of defense strategy.
    Strategy involves establishing a proper balance among ends, ways, 
and means. Policy and strategy discussions often focus on ends and ways 
and fail to sufficiently address means. The recent decisions by the 
President and the Secretary of Defense--to grow our ground forces and 
to assure access to all components of our force--will help to establish 
the balance required to meet and sustain high levels of strategic 
demand for Army forces by providing additional means.
    We have received considerable support from this committee and 
Congress to increase the readiness of our Army. As a result, the 
soldiers we have deployed into current theaters of operation are the 
best trained, best equipped, and best led we have ever fielded. As I 
have explained in previous testimony, our immediate challenge lies in 
the readiness of our nondeployed forces. We will need your continued 
support in seven key areas to restore the strategic depth of our Army 
necessary to respond decisively to potential strategic contingencies:
    First, recent decisions to expand the Army reflect the clear 
recognition of the dangers we face and the strain that 5 years of 
sustained demand has placed on our All-Volunteer Force. We plan to grow 
six new Brigade Combat Teams (BCTs) and enabling organizations in our 
active component, and other enabling organizations in our Army National 
Guard and Army Reserve. This will expand our rotational pool to 76 BCTs 
and more than 200 enabling organizations in the operational force of 
the Total Army. Our goal is to provide a continuous supply of 20-21 
BCTs to meet global commitments. We remain committed to generating 
whole, cohesive units that are fully manned, trained, and equipped--
that are fully ready for the challenges they will face. This will 
require a national commitment to sustain predictable resourcing over 
time and to build our force in a balanced, coordinated fashion, while 
providing adequately for the needs of our All-Volunteer Soldiers and 
their families.
    Second, in the near term, to prosecute the long war, and to sustain 
the full range of our global commitments, we must have all components 
of the Army--Active, Guard, and Reserve--ready and able to deploy 
together. The changes in Reserve component mobilization policies, 
recently announced by Secretary Gates, are essential. Our Reserve 
components comprise 55 percent of our Army's capabilities. We must 
fully enable them to perform their new role as an integral part of our 
operationally deployable force. These new policies will provide 
predictability and facilitate the deployment of trained, ready, and 
cohesive units, while decreasing the burden on our Soldiers and their 
families. We are working to implement these changes rapidly and will 
require continued congressional support to do so.
    Third, with the support of this committee and Congress, we have 
been provided the resources needed to restore battle losses and repair 
worn equipment through an aggressive reset program. We are well ahead 
of schedule in executing these funds in fiscal year 2007. In just the 
first 4 months, we have already obligated $11.8 billion of the $17.1 
billion appropriated.
    As I testified last year, we anticipate that our fiscal year 2008 
reset requirements will be approximately $13.5 billion--a figure that 
will increase as we plus up forces in current theaters of operation and 
increase the size of our Army. Because the replacement of equipment can 
take up to 3 years following the commitment of funds, we seek to make 
this funding available for use as soon as possible. To overcome the 
unprecedented stress being placed on our equipment today, reset funding 
will be required for a minimum of 2 to 3 years beyond the duration of 
the current conflict.
    Fourth, with your support, we have made great progress in 
increasing soldier and unit effectiveness through our modernization 
efforts. As I have said before, we have historically entered conflicts 
flatfooted. This current conflict is no exception. Investment accounts 
were under funded by approximately $100 billion during the previous 
decade, resulting in nearly $56 billion in equipment shortages across 
the Army. To meet combatant commanders' immediate wartime needs, we 
pooled equipment from across the force to equip soldiers deploying into 
harm's way. This practice, which we are continuing today, increases 
risk for our next-to-deploy units, and limits our ability to respond to 
emerging strategic contingencies.
    The changed conditions of warfare necessitate that we can no longer 
accept risk in how we equip our combat support and combat service 
support units. There are no front lines in today's battle space. We 
must equip all units with force protection, night vision goggles, crew 
served weapons, radios, and other critical items needed to operate. 
Your continued support is helping to fix what I call our ``holes in the 
force.'' I ask you to increase your support for this effort as we work 
to break the historical cycle of unpreparedness. We must remain 
committed to investing in technologies and equipment that enable our 
most important asset--the soldier--to remain ahead of our adversaries 
who are quickly adapting their methods, tactics, and tools of warfare. 
Investing sufficiently in our future readiness is a strategic 
necessity--which must be viewed as a matter of priority not just 
affordability.
    Fifth, our ability to grow the force to meet rotational 
requirements is jeopardized by the $2 billion reduction in our Base 
Realignment and Closure (BRAC) account in the fiscal year 2007 
appropriations process. We appreciate that Congress supports funding 
military construction to the requested levels in the continuing 
resolution. Just as critical, however, is the timely funding of the 
associated BRAC. It is an essential and inextricable part of our plan 
to ensure growth and improve readiness, not just a statutory 
requirement that must be met by September 2011. We have developed a 
carefully synchronized, closely knitted stationing plan to enable us to 
meet our global commitments while fighting the long war. Current delays 
in funding fiscal year 2007 BRAC projects limit our ability to build 
our modular force and to deliver quality of life improvements which our 
soldiers and families both need and deserve. I have addressed my 
concerns in two separate letters. In November, I co-authored a ``16 
star'' letter with the other service chiefs, and in December, Secretary 
Harvey and I reemphasized the significant impact of this delay. I 
recently met with Senator Reid, the Senate Majority Leader, to 
emphasize how imperative it is to fund these requirements without 
delay, especially now while we are at war. To properly house, train, 
and prepare our soldiers, we urge Congress, at the very first 
opportunity, to restore BRAC funding to levels requested in the 2007 
President's budget.
    Sixth, we will require access to supplemental funding for fiscal 
year 2007 by April, and possibly sooner, to properly sustain the Army. 
In June of last year, we really had to ``slam the brakes'' on 
expenditures when supplemental appropriations were not provided when 
expected. That timing, in combination with the reductions in the fiscal 
year 2006 budget request, forced us to institute a civilian hiring 
freeze; terminate temporary employees; tightly control travel expenses; 
and delay information technology purchases. It was a painful, and 
avoidable, exercise. We cannot repeat last year's near disastrous 
``cash flow'' experience and meet the increased operational demands now 
facing us.
    Finally, we must fully resource the Army to enable it to 
simultaneously grow, transform, and modernize while effectively 
fighting the global war on terrorism. The Army remains committed to 
providing the best land force possible to support the Nation's 
worldwide interests. The fiscal year 2008 President's budget, together 
with anticipated global war on terrorism funding, sets the Army on the 
right path to achieving these objectives, and I ask you to fully fund 
these critical requirements. I recently responded to Representative 
Hunter's request to identify unfunded requirements. In copies provided 
to this committee, I identified over $10 billion in requirements that 
could be accelerated to further enhance our readiness and restore our 
Army's strategic depth.
    The fundamental challenge impacting Army readiness and strategic 
depth is the need to establish a proper balance between strategy and 
resources. Had we funded the Army to requested levels in recent years, 
and endorsed policies to assure access to ail of our capability, we 
would be in a better strategic posture today. I am greatly encouraged 
by the recent actions of Congress, the President, and the Secretary of 
Defense which reflect clear recognition of the compelling need to 
rectify our current situation. I look forward to working with this 
Congress to enhance the readiness and strategic depth of our Army.

    Chairman Levin. Thank you, General.
    General Conway.

  STATEMENT OF GEN. JAMES T. CONWAY, USMC, COMMANDANT, UNITED 
                      STATES MARINE CORPS

    General Conway. Chairman Levin, Senator McCain, and 
distinguished members of the committee: Thank you for the 
opportunity to report to you today. When I last testified 
before you at my confirmation hearing, I pledged to always 
provide you frank and honest assessments of the state of the 
Marine Corps, and I come to you today with that thought in 
mind.
    Your Marine Corps is currently engaged in what I believe to 
be the first battles of a Long War against Islamic extremists. 
Alongside some of our friends and allies, we have been in that 
fight now for almost 5 years. Though the troops in the 
operating forces are being pushed hard by the operational tempo 
and the frequency of deployments, morale has never been higher 
because they believe they are making a difference.
    They also believe, ladies and gentlemen, that the people of 
the United States and its government are behind them. The 
evidence of that support is everywhere to be seen: the fielding 
of new materiel and equipment to make their mission's success 
more certain and to protect them from enemy blasts, the reset 
of the force so as to be able to accomplish follow-on missions 
throughout the globe, and most recently the request by the 
Secretary of Defense to grow our end strength.
    This end strength increase to 202,000 marines will go a 
long way towards reducing the strain both on individual marines 
and on the institution. This plan will gradually decrease the 
deployment-to-dwell ratio of some of our high operational tempo 
units. Currently many of those units are deployed for 7 months 
and home for only 7, some even less time, before they return to 
combat.
    While the conflict in Iraq demonstrates the uncontested 
need for boots on the ground even in modern day warfare, our 
current request for an end strength increase is what the Marine 
Corps needs to be prepared to respond whenever and wherever our 
vital national interests are threatened, not just in Iraq. Our 
Corps by law is, quote, ``the Nation's shock troops.'' These 
additional marines will allow us the additional dwell time 
needed to train at home station and sharpen those skills that 
could be required of us in the next contingency, thereby 
reducing future operational and strategic risks.
    With over 70 percent of our proposed end strength comprised 
of first-term marines, we are making plans for the necessary 
increases in recruiting and retention, which will be 
challenging. But our standards will remain high. We will need 
the continued support of Congress for strong reenlistment 
bonuses and other recruiting programs such as advertising, 
which will be essential for us to continue to bring aboard the 
best that America has to offer.
    Turning to the plus-up operations in Iraq, approximately 
4,000 marines are affected. Three of our units will be extended 
by 45 to 60 days. This extension will impact our marines and 
their families, but we have been emphatic about keeping our 
families informed of the details. We believe that unit programs 
and family support systems back home have already helped 
marines and families meet the challenges associated with this 
extension.
    As an aside, there has been some misunderstanding in the 
media that our end strength increase is directly tied to the 
plus-up operation in Iraq. The fact is that our request for 
additional marines is separate from, indeed it predates by 
several weeks, that ongoing operation.
    Moreover, there has been some concern expressed that 
perhaps the battalions moved forward in the rotation for the 
plus-up operations might not be fully trained or equipped for 
the fight. Ladies and gentlemen, let me clarify that the 
additional marines going into the al-Anbar Province have indeed 
had their training schedules adjusted, but those schedules 
include all five phases of our pre-deployment training package. 
Cross-leveling of equipment is now complete and we know the 
battalions will lack two equipment items as a result of 
manufacturing unavailability and those are the latest 
generation sniper and spotter scopes.
    Ladies and gentlemen, your marines recognize that this is 
an important time in history to serve our country. The majority 
of them joined the Corps after the Nation was at war, knowing 
that they would most likely go into harm's way. They joined 
with the understanding of what was expected of them and have 
shouldered that duty with courage and determination. They are 
truly a special breed of America's warriors. It is in their 
behalf that I come before you today to answer your questions 
and to help all understand how we can best support these 
tremendous young marines and sailors in combat.
    Thank you.
    [The prepared statement of General Conway follows:]

            Prepared Statement by Gen. James T. Conway, USMC

    Chairman Levin, Senator McCain, and distinguished members of the 
committee; during my confirmation process and in our subsequent 
conversations, I have pledged to provide you forthright and honest 
assessments of your Corps, and I welcome this opportunity to report to 
you today.
    Your Marine Corps has been fully engaged in the Long War--in 
campaigns in Iraq and Afghanistan as well as throughout the world. The 
challenges we face are of global scale and scope; this war is a multi-
faceted, generational struggle that will not be won in one battle, in 
one country, or by one method. Throughout this war, your Marine Corps 
has been able to rapidly adapt to challenging strategic conditions and 
wide-ranging threats. This past year, you have seen evidence of this 
not only in Iraq and Afghanistan, but in Lebanon (where we were 
partners in the largest noncombatant evacuation since Vietnam); in the 
southern Pacific--as part of humanitarian assistance and relief efforts 
in the wake of multiple natural disasters; and around the globe in 
scores of theater security cooperation engagements.
    Your marines are a tough breed and will always do what it takes, 
but there is a tangible price we pay for this excellence--both in terms 
of personal sacrifice and in the cumulative effect on our equipment. It 
is our moral imperative to support our marines in combat to the hilt--
we are always mindful that our forward-deployed marines and sailors in 
combat must be our number one priority. As a Corps, we remain true to 
our congressionally-mandated mission ``to be most ready when the Nation 
is least ready''; thus providing the Nation a two-fisted capability--
adept at counterinsurgency as well as major conventional operations.

                        I. RIGHT-SIZE OUR CORPS

    To meet the demands of the Long War and the inevitable 
contingencies that will arise, our Corps must be sufficiently manned as 
well as trained and properly equipped. The Corps' personnel policies, 
organizational construct, and training must be resourced so that 
marines are able to operate at the sustained rate as well as meet the 
occasional ``surge.''

Strain on our Individual Marines
    Despite an unparalleled personnel tempo, the morale of our marines 
and their families remains high. There are however, leading indicators 
showing signs of strain that concern us. To avoid an adverse toll on 
our marines and their families, and to prevent a decrease in readiness, 
a 1:2 deployment-to-dwell ratio goal was established for all Active 
component forces. The goal is for every 7 months a marine is deployed, 
he or she will be back at home station for 14 months--providing needed 
rest, family time, and the opportunity to train for a variety of 
missions.

Strain on the Institution
    Current wartime deployments dictate a singular focus to prepare 
units for their next rotations conducting counterinsurgency operations. 
This focus and the current 1:1 deployment-to-dwell ratio of many units 
threatens the individual and unit skills needed for Marine Corps 
missions such as combined-arms maneuver, mountain warfare, amphibious, 
and jungle operations. To fulfill our mandate as the Nation's Force in 
Readiness, our deployment cycles must not only support training for 
irregular warfare, but also provide sufficient time for recovery and 
maintenance as well as training for other contingency missions. By 
increasing the dwell time for our units, we can accomplish the more 
comprehensive training needed for the sophisticated skill sets that 
have enabled Marine Air Ground Task Forces (MAGTF) to consistently 
achieve success in all types of battle. Our goal is to increase dwell 
time and achieve a 1:2 deployment-to-dwell ratio for our Active Forces.

                       II. END STRENGTH INCREASE

    The recently proposed increase of Marine Corps Active component end 
strength from approximately 180,000 to 202,000 marines will go a long 
way toward reducing the strain on the individual Marines and the 
institution as a whole. I need to emphasize, the underlying requirement 
for an end strength increase is separate from, indeed it pre-dates, the 
``plus-up'' operation in Iraq. Our first task will be to build three 
new infantry battalions and elements of their supporting structure--
approximately 4,000 marines. We will then systematically increase the 
number of marines on a schedule of approximately 5,000 per year. This 
end strength will do more than just add the much needed infantry 
battalions--we will balance the MAGTF and reduce the strain on military 
occupational specialties that are experiencing a 1:1 deployment-to-
dwell ratio or less. These include rotary wing squadrons, military 
police, intelligence units, engineers, and other combat support and 
combat service support fields. Currently many of these units are 
deployed for 7 months and only home for 5.

----------------------------------------------------------------------------------------------------------------
                                                                         Fiscal Year
         End strength (thousands)          ---------------------------------------------------------------------
                                              2007      2008      2009      2010      2011      2012      2013
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2007 Baseline.................       175       175       175       175       175       175       175
PB08 Baseline Increase....................         0         5        19        24        27        27        27
                                           ---------------------------------------------------------------------
Subtotal Active Force.....................       175       180       194       199       202       202       202
Funded in Supplemental....................         9         9         0         0         0         0         0
                                           ---------------------------------------------------------------------
Total USMC Active Force...................       184       189       194       199       202       202       202
----------------------------------------------------------------------------------------------------------------

    For fiscal year 2007, the Active component will grow by 9,000 
marines. Supplemental appropriations will fund this growth. In fiscal 
year 2008, the end strength increase will be funded by a combination of 
baseline and supplemental appropriations. In fiscal years 2009 and 
beyond, baseline appropriations will fund the end strength increase.
    This end strength is important not only for the current 
requirements, but also to posture the Marine Corps for future mission 
requirements as the Nation's force in readiness.

Reserve Component End Strength
    Our efforts in the Long War have been a Total Force effort, with 
our Reserves once again performing with grit and determination. Recent 
policy changes within the Department of Defense allow us to access the 
Reserve Forces as they were structured to be employed--to augment and 
reinforce our Active component forces. To this end, my goal is to 
sustain a 1:5 deployment-to-dwell ratio within our Reserve component. 
As our Active Force increases in size, the reduced reliance on our 
Reserve Forces should allow us even more ``buffer'' as we work to 
maintain the proper deployment-to-dwell ratio for our Reserves.

                        III. PLUS-UP OPERATIONS

    Currently, the Marine Corps has approximately 4,000 marines 
affected by plus-up operations in Iraq. The affected units will be 
extended by 45-60 days. This extension will influence our marines and 
their families, but we are ardently keeping our families informed of 
the details. We believe that family support systems and unit programs 
back home will help marines and families meet the concomitant 
challenges of the extension. Further, between their return and next 
deployment, the addition of new infantry battalions will allow these 
units to lengthen their time at home.
    Battalions moved forward in the rotation cycle will complete all 
required predeployment training that fully qualifies them for 
employment. These battalions will be subject to the same predeployment 
training standards as their fellow Marines. We have accelerated the 
normal cycle through our main mission rehearsal exercise, Mojave Viper, 
to accommodate consistent training for all units rotating into theater.
    The accelerated battalions will deploy with equipment from their 
home stations, and the additional equipment required will be provided 
by cross-leveling assets in theater as well as leveraging equipment 
already positioned forward. This has resulted in some home station 
shortfalls and has hindered some stateside units' ability to train for 
other missions and contingencies. While the readiness of deployed units 
remains high, we have experienced a decrease in the readiness of some 
nondeployed units.
    There are no Marine Corps Reserve units involved in the plus-up 
operations.

                         IV. MANNING THE FORCE

    An important factor in sustaining a viable force is continuing to 
recruit and retain qualified young men and women with the right 
character, commitment, and drive to become marines. With over 70 
percent of the proposed Marine Corps end strength increase comprised of 
first-term marines, both recruiting and retention efforts are being 
challenged. A major part of this effort will involve increased funding 
for both the Enlistment Bonus and Selective Reenlistment Bonus Programs 
that we included in the President's budget request. We need the strong 
support of Congress to achieve continued success.
    Purposefully exceeding Department of Defense quality standards, we 
continue to recruit the best of America into our ranks--in fiscal year 
2006, the Marine Corps achieved over 100 percent of our Active 
component accession goal. The Marine Corps Reserve also achieved 100 
percent of its recruiting goals, but Reserve officer numbers remain 
challenging because our primary accession source is from officers that 
leave active duty. We appreciate the continued authorization for a 
Selected Reserve Officer Affiliation Bonus in the National Defense 
Authorization Act for Fiscal Year 2007--it continues to contribute in 
this critical area.
    We forecast that both Active and Reserve recruiting will remain 
difficult, particularly when viewed through the lens of new missions to 
meet the increased end strength of the Marine Corps. We will need the 
continued support of Congress for enlistment bonuses and other 
recruiting programs, such as advertising, which will be essential for 
us to continue meeting these growth challenges.
    Retention is the other important part of manning the force. In 
fiscal year 2006, the Marine Corps exceeded its retention goals for 
both First-Term and Career Forces. For fiscal year 2007, we expect to 
exceed our goals again. This success can be attributed to the Marine 
Corps' judicious use of the Selective Reenlistment Bonus. To keep the 
very best of our marines, the President's budget increases the size of 
our bonus program in order to ensure that we have the right grade and 
military occupational specialty mix to support the growing force. Not 
only will we have to retain more first-term marines, but also we will 
have to increase the number of marines reenlisting at the 8- and 12-
year mark. This will require us to shift more funding toward key areas 
in the career force.

  V. EQUIPMENT REQUIREMENTS FOR THE 202,000 MARINE CORPS AND THE IRAQ 
                                PLUS-UP

    The conflict in Iraq and the greater long war on terror have 
increased our equipment maintenance and replacement costs far beyond 
what is available in our baseline budget. The challenge of restoring 
and maintaining traditional capabilities while fielding new 
capabilities to ensure success in the Long War has come to be known as 
``resetting the force.'' With your help over the last 2 years, we have 
begun to make progress in restoring our equipment readiness, but there 
is much work to be done if we are to win the current fight and still be 
able to respond to other challenges that face our country.
    Slow deliveries of needed equipment have forced us to cross-level 
and redistribute equipment to ensure that our Operation Iraqi Freedom 
(OIF)-bound units have their full complement of equipment. This has 
resulted in home station shortfalls and hindered some stateside units' 
ability to train for other missions and contingencies. Personnel and 
equipment needed for mobile training teams and other nontraditional 
employment in theater has had a similar impact. While the readiness of 
deployed units and units preparing to deploy has remained high, we have 
experienced a decrease in nondeployed units' readiness.
    To remedy the near term decline in readiness, we have received 
$10.2 billion in funding to reset the force. Deliveries of equipment 
procured with reset funding are proceeding; however, increases in 
deployment and operating tempo will slow our efforts to reset the 
force. Equipment originally planned to replace home station shortfalls 
and prepositioning programs will now be used to address unit equipment 
requirements associated with the Iraq plus-up.

Equipping a 202,000 Marine Corps
    In order to best equip proposed end strength increases, the Marine 
Corps has a phased approach across fiscal years 2008-2011 that is 
synchronized with increases in personnel. We have established an 
Integrated Process Team to identify the units and associated personnel 
required to support the Marine Corps growth to 202,000. Once the units 
associated with this increase are identified, a Doctrine, Organization, 
Training, Materiel, Leadership, Personnel, and Facilities analysis will 
be conducted to determine the full spectrum of support required. While 
the vast majority of required equipment will be the procurement of 
additional existing weapon systems, when it makes sense, we will 
procure next generation equipment to keep pace with technological 
improvements. The fiscal year 2008 President's budget includes $2.2 
billion in procurement, Marine Corps to fund the items necessary to 
equip the additional marines.

Equipment in Support of Additional Troops in Iraq
    Equipment in support of additional troops in Iraq is acquired 
through a variety of sources. These include cross-leveling of equipment 
from within the Marine Force Component Command (MARFORs), cross-
leveling within theater, pending procurement deliveries, Maritime 
Prepositioning Stores, Depot Maintenance Master Work Schedule, Forward 
In Stores stocks, and a variety of other smaller sources.
    The deployment of additional Marine Forces to Iraq will have some 
impact upon the Marine Corps' reset efforts. The goal of our reset 
effort is to ensure the Corps is equipped to perform both global war on 
terrorism and other future missions; reset is not intended solely to 
meet the demands of OIF. We do not envision our reset effort changing 
or our reset requirements growing because of the force increase. We do 
expect a dip in nondeployed unit readiness as we prioritize available 
equipment to outfit forward deployed units; however, this effect will 
be temporary and the delivery of new equipment funded by previous 
appropriations will increase Marine Corps readiness. The only known 
long term effect will be the increased attrition we expect as more 
equipment is employed in the hazardous and severe environment in Iraq. 
We have not yet fully assessed the potential impact of any increased 
attrition on our reset requirement but we anticipate that it will be 
small relative to the complete reset effort.
    The Marine Corps prioritizes the distribution of available 
equipment to units according to their assigned mission and the position 
in the deployment cycle. Those units next to deploy receive priority 
for available equipment as they begin their predeployment training. 
Most items are available in sufficient quantities to equip all units 
regardless of status, but many units will lack high demand or theater 
specific items such as the uparmored HMMWV. To ensure that adequate 
equipment is available to equip every unit, we embarked on a long-term 
reset effort. This effort is well underway and Congress has been very 
responsive to our requests. In fiscal year 2006 and thus far in fiscal 
year 2007, the Marine Corps has received $10.2 billion towards our 
reset needs and over half--$6.8 billion has already been committed or 
obligated. The Corps has taken delivery of large quantities of new 
equipment but much more will be delivered in the coming months. I 
believe that Marine Corps readiness will steadily increase and I am 
confident that we remain ready for all current and future missions.

Personal Protective Equipment
    The Marine Corps currently has sufficient Personal Protective 
Equipment (PPE) on-hand to outfit two additional infantry battalions. 
For plus-up operations in Iraq, the two additional battalions will 
receive protective equipment from home station Consolidated Issue 
Facilities (CIFs), prior to deploying to Iraq. This emerging 
requirement may require some cross-leveling between CIFs, but 
sufficient quantities are available for prescribed PPE. The Side Small 
Arms Protective Insert (Side SAPI) is currently an in-theater issued 
asset and one that marines are not provided prior to deployment. 
Sufficient Side SAPIs are available in-theater to provide for issue to 
the two additional infantry battalions for the Iraq plus-up.

Impact on Home Station
    Once equipment shortfalls are identified, Marine Forces Command and 
Marine Forces Pacific will identify those items that have an adverse 
impact on predeployment training of units in subsequent rotations. Our 
supporting establishment in concert with Marine Corps Logistics Command 
(MCLC) and Marine Corps Systems Command (MCSC) will mitigate these 
shortages to the MARFORs through redirecting pending contract 
deliveries and depot maintenance cycles.

High Demand Equipment
    Equipment in high demand continues to be monitored closely and 
critical shortfalls are filled though the process outlined above. In 
addition, new advances in technology have allowed for improved 
survivability. An example of this has been our progression in the 
armored vehicle from the basic HMMWV to the Marine Armor Kit (MAK), to 
the fully fielded M1114, to the new Mine Resistant Ambush Protected 
(MRAP) family of vehicles. Within the next 3-5 years, we expect the 
Joint Light Tactical Vehicle (JLTV) to be fielded, which will have the 
latest protection that science and technology can provide. This example 
shows how modern advances in technology along with the military 
partnering with industry have enhanced survivability on the 
battlefield.
    To extend the life of high demand equipment, we have numerous 
programs in place. MCLC has established a forward maintenance 
augmentation program to conduct overflow of intermediate level 
maintenance in theater. We have established a Forward In Stores program 
designed to manage critical repair parts in theater. This has reduced 
the equipment repair time of selected critical high demand equipment. 
Our deployed forces also use the Army Materiel Command's forward 
maintenance capabilities. Another is the aggressive use of contracted 
logistics support capabilities. Additionally, we have a Principle End 
Item (PEI) rotation plan that allows critical assets to be 
systematically removed from the battlefield, sent back to the States, 
and inducted into depot level maintenance cycles. Currently, 56 
separate equipment categories have been identified for induction into 
the PEI rotation plan. Our fiscal year 2008 PEI induction plan is an 
enhanced plan that identifies 128 separate equipment categories. This 
process allows for essential rebuild of those assets and an extension 
of their service life. While this depot level maintenance is being 
done, the latest technology available is being applied to ensure the 
best equipment available is returned to theater.
    The two Marine Corps depots have rapidly realigned capability and 
capacity to meet immediate needs. This has been accomplished by 
overtime, additional shifts, and utilizing commercial vendors and other 
DOD depots. Currently, our depots are not constrained by funding or 
capacity. It is logical to expect an increase in depot rebuild 
requirements as the Marine Corps increases its deployed battalions 
forward in Iraq, while concurrently executing a robust equipment 
rotation strategy for combat forces.

Impact on Marine Corps Aviation Equipment
    The long war on terror has resulted in aircraft use rates far 
greater than designed or programmed on Marine Corps aircraft. All USMC 
aircraft are operating at two to four times their programmed rates; our 
unmanned aerial vehicle (UAV) squadrons are flying at ten times their 
programmed rate. In order to meet demands of the current fight and 
posture ourselves for success in the Long War, we must husband these 
low density, high demand assets. The Marine Aviation Plan mitigation 
strategy sustains our legacy inventory while we simultaneously 
transition to new platforms to source the MAGTF and joint force in the 
future.
    The timely support and execution of the Marine Aviation Plan will 
determine USMC aviation force readiness today and tomorrow. KC-130J, H-
1, and MV-22 production lines are now active but funded below maximum 
capacity. Additionally, F/A-18D and CH-53E aircraft will reach the end 
of their service lives before replacement aircraft become available. 
These shortfalls underscore the urgency for the F-35B and CH-53K 
programs to remain on schedule.
    Turn Around Ratio for all USMC helicopter and UAV squadrons as well 
as our air traffic control detachments and aviation logistics falls 
short of directed 1:2 deployment-to-dwell ratios. Over the past year, 
many of these units have a dwell time less than 1:1 with most for 7 
months and only home for 5. The combination of this deployment-to-dwell 
ratio and increased usage rates creates a cumulative effect that 
exacerbates the stress on some components of Marine aviation. Our end 
strength increase will include both aviation equipment and personnel 
increases to reduce this strain.

  VI. IMPROVING THE QUALITY OF LIFE FOR OUR MARINES AND THEIR FAMILIES

    Our family support mechanisms remain robust and flexible and are 
continuously assessed to ensure sufficiency and relevancy to our 
wartime mission--particularly during crucial ``rapid fire'' operations. 
Though some Marine Corps families will be impacted by extended 
deployments, family support systems to meet this requirement are within 
Marine Corps capacity. We continue to provide emphasis on Combat/
Operational Stress Control (COSC), Casualty Assistance, and support to 
our injured marines.

Combat/Operational Stress Control
    Managing stress is vital to the Marine Corps as a fighting force 
and the long-term health and well-being of Marines and their families. 
The culture and climate of the Marine Corps must facilitate Marines and 
families seeking necessary help when their lives are not returning to 
normal. Unit leaders have the greatest potential to influence marines 
and their families and ensure they feel comfortable asking for help. 
COSC, therefore, is the responsibility of Marine leadership and 
includes support from medical personnel and chaplains.
Casualty Assistance
    Each marine fatality is a tragic loss to his or her family and the 
Corps. We endeavor to honor their sacrifices with sincerity and 
commitment. Our Casualty Assistance Calls Officers are trained to treat 
next of kin and other family members as they would their own family. 
Each case is distinct, and assistance to surviving families must be 
carefully segmented and specifically adjusted to facilitate their 
transition through grief stages and completion of the casualty-
notification process.

Wounded Marines and Sailors
    The Marine For Life Injured Support program was developed to assist 
seriously and very seriously injured marines, sailors who have served 
or are serving with marines, and their families. Among other 
components, the program seeks to bridge the gap between military and 
the Department of Veterans Affairs medical care by providing individual 
support through the transition period. Additionally, I have directed 
creation of a Wounded Warrior Regiment to provide centralized oversight 
of care for our wounded marines and assist in the integration of their 
support with military, government, charitable, and civilian systems.

Traumatic Brain Injury and Post-Traumatic Stress Disorder (PTSD)
    Recent measures to mitigate the impact of traumatic brain injuries 
to individual marines and their units include release of a medical 
guidance letter from the medical officer of the Marine Corps. The 
Marine Corps has also implemented an improved helmet pad system to 
decrease impact of injury from a blast or blow to the head.
    The science of diagnosing and treating PTSD continues to evolve. 
Screening is taking place in theater and at home stations. Research and 
training are underway to identify risk and protective factors for PTSD, 
increase resilience to stress, and improve individual/leadership 
awareness, early identification, and psychological first aid for those 
who are stress-injured.

                            VII. CONCLUSION

    Thank you for the opportunity to report to you on behalf of the 
valiant men and women of your Corps. They remain committed to their 
mission and know that the American people and its government support 
them in their endeavor. Your Corps stands ready to serve in any clime 
and place, but your continued support remains a vital and appreciated 
foundation to this Service.

    Chairman Levin. General, thank you.
    We are going to have a little tricky schedule here this 
morning. We have two votes at 10:30, and we are just going to 
have to work around them the best we can. Hopefully, some of us 
could leave to vote at the beginning of the first vote and the 
end of the second vote so that we do not have to recess this 
hearing. We will try a 6-minute round, given our schedule this 
morning.
    General Schoomaker, first is the current readiness of your 
nondeployed Army forces at an acceptable level?
    General Schoomaker. Sir, as I have testified in the past 
and as the chairman's risk assessment, which is classified, 
which you have, shows, I am not satisfied with the readiness of 
our nondeployed forces. I would say that the level of 
operations that we are now committed to further aggravates 
that.
    Chairman Levin. Are you able to tell us in an unclassified 
setting what percentage of your Active Force is not deployed 
and what percentage of this nondeployed force is trained and 
ready for worldwide commitment?
    General Schoomaker. Well, I have no concerns on the force 
that we deployed. They continue to be the very best trained, 
led, and equipped force. I do not think I can say in an 
unclassified forum any percentages of our nondeployed force. 
Needless to say, we are having to go to some extraordinary 
measures to make sure that we have the ability to respond 
properly.
    Chairman Levin. Would you say that the percentage, although 
you cannot give it, that we are in worse shape now than 6 
months ago?
    General Schoomaker. I would say the pressure on us has 
increased as a result of the level of operations, yes, sir.
    Chairman Levin. Thank you.
    General Conway, can you tell us whether or not the 
readiness of your nondeployed Marine Corps force is at an 
acceptable level?
    General Conway. Sir, I would say it is acceptable, but I do 
have some concerns. It is not on a par with those forces that 
are deployed certainly, I think it is fair to say. In general 
terms, because we are in open session, I would say that our 
equipment status is pretty good. I think my largest concern 
probably has to do with training. When we are home for those 7, 
8, 9 months, our focus is going back to Iraq and, as I 
mentioned in the opening statement, therefore we are not doing 
amphibious training, we are not doing mountain warfare 
training, we are not doing combined arms live fire maneuver, 
such as one would need to be the case potentially in another 
type of contingency. So those are my concerns.
    Chairman Levin. Thank you.
    The DOD's IG released a draft report in January indicating 
that troops in Iraq and Afghanistan, ``experienced shortages of 
force protection equipment such as uparmored vehicles, 
electronic countermeasure devices, crew-served weapons, and 
communications equipment.''
    We also continue to see press reports of problems, 
including one in the Washington Post this week, in which, 
``Units in Iraq and Afghanistan lack more than 4,000 of the 
latest Humvee armor kit, known as framentation (FRAG) Kit 5.'' 
The Army released a statement also this week indicating that 
they produced sufficient armor kits for Humvees, but that 
installation will drag into the spring for Iraq and into the 
summer for Afghanistan. These delays, I know, are unacceptable 
to you and they are unacceptable to us.
    I am wondering if you could tell us what your plans are to 
eliminate all force protection equipment shortages throughout 
the area of operations, both Iraq and Afghanistan? First 
General Schoomaker.
    General Schoomaker. Sir, first of all, I think you know 
that we did not concur with the DOD IG report, that we felt it 
was anecdotal in nature. It is clear that Afghanistan, because 
of the recent requirements coming out of Afghanistan with the 
train and equip mission, we do have some work to make up there 
and we are doing that. However, in Iraq I stand on what I said 
before. There is no shortage of equipment to perform the 
missions that are being conducted today, to being able to cover 
the surge with sufficient uparmored Humvees, weapons. There is 
no problem on personal individual body armor and this kind of 
thing.
    We do have the steel and the kits to complete all of the 
vehicles that are in country right now. We are close to a 
little over 14,000 vehicles in country. As correctly stated, we 
are applying kits to about 3,000 of those. But there are 
adequate--12,000 vehicles over there that are adequate for the 
need, and we are working with General Petraeus very carefully 
to ensure nobody goes outside of protected space that is not 
adequately protected for the mission.
    I am sorry?
    Chairman Levin. That includes then this latest Humvee armor 
kit, that FRAG----
    General Schoomaker. It does. I am talking about FRAG Kit 5.
    Chairman Levin. You are.
    General Schoomaker. We have been operating under an order 
that General Casey issued that nobody would leave protected 
space that was not in a level 1 uparmor. FRAG Kit 5 is an 
increased level of protection. We are now in my view 
approaching a point where nobody will leave protected space 
without FRAG Kit 5. This is a continuing process of improvement 
and the MRAP that we have asked for is an improvement over FRAG 
Kit 5. That is the next step that we want to go through on the 
path to an even better protected vehicle, the joint program, 
that we feel is necessary in the future.
    The MRAP is a program we have had in the Army for quite 
some time. It is now a joint program with the Marine Corps. We 
have almost 1,000 MRAP vehicles if you consider the Armored 
Security Vehicle (ASV), which is part of that program, and the 
route clearance equipment like Buffalos, Cougars, and RG-31s. 
We already have about a thousand of these in theater. So we are 
already on the path to the next step.
    Chairman Levin. Just to complete that question, there was a 
quotation in the paper from General Speakes, I believe, if I 
can find that. Lieutenant General Stephen Speakes, Deputy Chief 
of Staff, said that the Army, ``does not have the armor kits 
and does not have the trucks,'' requiring units deploying to 
share with units already there.
    What was he referring to?
    General Schoomaker. He is referring to the FRAG Kit 5 
additions. Our biggest challenge, quite frankly, is in the 
medium tactical vehicles and the heavy tactical vehicles, the 
logistics vehicles, and that gap is being closed as well.
    Chairman Levin. But he said that the Army does not have the 
armor kits. He is quoted as saying that the Army does not have 
the armor kits.
    General Schoomaker. We do not have the armor kits to 
complete the entire inventory in the Army, but we have focused 
these kits on the theater. Now, Major General Stephen M. 
Speakes, USA, is here. Do you want to clarify that?
    General Speakes. Yes, sir.
    Sir, it is my privilege to address you and, having seen my 
name in the press, I would appreciate the chance to correct the 
record. What I was illustrating when I talked about the depth 
of our planning was the commitment that this Army under General 
Schoomaker's lead and Secretary of the Army, Francis J. Harvey, 
to ensure that no soldier goes in harm's way untrained or 
unequipped. My responsibility is the equipping part of this 
thing.
    The first thing we talked about is the concept of what we 
are doing right now to ensure that theater-provided equipment 
is made up for these additional brigades that are coming into 
theater. They do not have a unit to fall in on with whom they 
will exchange the equipment. We have to make sure those sets 
are put together.
    We have a very, very detailed plan that essentially is 
aligned with each brigade to ensure that as that brigade 
arrives a full complement of equipment is waiting for them. The 
particular focus has been up-armored Humvees with the complete 
suite of equipment that is required. That is, a blue force 
tracking, that is a jamming device, that is a crew-served 
weapon. All that is now configured and prepared in echeloned 
order through the spring.
    The issue that I identified--and I wanted to use this to 
give the American taxpayer confidence we have done our 
homework--was medium and heavy trucks is an issue. The problem 
right now is we do not have great surpluses of medium and heavy 
trucks waiting in Kuwait to issue additional brigades. So what 
we are doing right now is, able to equip the first elements, 
the first brigades that are deploying, with existing sets of 
heavy trucks.
    What we identified was that at the tail end of this surge 
we have some work to do. The problem in creating these kits is 
industrial work. The factories are not producing that any more. 
We had produced enough for the theater and a comfortable 
surplus. The surge complicates that challenge.
    What we are doing is two things. First, we are cross-
leveling about 800 trucks out of more than 11,000 that are in 
theater right now. We have already received a detailed plan 
from Multi-National Corps-Iraq (MNC-I). They have provided us 
the specifics on what trucks will be made available and when to 
make up those requirements. We then at the Army level are 
continuing now to start up another factory effort to ensure 
that additional kits are made ready. They will be installed and 
made ready in the summer. So what we will do in the near-term 
is cross-level, and in the long-term what we will do is 
generate new production and new capability.
    Our point was that we stand behind our guarantee. We will 
do it right. We will ensure that no soldier operates without 
the correct equipment.
    Chairman Levin. General, thank you so much.
    General Schoomaker. Sir, could I just add real quick?
    Chairman Levin. Sure.
    General Schoomaker. Going back, there is no soldier today 
that is in harm's way over there--we are in a foot race on the 
wheeled vehicles. But let me just reemphasize, we also are 
deploying tanks and Bradleys, Strykers, ASVs, and the rest of 
these vehicles which complement, actually are increased 
protection over Humvees and these trucks. Part of my concern is 
the fact that we have drawn on prepositioned stocks to be able 
to equip this force that is over there, which reduces our 
flexibility.
    Chairman Levin. These are really important assurances to 
us. We are all very much concerned when we look at what is 
ahead of us, and we thank you both.
    Senator McCain.
    Senator McCain. Thank you very much, General Schoomaker and 
General Conway.
    We now plan to increase the size of the Army and the Marine 
Corps. Are we going to have any difficulty recruiting these 
additional personnel? General?
    General Schoomaker. In my view, sir, we can accomplish what 
I said. 7,000 to 9,000 additional recruits a year, that is what 
we programmed for. This year some of that growth is in 
supplemental funding, but in future years all of that growth is 
going into the base budget.
    Senator McCain. But I mean, you believe we can recruit 
without having to provide additional incentives to serve?
    General Schoomaker. Sir, I believe we can do it. Last year 
we had our best year in 9 years in the Active Force and the 
best year in 13 years in the National Guard. I believe we have 
exceeded our goal the first quarter of this year. We exceeded 
January. We are on path to exceed February----
    Senator McCain. But there is also information in the media 
that you are increasing the number of waivers, that the Army 
and Marine Corps are increasing the numbers of waivers in order 
to meet recruiting goals. Is there anything true to that?
    General Schoomaker. Sir, that is true. We have increased 
the number of waivers over the past year. But I can assure you 
that every one of those is being looked at on an individual 
basis. We are tracking those soldiers through the system. We 
are seeing that the soldiers that we have waivered are 
retaining in the force and not attriting, in other words, at 
the same percentage that other soldiers, and we believe that 
what we are doing is proper. We understand the concern, but it 
is getting a great deal of top attention in terms of what we 
are doing.
    Senator McCain. General Conway?
    General Conway. Sir, we think that the number of 5,000 a 
year is about right for us without any diminishment of quality. 
There are some things we are going to have to do. We are 
appealing to some of the marines who are with us now to stay 
longer. We are sending out a letter to marines who have been 
out 1, 2, 3, 4 years to consider coming back until this fight 
is over. They are trained and they would be helpful.
    We are going to have to put, we think, some additional 
recruiters into field in order to be able to come up with the 
numbers. But we feel confident that we can do that.
    With regard to the waivers, sir, if you want me to address 
that. We have not changed our standards since before September 
11. What we have seen is a mild increase in the number of 
waivers that have been granted--we call them moral waivers--
over time. But we ask hard questions upfront and we want people 
to be honest with us, and if we find that they are not, then 
they are not granted a waiver.
    As General Schoomaker indicated, we track these people 
through training to gauge success in attrition rates and, in 
fact, we have seen no increase in attrition even though our 
waivers have gone up mildly.
    Senator McCain. General Schoomaker, you spoke very strongly 
that you are not satisfied with the readiness of the 
nondeployed forces. When did you come to this conclusion that 
the readiness of nondeployed forces was unsatisfactory? A year 
ago, 2 years ago, 4 years ago, yesterday?
    General Schoomaker. I testified in June, as a matter of 
fact I believe it was June 27, before the House Armed Services 
Committee last year when it reached a level that I was 
concerned. Obviously, I have been concerned since I have been 
the chief about accelerating the transformation and filling the 
holes in the force that I have testified to many times.
    As you conduct combat operations you increase combat 
losses, you increase the attrition and repair, the consumption, 
so to speak, of the force. So we are working a very complex 
formula here as we go forward.
    Senator McCain. I understand that, but it was pretty well 
known to many of us that we were going to be in this thing for 
a long time. It was very tough, that these things were going to 
happen. Yet somehow it does not seem that the Pentagon 
anticipated, at least sufficiently, because we are now at the 
position that you just described, that nondeployed forces are 
not ready.
    So my curiosity is aroused as to why we did not act to 
prevent this situation, which has obviously serious 
implications.
    General Schoomaker. Well, sir, I can speak for the time 
that I have been here. We requested--you might remember, going 
back to 2004, we only received $300 million in procurement in 
our supplemental funding to address the attrition and combat 
losses. There was a time the year before that when there was no 
appetite for any procurement funds in supplemental funding, 
when we knew that the attrition of the force was going to--or 
of equipment, the depreciation of equipment.
    In 2005 we got about $8 billion worth of procurement in the 
supplemental funding. In 2006 we got another $8 billion, but 
you might remember that all the way up through 2006 we never 
received this money in time, nor to the full request. This year 
we received for the first time in time for the fiscal year to 
start the money we asked for, sufficient money, on time, and we 
have now committed about $12 billion of the $17.1 billion that 
we received on the 1st of October to address this problem.
    Senator McCain. So for several years Congress failed to 
meet the requests of the DOD?
    General Schoomaker. Sir, I am not saying Congress failed. 
You know the system. The Army submits is requirements. It goes 
through the DOD to the Office of Management and Budget (OMB), 
into the President's budget, and across to Congress. The record 
is clear and we can provide it for the record what our request 
was against what passed through the Office of the Secretary of 
Defense (OSD)--to the President's budget, and then what 
Congress did with it.
    Senator McCain. Well, the only reason why I asked, I was 
under the impression that Congress had fully funded the 
requests that came to Congress from the executive branch. So--
--
    General Schoomaker. Sir, in some cases Congress added money 
to our request, to the President's budget.
    Senator McCain. So the breakdown was someplace between your 
budget request and what arrived at the doorstep of Congress?
    General Schoomaker. Sir, the system is clearly understood. 
We all know what the system is.
    Senator McCain. Well, it is a bit dispiriting, though, 
because I think that most of us on this committee would have 
supported whatever we thought was truly needed to prevent us 
from being in the situation where we are in today, which I 
agree with you does not affect the situation on the battlefield 
today, but is clearly, I think--and you have stated it I think 
in forthright terms--of great concern if we have a lack of 
readiness on nondeployed forces. I hope that it will be a 
subject of attention of this committee as well as the 
Appropriations Committee.
    I thank you, Mr. Chairman. I thank the witnesses.
    Chairman Levin. Senator McCain is right. I believe we have 
at least supplied the funds requested and more so in the number 
of years. But if you would submit that document for the record 
that you just said that you would be happy to supply, as to 
what your request was to the OMB and then at each step of the 
way what happened to it over the last 4 years, it would be very 
helpful to us.
    [The information referred to follows:]

 Army's Budget Request as Submitted to the Office of the Secretary of 
          Defense (OSD) from Fiscal Year 2003-Fiscal Year 2008

    The table below displays the Army's combined base program request 
and supplemental request since fiscal year 2003 in three columns: as 
submitted to the OSD (Comptroller), as approved by OSD, and the Office 
of Management and Budget and as appropriated by Congress.

                                            [In billions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                 Army Request       OMB/OSD       Congressional
                         Total Budget                               to OSD          Position     Position (APPN)
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2003.............................................          $135.6           $115.6           $115.2
Fiscal Year 2004.............................................           145.6            131.2            134.2
Fiscal Year 2005.............................................           168.3            155.4            159.5
Fiscal Year 2006.............................................           187.7            165.9            165.7
Fiscal Year 2007 (Base and Title 10 Only)....................           160.4            160.7            159.0
----------------------------------------------------------------------------------------------------------------

    This table shows the amounts requested by the Army and subsequently 
approved by OSD/OMB for the fiscal year 2007 emergency supplemental, 
fiscal year 2008 base budget, and fiscal year 2008 global war on 
terrorism request.

                        [In billions of dollars]
------------------------------------------------------------------------
                                          Army Request       OMB/OSD
                                             to OSD          Position
------------------------------------------------------------------------
Budget Request Fiscal Year 2007 Main            $ 66.0           $ 58.9
 Supplemental \1\.....................
Fiscal Year 2008 Base \2\.............           130.7            130.0
Fiscal Year 2008 Global War on                   105.1             92.1
 Terrorism Allowance \3\..............
------------------------------------------------------------------------
\1\ Adds $12.2 billion for Afghanistan Security Force Fund (ASFF), Iraqi
  Security Forces Fund (ISFF), and the Joint IED Defeat Organization
  (JIEDDO) not included in the Army's request to OSD but submitted to
  Congress by OMB/OSD.
\2\ Includes $7.7 billion for Grow the Army.
\3\ Adds $8.7 billion for ASFF, ISFF, and JIEDDO not included in the
  Army's request to OSD but submitted to Congress by OMB/OSD.


    Chairman Levin. Senator Kennedy.
    Senator Kennedy. Thank you.
    Senator Warner. Mr. Chairman, I have an inquiry. On our 
hearing notice, the footnote says there is a possibility of a 
closed session. I think, in view of the first responses of our 
witnesses, that closed session in my judgment is a needed 
session.
    Chairman Levin. We hope that we can reach a closed session 
here today, depending on the timing. But it is an important 
subject we are at, and we will either--if we have a closed 
session we can get into the percentages which are referred to 
as to the lack--the shortfalls in readiness of nondeployed 
forces. If we cannot get to a closed session, for whatever 
reason today, we would then ask those questions for the 
classified record.
    General Schoomaker. Sir, we would be glad to send the 
experts over here and lay it down in detail for you.
    Chairman Levin. Thank you so much.
    Senator Kennedy.
    Senator Kennedy. Thank you very much.
    General Schoomaker, thank you for your service.
    General Schoomaker, every time this committee has asked you 
whether we have had sufficient funding and equipment to protect 
our troops in Iraq, we have been assured that we do. In 
November 2003 you told the committee: ``This Army is committed 
and what we have to do is commit ourselves and make sure we are 
supporting our soldiers.''
    Three years ago you told the committee: ``I am confident we 
are doing everything we can to move more uparmored Humvees and 
other armored vehicles into the theater.'' When I expressed 
frustration about the lack of armored Humvees and the need to 
make it a higher priority in February 2004, you said: ``We are 
raising the production levels. I am with you 100 percent.''
    April 2005, the Deputy, former Marine Corps Commandant 
General Michael W. Hagee, testified at a Seapower Subcommittee 
hearing: ``Marines had all the funding they needed for 
uparmored Humvees.'' Two months later General Hagee assured the 
committee ``The force protection of our troops is absolutely 
priority number one.''
    In June 2005, when I raised the issue with General Myers, 
he assured us that ``Safety and the force protection of our 
troops is absolutely the first priority.''
    February 2006 when I asked you again about this topic, you 
said: ``We are going to continue to have either anticipated or 
overproduce, which I believe we have in body armor, or come up 
with other solutions to the situation we have.''
    According to the April 2005 Government Accountability 
Office (GAO) report, the Army said nine times that they had 
enough, the Army had enough, armored vehicles, only to turn 
around and add more. Each time the Army paid for them with 
funds Congress added to purchase Army vehicles in excess of the 
stated requirements.
    Now, I understand that your unfunded priority list for 2008 
includes $2.2 billion for MRAP vehicles, the most up-to-date 
protection for our troops. But you are not asking for any MRAP 
funding in the fiscal year 2008 budget, either in the basic 
budget or in the supplemental. In the Army budget, you only 
funded 60 vehicles and asked for 500 more vehicles in the 2007 
supplemental.
    The Marines have funded 805 vehicles and requested 244 more 
in the supplemental. You have only asked for 60 and requested 
500 for Congress to provide.
    Why is the Army not putting this as a higher priority?
    General Schoomaker. Sir, first of all let me go back and 
address--as you recall, the original requirement for uparmored 
Humvees was 235 vehicles. Today it is 18,000 vehicles. Every 
time we start closing the gap over the request that the theater 
makes, it moves again. So every time we have testified, we have 
testified to the facts as they were at that point in time. As 
we continue to move forward the goal keeps moving forward. So 
what we are trying to do is overstretch.
    As to the unfunded requirements, in our original requests, 
those requirements that are unfunded are in the request. We are 
asking for 2500 MRAP vehicles in the program. We want to build 
MRAP as fast as we can, and of course at some point in time we 
want to make sure that we can transition into the joint 
vehicle, which is a better solution.
    Senator Kennedy. General, why is it that in the Army you 
only have 60 vehicles, and the Marines got 800 funded? They 
bought it out of their own funds. You have only put 60 in your 
funds and you have asked Congress in the supplemental to put 
500. The Marines have put money for 800 vehicles in their own 
funds and requested 244 more. Then you are not requesting any 
MRAP funding for fiscal year 2008, either in the basic or in 
the supplemental.
    You have unfunded for $2 billion. But the issue is in terms 
of your priorities, 60 vehicles funded in the Army's budget, 
and you are expecting Congress in the supplemental to do the 
500. The Marines, because of the urgency, have asked for 800 to 
be funded. That is, we are trying to find out--we have gone 
over this, the uparmoring of the Humvees, over a long period of 
time.
    I think it has been tragic that we always find out--it has 
by and large been Congress that has been after the increase in 
the uparmoring of the Humvees over a long period of time. Now 
we are finding out, just in terms of the point that has been 
gone over with General Peter Pace, USMC, and others about the 
shortage and about how people are not going to go out into 
missions because they have not gotten it, now they find out the 
Army has only requested 60 vehicles in here. I do not 
understand how this is consistent with the assurances that you 
are giving this committee this morning.
    General Schoomaker. Sir, that number does not track with my 
numbers and I would like to have--come up here and tell me what 
we have funded, General Speakes.
    Chairman Levin. If you would give us what is funded and 
what is requested in 2007 supplemental.
    General Speakes. Yes, sir. Sir, let me address the concept. 
The concept right now is----
    Senator Kennedy. Just give me the numbers, please, and then 
we can get the concept.
    General Speakes. Sir, absolutely. The requested 2007, $520 
million. We are in the process right now. We have submitted a 
reprogramming request for $70 million. That is up at the OSD's 
office being considered now.
    In fiscal year 2008, an additional $500 million. We also 
put into our unfunded requirements list $2.2 billion. That goes 
and buys out about 2,500 vehicles. We are en route then to the 
future. We are doing it now.
    Senator Kennedy. That is unfunded?
    General Speakes. Yes, sir.
    Senator Kennedy. So that is unfunded.
    General Speakes. Yes, sir, it is.
    General Schoomaker. Not all of it.
    Senator Kennedy. Well, I have the list. I do not want to 
take up more time, but I have the list, the DOD list, which is 
unfunded requirements, MRAP at $2.2 billion. I had, my 
information was you funded out of your Army budget 60 vehicles 
and had requested in the supplemental 2007 for 500 more 
vehicles.
    My time is up here. If you could translate that, those 
figures that you gave, into that.
    The point that I was saying here, General, it is difficult 
to gather the sense of urgency that I think most have expressed 
about having adequate equipment over there when we have the 
Army, which has a major role in this surge aspect, and the Army 
request is only 60 vehicles, and the Marines have gone up to 
the extent that they have had virtually eight times the amount 
of the Army, and the request--I will make those figures 
available. If you could just answer back I would very, very 
much appreciate it.
    General Schoomaker. Sir, we will respond for the record 
because those figures I do not believe track with what we have.
    [The information referred to follows:]

            Mine Resistant Ambush Protected (MRAP) Vehicles

    The current Army MRAP vehicle requirement of up to 2,500 
vehicles is based on recent Joint Urgent Operational Needs 
Statements (JUONS) and an Army operational needs statement. 
MRAP is a Theater-unique requirement that fills a specific 
capability niche by providing our Warfighters with an increased 
force protection capability now through commercial off-the-
shelf procurements. The program is currently managed as an 
Acquisition Category II (ACAT II) with resourcing dependent 
upon supplemental funding, but given the Joint quantities and 
cost projected for the MRAP it is likely to become an ACAT ID 
program of record with resourcing required in the base budget.
    The requirement for MRAP was not contained in the fiscal 
year 2008 base budget because it came into the Department as a 
JUONS request from Theater to support the global war on terror. 
Therefore, the request for funding was submitted as a 
supplemental request. Current Army funding for MRAP consists of 
initial start-up funding of $90 million as a cash flow from the 
high mobility multi-purpose wheeled vehicle (HMMWV) program 
until receipt of the $520 million requested in the fiscal year 
2007 main supplemental. To support this strategy, the Army 
submitted reprogramming requests that total $90 million to the 
Office of the Secretary of Defense. Upon receipt of the $520 
million fiscal year 2007 main supplemental, the Army intents to 
repay the $90 million reprogrammed from the HMMWV program, with 
the remainder of the $430 million going to MRAP. Procurement of 
all 2,500 MRAP vehicles will require an additional $2.249 
billion, which is currently unfunded.

    Senator Kennedy. All right. Well, I will give the General 
just the figures from DOD that I have here. That is where we 
have gotten them, both from the Marine Corps and--and if those 
are not accurate then we would like to be corrected.
    Thank you.
    Chairman Levin. Thank you, Senator Kennedy.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General Schoomaker and General Conway, thanks so much for 
your service and for being here today.
    General Schoomaker, in your testimony you had mentioned 
that budget reductions in fiscal year 2006 caused the Army to, 
``slam the brakes on expenditures when supplemental 
appropriations were not provided when expected.'' You also 
mentioned lack of funding in fiscal year 2006 was avoidable. I 
guess the question is, how was it avoidable? Was it a planning 
issue or a communication issue with Congress?
    General Schoomaker. Sir, we received the main budget in 
2006 at the end of December. That is one quarter after the 
fiscal year started. We received our first increment of 
supplemental funding at the same time, at the end of December. 
We received our second increment of supplemental funding at the 
end of June, June 30, which was only 90 days before the fiscal 
year ended.
    Chairman Levin. June 2006?
    General Schoomaker. I am talking about in 2006. Last year, 
is what I testified to. So we received--we cash flowed ourself 
for the entire first quarter of 2006, which caused us to have 
to take extraordinary measures to slow things down.
    We then had to cash flow ourself again all the way to June 
30th. You might remember we had significant dialogue with the 
Hill about the impacts of this. We had to go through 
extraordinary measures of laying people off, slowing down 
production in depots, stopping travel, stopping all kinds of 
things that were crucial to us.
    When I testified in June about my concerns about the 
nondeployed force readiness, it precipitated an effort from the 
Hill that was appreciated, which gave us $17.1 billion in reset 
funding at the beginning of this fiscal year, which included 
over $4 billion. Actually, there was almost $5 billion that we 
were denied the previous year to catch up. So the $17.1 billion 
was actually a makeup from 2006 and what we anticipated we 
would need for 2007 to keep things going.
    As a result of getting the money on time in sufficient 
amount, we now are up to over 25 million direct labor hours in 
our depots. We accelerated from 8 hour shifts, once a day, 5 
days a week to now where we are averaging 2 shift 10-hour days, 
6 days a week, a significant increase in our depot output for 
reset.
    So that is what I was speaking to. It is a matter of timing 
and sufficiency, and this year we will suffer the same fate if 
we do not see the supplemental funding come in by April. We 
will end up having to go right back through that same cash flow 
kind of a problem and we will slow down this whole system. 
Again, I remind you that the Army request as it goes in, just 
like the Marine Corps and everybody else, goes through a 
process where different levels help shuffle these priorities 
about what is and certain things end up unfunded.
    Senator Thune. What advice would you pass on to General 
George W. Casey, Jr., USA, to ensure that it does not happen 
again?
    General Schoomaker. Well, we have already had significant 
discussions, the last one as late as yesterday. I told him that 
it is absolutely essential, I mean it is just paramount, that 
we maintain the momentum. If we do not maintain the momentum 
and the synergy that we have achieved here between DOD and the 
Hill and get and continue to stay ahead of this problem, we are 
going to end up having to back up.
    Now, I remind you we started this fight flat-footed as a 
result of the $100 billion in underinvestment in the United 
States Army that occurred following the Cold War. The Army was 
the major bill-payer in the peace dividend. So we started with 
a $56 billion deficit in equipment. The Army is only 40 
percent--I am talking about Active, Guard, and Reserve--it is 
only 40 percent of the size of the Army at the end of the Cold 
War.
    We are on a very aggressive program to increase the actual 
organizations in the Army, combat organizations, by over 30 
percent. We now have permission to grow the Army in terms of 
personnel to man that. But at the same time where we are at 
war, where we have combat losses and we have accelerated 
depreciation of this equipment because of how hard it is being 
run, we still have to make up that shortfall that we started 
with, at the same time that it is attritional, at the same time 
we are trying to grow.
    We cannot do it by keeping shooting behind the ducks. We 
have to get ahead of the program and that means adequate 
funding in a timely fashion to get ahead of where we have to 
go. We have that momentum today and I really meant what I said. 
I appreciate the support we have gotten out of this committee. 
We are on the right path. We need to continue to support 
General Casey and the Army as we go forward. We need to 
complete this. It includes things such as Base Realignment and 
Closure (BRAC) and Military Construction (MILCON), which right 
now we are fighting. We have a $2 billion shortfall in BRAC 
funding, which means we will not have barracks, training 
facilities, child care centers, family housing, for the units 
we have to grow and reposition.
    So we need your help to operate in anticipation of where we 
are trying to go and join together in our campaign to get this 
thing right. We are in a dangerous period and the things that 
we are seeing today are going to continue.
    I just finished talking to my Chinese counterpart the other 
day and they did not say that we are their adversary, but they 
made it very clear that people are going to school on what they 
see happening, and this asymmetric component of warfare is 
going to continue to be part of warfare in the future and we 
have to fix this force, Marine Corps, Army, Special Operations 
Force (SOF), the Navy and Air Force, in such a fashion that it 
is prepared for the 21st century.
    So I am sorry to amplify this thing into a big ball here, 
but we have to quit dealing tactically with this problem and 
deal with it strategically, which means we have to look at the 
whole issue and we have to come together in a way that solves 
this issue, not chasing Humvees every time that they raise, but 
going and reaching out and getting ahead of this.
    These people that keep saying that we are never going to do 
this again, I do not know where they come from. I mean, this is 
a peek into the future and we better get ourselves ready for 
it.
    So I will get off my soap box, but I have probably answered 
more of the question than you wanted. But that is where I am 
coming from.
    Senator Thune. I appreciate that.
    My time has expired, Mr. Chairman, but I may submit a 
question for the record regarding National Guard funding in 
particular as it pertains to my State of South Dakota.
    General Schoomaker. Sir, if I could, I can tell you 
something right now. We have about $46 billion in equipment 
that is in this budget for the National Guard and Reserves. If 
you take a look beyond 2013, there is an additional $52 billion 
worth of requirements that we estimate right now. Of that, $24 
billion is for the National Guard and Reserves.
    Chairman Levin. Thank you.
    General Schoomaker. So this budget that is submitted, 
although substantial, is only getting us part way by 2013. If 
we want to do something smart we would try to accelerate some 
of that stuff outside this program at some point into this 
program and get ahead of it.
    Chairman Levin. Thank you, Senator Thune.
    I have just been informed there is going to be a third vote 
this morning, which complicates our lives further. But we are 
going to continue just to try to work around it the best we 
can.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman,
    General Conway, General Schoomaker.
    Let me add my commendation, General Schoomaker, for your 
service in a very difficult situation. You have performed 
admirably. Thank you very much, sir.
    I just want to go back and clarify something in General 
Speakes' comments to Senator Levin. You used the term ``cross-
level.'' What does that mean? Maybe General Speakes----
    General Schoomaker. Are you asking me?
    Senator Reed. Either one. Who is most prepared?
    General Schoomaker. Well, in our terms what we are doing to 
accelerate forces into theater is having to move maneuver 
equipment, as I am sure the Marine Corps is doing, across units 
to make fully equipped units that are going forward.
    Senator Reed. So essentially you are taking equipment from 
units, principally in the United States, I presume?
    General Schoomaker. That is correct.
    Senator Reed. Giving them, which further erodes your 
deployment situation, your readiness situation for nondeployed 
units?
    General Schoomaker. That is correct. That is the dilemma.
    Senator Reed. Let us just focus a minute on the last 
brigade you have scheduled to go into Iraq. They do not have--I 
presume they do not have the equipment physically in their 
possession yet, all of it; is that correct?
    General Schoomaker. They have--first of all, I do not want 
to talk about timing. But it is down the road a ways.
    Senator Reed. Yes, sir, I do.
    General Schoomaker. The answer is that they have the 
equipment that is available in the continental United States 
and, yes, they have been accelerated and they are training with 
it. However, things like FRAG-5 uparmored Humvees, and some of 
the theater-specific equipment they will not link up with until 
they get into theater.
    Senator Reed. That equipment that they have to link up has 
been identified?
    General Schoomaker. It has been. That is what General 
Speakes was talking about.
    Senator Reed. There is not a situation where there could be 
a disconnect--I am talking about the last brigade now moving 
forward and those last units--where it is identified, but it 
cannot be produced or it is not available, it is not linked up? 
You are confident that----
    General Schoomaker. I believe we have the solution in hand. 
It is going to be some hard work. I believe we will get there, 
given the set of conditions we have today.
    Senator Reed. Let me switch to another issue which I think 
you are being tasked for and that is, first, the enablers--
translators, civil affairs officers. Have you a full complement 
of translators and civil affairs officers for these new 
tactics?
    General Schoomaker. We have accelerated all of that. We are 
doubling our civil affairs holdings. We are growing Special 
Operations Command by about 14,000, which is civil affairs, 
psychological operations (PSYOPs), Special Forces, Rangers, 
Special Operations Aviation, so those things. But again, it is 
going to take time. I mean, this is going out through the 
program.
    Senator Reed. We understand that, sir. But you have a 
mission to support Lieutenant General David H. Petraeus', USA, 
new counterinsurgency tactics, which presumes significant 
translators since you are operating in small units, in the 
neighborhoods. Can you guarantee us that they will have the 
full complement of the requested translators and civil affairs 
officers?
    General Schoomaker. I cannot guarantee that. I know we are 
working very hard on it.
    Senator Reed. Yes, sir.
    General Schoomaker. We are going to do the best we can.
    Senator Reed. I understand, and I appreciate your candor.
    With respect to the supplemental, General Conway, how much 
did you ask for this supplemental, the Marine Corps?
    General Conway. Sir, $5.6 billion.
    Senator Reed. How much did you get?
    General Conway. You are talking about----
    Senator Reed. I am talking about the fiscal year 2007 
supplemental.
    General Conway. The bridge supplemental, sir, the one 
that--we received all we asked for.
    Senator Reed. You received all you asked for?
    General Conway. Yes, sir.
    Senator Reed. General Schoomaker, how much did you ask for 
in the bridge supplemental?
    General Schoomaker. We had in the--it comes in different 
pieces. The bridge supplemental title 9 was about $44 billion. 
It is $43.8 billion. The main supplemental request for 2007 is 
$46.7 billion.
    Senator Reed. Do you have it all that you asked for?
    General Schoomaker. We received what we asked for in the 
bridge. The main is pending.
    Senator Reed. The pending, have you received everything in 
the pending request?
    General Schoomaker. Sir, there is an unfinanced 
requirements list that we were asked to submit, and some of 
that was in our request.
    Senator Reed. You made the request. Who essentially turned 
you down for that funding?
    General Schoomaker. Well, I do not know. It goes through 
OSD to OMB and comes out in the President's budget request over 
here to the Hill. So the process prioritizes above us. We lay 
out what we think we need.
    Senator Reed. So you have made the case for more resources, 
but either the Secretary of Defense or OMB or the President has 
decided that they are not going to fund those requests?
    General Conway. Sir, I do not think a decision has been 
made yet. We are still testifying in order to try to be able to 
justify it.
    Senator Reed. You are testifying to--I do not mean to be--
--
    General Conway. We spoke yesterday, sir, with the House 
Armed Services Committee.
    Senator Reed. Well, I am talking about the request that has 
come over here, which comes from the executive. We have been 
known to increase based on your testimony. But what is coming 
over here seems to be less than asked, at least by the Army, 
and that decision was made above your level; is that correct, 
sir?
    General Schoomaker. That is the process, yes, sir.
    Senator Reed. I understand. I just want to make it clear 
because when you return here and people ask you why did you not 
ask for the money, you did.
    General Schoomaker. First of all, in defense of everybody, 
I do not think it is really simple why things get prioritized 
the way they do. People are working against certain top line 
caps and have to work within certain limits that are set. So I 
think people are trying to do the very best they can do in 
terms of the priorities. But the fact of the matter is it is 
different than what it ends up.
    I just got a piece of paper. We requested $99 billion in 
the supplemental and our submission now is for $93 billion.
    Senator Reed. So there is a delta of about $6 billion.
    General Schoomaker. Yes, sir.
    Senator Reed. You mentioned prepositioned stocks, General 
Schoomaker. Can you elaborate on your concerns?
    General Schoomaker. In an unclassified form, I would rather 
not go into specifics. But I can tell you that the 
prepositioned stocks were part of the solution to accelerate 
the brigades and therefore it increases the risk to our 
strategic depth.
    Senator Reed. This obviously raises issues with respect to 
other potential contingencies. You are not as well prepared 
today as you were several years ago to respond to an additional 
contingency?
    General Schoomaker. It is not useful to compare to prior to 
this war because we were not in good shape then. But I would 
tell you that my concerns have increased. That is why I have 
talked about this. Again, the chairman's risk assessment, a 
classified document that has been provided over here, lays this 
out. I think that it would be more appropriate to discuss that 
at that level.
    Senator Reed. A final question. My time has expired. Given 
all you have said, this obviously is a factor in the advice 
that you would give to the Secretary of Defense and to the 
President with respect to other operations?
    General Schoomaker. Absolutely.
    Senator Reed. Thank you very much.
    Chairman Levin. Just an historic fact. The 2006 
supplemental, which came to you so late, was not included in 
the 2006 base budget.
    General Schoomaker. That is correct.
    Chairman Levin. That is the heart of the problem, and that 
is what we have been complaining about here. We want these 
supplementals in the base budgets.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Having had a little experience myself in the building, I 
really commend you and your staffs. These necessary changes and 
the challenge that you have are tough to meet and you are doing 
the best you can trying to work out a long-range financial 
plan, at the same time adjusting for what the Chairman of the 
Joint Chiefs of Staff, and the President deem are necessary 
additional requirements.
    So I draw your attention to the President's announced plan 
weeks ago in January, about the 21,500 additional forces. Since 
that time we have had published reports, namely the 
Congressional Budget Office (CBO), stating that there were 
considerable additional forces than the 21,500 needed for the 
infrastructure to support the implementation of 5 new brigades 
into this operation and such additional marines as come 
forward.
    Do you have any comments on that report? In the period of 
time since that report was issued, which was February 1, I 
presume the system has worked it and now has a more accurate 
answer. General?
    General Schoomaker. Sir we could give you the specifics for 
the record. I will give you the magnitude. Since the last time 
I testified, we knew that we were going to have five brigades 
that were so-called surging into Iraq, and of course we have 
worked that very carefully. In addition to that, since that 
time we now have an additional brigade going into Afghanistan. 
We have an additional some 2500 embedded trainers over and 
above what we had before. We now are getting requests for 
combat support, combat service support components to support 
this surge.
    So you are exactly right, the five brigades is only the tip 
of the iceberg. There is lots below that that we have to do. We 
are even today getting additional requests for forces that 
continue to stress us in terms of what we have to do.
    Senator Warner. Well, can you give us some better estimate? 
I mean, one of the CBO estimates apparently was that not 21,500 
additional forces; it could be as high as 48,000. Now, that 
seems to me to be slightly----
    General Schoomaker. I think that is----
    Senator Warner.--beyond unrealistic.
    General Schoomaker.--beyond realism.
    Senator Warner. What increment above 21,500 additional 
forces do you estimate?
    General Schoomaker. I think the planning factor we have 
used in the past is about 15 percent.
    Senator Warner. 15?
    General Schoomaker. About 15 percent for logistics to 
support the force. Of course, your embedded trainers, the 2,500 
I talked about, are over and above that. So there is probably a 
factor of another 5,000 or 6,000 additional forces, and this is 
an estimate. We will give you the specifics.
    [The information referred to follows:]

    Multi-National Force-Iraq and the U.S. Central Command (CENTCOM) 
have continued their analysis to determine the type and number of 
additional enabler capabilities required to support the combat force 
surge in Iraq. The Secretary of Defense has approved CENTCOM's request 
for five Brigade Combat Teams and one division headquarters with combat 
support/combat service support personnel. Any additional requests for 
forces from CENTCOM would have to be approved by Secretary Gates for 
additional personnel. The Army provides the combatant commander with 
the capacity and capabilities necessary to achieve stability and 
security in Iraq. The Army's Title 10 functions are to man, train, and 
equip our forces for employment as needed by the combatant commanders. 
The Army is committed to generating whole, cohesive units that are 
fully manned, trained, and equipped to deal with whatever they will 
face.

    General Conway. From the Marine Corps perspective, sir, we 
have no additional increase. It is a mature theater. We rely 
upon the Army for theater-level logistics and our numbers are 
what they are.
    Senator Warner. So your numbers will remain?
    General Conway. Yes, sir.
    Senator Warner. Now, in the course of the buildup or the 
planning for the buildup, the President and his staff, and I 
have often said, did work very hard there for about 90 days in 
the fall and announced it in early January. I presume that each 
of you--well, perhaps not you, General Conway, because you were 
still moving into the Commandant's office. But you, General 
Schoomaker, were consulted on a regular basis as to the 
availability of the forces to meet those surge levels of 
21,500?
    General Schoomaker. Sir, we were consulted. We provided our 
very candid military advice on this. I do not deal in the 
21,500.
    Senator Warner. Beg your pardon?
    General Schoomaker. The answer is yes, I was fully 
consulted and I was able to provide advice, as were the other 
chiefs. We do not tend to deal in numbers like 21,500. We deal 
in X number of brigades, X number of trainers, and these kinds 
of things.
    Senator Warner. All right.
    General Schoomaker. So what we talked about and the advice 
we provided was a variety of options and what the impact would 
be. I personally feel that from the President on down I had 
adequate opportunity to provide my absolute candid advice and I 
did that.
    Senator Warner. Are you able this morning, or should it be 
in classified session, to share that advice with us?
    General Schoomaker. Sir, our practice is that the advice we 
provide the President remains confidential between us and the 
President.
    Senator Warner. In this instance, you were responding to 
the chairman of the Joint Chiefs.
    General Schoomaker. I am responding to--in the case that I 
am talking about, I respond to the Secretary of Defense and the 
President as an individual chief, as a member of the Joint 
Chiefs, and we communicate through the chairman to them.
    Senator Warner. Well----
    General Schoomaker. What I am saying is that the chairman 
is obligated to present any dissenting opinions----
    Senator Warner. Correct.
    General Schoomaker.--of advice, and he did that, as did we, 
anything that we differed.
    I will remind you, our mission now is to support the 
Commander in Chief. He has made a decision and we are putting 
our heart and soul into making sure that General Petraeus is 
successful in this.
    Senator Warner. I do not question that at all, General. I 
have some familiarity with that regarding chain, so I 
appreciate your statement. We have, fortunately, in Virginia 
the Joint Forces Command under General Lance L. Smith, USAF. 
You are familiar with that. Now, he actually goes out and tasks 
the various service chiefs to advise him about the availability 
and the degree of training and equipment in each of those 
forces.
    General Schoomaker. That is correct.
    Senator Warner. Now, when he approached the Army through 
you, presumably, did you at that time express to him concerns 
about meeting the requirements?
    General Schoomaker. Absolutely. General Smith is the joint 
force provider. Under Goldwater-Nichols, his job is to----
    Senator Warner. I am familiar. I worked on Goldwater-
Nichols and helped draw it up.
    General Schoomaker. Yes, sir.
    Senator Warner. But my point is I am trying to determine 
the extent to which this committee of the United States Senate 
can be privy to your professional opinions with regard to the 
availability within the Army of a suitable number of units 
trained and in a state of readiness and its equipment to meet 
the requirements of this surge.
    General Schoomaker. Sir, I would be glad to share with you 
what I told General Smith.
    Senator Warner. That is what I am talking----
    General Schoomaker. His component is the Army Forces 
Command and that is who we deal with. We laid out to him 
exactly what the risks are in terms of the strategic depth of 
the Army, exactly what the impacts are against other 
contingencies. He was fully appraised of what the second and 
third order effects are of the level at which this force is 
being used, to include my concerns about the lack of adequate 
dwell time, not just to train and equip, but time for people to 
recuperate, to reunite with their families, and to do things 
that are necessary to sustain the long fight.
    Senator Warner. Fine. Well, I had the opportunity yesterday 
to go into some detail personally with General Smith on this 
plan and therefore, Mr. Chairman, I hope that we can have a 
closed session and in that closed session the General can be 
forthcoming with regard to his response to the Joint Forces 
Command.
    I thank the General.
    Chairman Levin. Thank you very much, Senator Warner.
    Now, Senator Ben Nelson is next. Have you voted, may I ask?
    Senator Ben Nelson. No, I have not.
    Chairman Levin. Because we are in the second half now of 
that first vote. Is there anybody here who has voted? [No 
response.]
    If not, Senator Nelson, it is in your hands. If someone 
gets back by the time you are done, hand it over to them. 
Otherwise, please recess the committee.
    Senator Ben Nelson [presiding]. I will hurry.
    General Schoomaker, the funding for the National Guard 
equipment is an imperative that we all understand. It is my 
understanding that the Guard is equally concerned about having 
additional funding for adequate training for the equipment, 
because as the equipment is replaced it is obviously replaced 
by improvements as new designs and new equipment becomes 
available.
    I assume that is the case with the MRAPs as that becomes 
available to those, the Guard and Reserve units. Do we have 
adequate funding requests in the budget for that kind of 
training?
    General Schoomaker. Sir, the----
    Senator Ben Nelson. It is a multi-year requirement, too.
    General Schoomaker. The Guard and Reserve comprise 55 
percent of our Army. They are a significant portion of our 
Army, the total force. The Guard and Reserve traditionally has 
not been well resourced and has not been retained at a high 
level of readiness. We are correcting that. As I stated, in 
this program that we have submitted, the President's budget, 
out through 2013 there is in excess of $40 billion worth of 
equipment. In fact, I think it is $45, almost $46 billion that 
is in there to help rectify this situation. Now, that is a 
steep hill to climb because they have old equipment in many 
cases and they have holes in that force. Twenty percent of the 
equipment in theater right now is from the Reserve components. 
80 percent is from the Active components.
    As I said earlier, if you look beyond 2013, of the $52 
billion that we estimate it would take to complete this 
resourcing of this force properly, the force that we are 
growing, about $24 billion of that is for Guard and Reserve. So 
I think by any measure, when you take a look at the commitment 
we have to the Guard and Reserve as part of the total Army, 
that this is historic in terms of the resourcing.
    Senator Ben Nelson. I am very pleased with the resetting of 
the equipment. I think it is important to do that. But I am 
equally concerned about making sure that the training dollars 
are available as well or otherwise there will be an inadequacy 
and I think we understand that.
    General Conway, you are listed in the consultation section 
of the Iraq Study Group (ISG) as one of the military officials 
who met with the ISG. Were you interviewed regarding the 
question of surging troops in Baghdad?
    General Conway. No, sir, I was not. My involvement with the 
committee was as the J-3 I presented to them a number of 
briefs, I think three briefs in total, as they came through the 
DOD on their way into Iraq.
    Senator Ben Nelson. As we engage with the Iraqi army and 
the surge, particularly as it relates to Baghdad and the 
sectarian violence or violence worse than a civil war, as it 
has been described by some, can you tell me who the enemy would 
be?
    General Conway. Sir, my expertise is in the al-Anbar 
Province. That is where the Marines are. I would defer 
questions on Baghdad I think appropriately to General 
Schoomaker, where we have Army brigades.
    Senator Ben Nelson. Thank you.
    General Schoomaker, can you tell me who the enemy is, who 
we will be fighting in sectarian violence?
    General Schoomaker. I can tell you who--I would prefer to 
categorize it like this. There are anti-coalition forces and 
our purpose there is to create a security environment so that 
other elements, the political element, the economic element, 
can take its traction.
    Senator Ben Nelson. I understand----
    General Schoomaker. I think what you are alluding to is 
this is an extraordinarily complex situation.
    Senator Ben Nelson. Absolutely.
    General Schoomaker. It is one in which probably at this 
point now it would be better addressed to General Petraeus in 
terms of based on which area he is operating in and what the 
dynamics are in that area----
    Senator Ben Nelson. Maybe what neighborhood.
    General Schoomaker. Excuse me?
    Senator Ben Nelson. Maybe what neighborhood.
    General Schoomaker. Maybe what neighborhood, that is 
correct.
    Senator Ben Nelson. Particularly as it might relate to Sadr 
City.
    Well, given the time frame, thank you very much, and thank 
you, General Schoomaker, for all the courtesies and for your 
extraordinary service to our country.
    General Schoomaker. Thank you, sir.
    Senator Ben Nelson. I look forward to seeing you again.
    General Schoomaker. Thank you, sir.
    Senator Ben Nelson. Thank you. [Recess from 10:43 a.m. to 
11:17 a.m.]
    Chairman Levin [presiding]. As we realized when there was a 
third vote identified, that could cause some significant delay 
here. Without colleagues here who have not had an opportunity 
to ask questions, I am afraid the only logical thing to do here 
is to recess subject to the call of the chair.
    We may have some Senators coming back in the next few 
minutes, but we may not. We should have an executive session. I 
think we are just going to have to recess at the call of the 
chair. I hate to do this to you, gentlemen, but I do not have 
any other alternative. I do not know what your schedules are. 
If you could in the next few minutes consult with our staff as 
to what your own schedules are for the next couple hours, that 
would be appreciated. Then I am going to try to get back here 
in any event in the next 15 to 20 minutes. If there is any 
other Senator that comes here, they could pick up the 
questioning.
    So we are going to recess subject to the call of the chair, 
but if there are other Senators who come, they can put us back 
into session and then pick up the questioning if they have not 
had an opportunity. So we are going to recess and if you could 
consult with our staff on your own schedule we would appreciate 
it. [Recess from 11:17 a.m. to 11:52 a.m.]
    The committee will come back to order. We have at least two 
Senators now that are going to want to ask questions in open 
session, and then we will hopefully have time to go to 
executive session.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    General Schoomaker and General Conway, I want to ask you 
about supplemental appropriations and about the regular 
appropriation process. I know there has been a lot of back and 
forth about what the best way to fund the war costs is, whether 
it is through the regular appropriations process or through 
supplemental appropriations. Specifically what I want to direct 
your attention to is the BRAC funds, the Base Realignment and 
Closing Commission funds, $2 billion of which were cut out of 
the continuing resolution or omnibus appropriation that we 
passed yesterday.
    There were a number of us who complained mightily about 
that and then offered an amendment to try to reverse that 
change. But now I think we have been told that that money will 
likely be made up in a supplemental appropriation bill.
    Can you explain to me, General Schoomaker, perhaps starting 
with you, sort of what your approach has been to how you have 
tried to allocate costs to the general appropriations versus 
supplemental appropriations? Are we sending you a consistent 
message or are we sending you mixed messages?
    General Schoomaker. Sir, if I could address the first part 
of your question, there has been a continuing difference of 
opinion about where the war costs ought to be, and I will tell 
you that I think that there is a certain part of the war costs 
that are very hard to predict and therefore the supplemental 
appropriation in some form is necessary. However, now 6 years 
into this we have some experience and we can predict certain 
aspects of it. I do agree and I think as we go into the future 
we are seeing certain aspects certainly of what the Army is 
doing pulled into the base as we go forward.
    For instance, the growth of the Army is split between the 
base and the supplemental right now, but by 2009 the whole 
thing will be inside the base, as an example.
    Specifically to MILCON and BRAC, we had about a $5.8 
billion requirement there between the two that are absolutely 
essential to being able to restation and build the force that 
we are talking about. Just a kind of order of magnitude, there 
were 42 barracks complexes in there that housed almost 10,000 
soldiers, 19 daycare centers, about 30 Reserve Force facilities 
to replace armories that are being BRAC'ed, training ranges and 
things of that nature.
    The MILCON, of that $5.8 billion, all but about $2 billion 
has been taken care of. We have the $2 billion that is BRAC-
related that now is a concern. The only caution I would make is 
as it goes into--if it goes into the supplemental it ought to 
be additive. What we should not do is displace something else, 
because you have seen our unfinanced requirements list. You 
know what the demand is as we surge and as we try to do what we 
are doing in the war. So we would hope that in rectifying the 
BRAC that it does not then offset something else that is 
essential as well.
    General Conway. Senator, I would say substantially the same 
thing to you. I think that the supplementals have been helpful 
in terms of those unanticipated or the costs that we just 
cannot calculate as finely as you might like at budget time. 
But it also creates a level of uncertainty for some of the out 
year programs.
    I will use manpower as an example. We contract people for 4 
years. To think that we would pay for the end strength through 
a continuation of supplementals I think puts some of that long-
range planning and so forth at risk.
    The continuing resolution is really important to us. In the 
Marine Corps, we have denied to ourselves the importance of 
barracks in particular for a long time. They have just not made 
our top cut in terms of the priority year to year. Now we find 
ourselves up against the wall and we have marines living in 
Korean-era barracks with gang heads, and we owe them something 
much better.
    So we have a program through about 2012 to build 105 more 
barracks, most of them for the operating forces. It is rather 
critical to us at this point that we see that program through.
    Senator Cornyn. General Schoomaker, I recall over the last 
few years that we have had a lot of discussion back and forth 
about how do we access more of our active duty military and how 
do we transform the military we have to make it more accessible 
for the new kind of missions that they are being called upon. 
You have been at the forefront of that.
    I recall the former Secretary of Defense talking about 
tapping a keg at the top as opposed to the bottom and saying 
there ought to be a better way to access the 2.5 million or so 
men and women in uniform, and it just does not make any sense 
to have 130,000 people deployed roughly in Iraq and that puts 
such stress and strain on our servicemembers.
    Could you update us about where we are in that effort to 
try to make sure that, whatever the force is, we have it 
organized to optimal levels so they can be deployed without 
unnecessary stress and strain on our military and their 
families?
    Senator Sessions. Senator Cornyn, I just want to note the 
Secretary of Defense quoted General Schoomaker about that keg 
story. So that is a good question as he wraps up his time here.
    General Schoomaker. Well, I was not going to fess up, 
because I am afraid I am a culprit in this deal and there is a 
limitation to that analogy. But to really answer your question, 
I think you are talking about accessing the Reserve components 
in a better way. In the Cold War, the Reserve components were 
looked at as a strategic Reserve and it was anticipated there 
would be a lot of indications and warning and that we would 
have years to bring them up. Therefore there was a lot of risk 
taken in the Reserve component.
    Today the Reserve components comprise about 55 percent of 
our Army and they are now an operational force, not only for 
homeland security and homeland defense, but also for what we 
call the away game. So therefore we need to have the entire 
Army on a common baseline of equipage, training, and readiness, 
to standards, and that is what we are building towards.
    We have created what is called the Army force generation 
model, which allows us to predict the time at which we will 
need these forces, both active, Guard, and Reserve, and time 
their training, readiness, and equipage reset based upon that 
model. Now, the reality is that what we have been doing in the 
Army as we rebalance the Army and fix the keg solution there, 
that, to use another analogy, we said this is kind of like 
building an airplane while it is in flight. So while we have 
been fighting this war we have been transforming the Army, we 
have been doing the rebalancing, restructuring of the Army, and 
the more and more that has been committed to the fight the 
shorter and shorter the dwell is on this Army force generation 
model of these forces.
    Therefore, it has caused us to have to use active, Guard, 
and Reserve Forces more frequently than we would otherwise like 
to. Quite frankly, it has made it even more demanding as we 
have tried to develop the depth we need in the force.
    I am sorry that--I hope this explanation is adequate. It is 
a very complex kind of situation. But I believe we are well on 
the path to correct what existed in those days. We have moved 
the institutional portion of the Army down to something less 
than 30 percent. In other words, previously we had a very large 
institutional piece of the Army compared to the operational 
force. We have grown the operational force within our own 
footprint, reduced our institutional thing. We have done good 
business practices. We have done military to civilian 
conversions, and we are working this very hard to make sure 
that what we are doing is getting the best bang for the buck as 
we grow this force.
    Again I will tell you that the Army is about 40 percent the 
size it was at the end of the Cold War. We are increasing the 
capability of the Army by over 30 percent and we are largely 
doing it within our own footprint. Now that we are getting some 
growth with the end strength increase, that is going to help us 
considerably accelerate this and to build the kind of Army that 
we need for the future. I think we are well on the path to do 
that.
    Senator Cornyn. Whether it is the stress and strains of 
multiple deployments because our Army and military force is too 
small--and I know we are taking steps long term to address 
that--or whether it is providing the facilities, the barracks 
or housing or daycare centers through funding, one thing I 
think this committee I know is certainly determined to do is to 
make sure to the best of our ability you get what you need in 
our military, particularly an All-Volunteer military, where we 
have to not only recruit people but also retain experienced 
servicemembers, that we try to--my hope is we try to avoid some 
of these peaks and valleys and some of the herky-jerky approach 
that unfortunately seems to have prevailed all too often.
    General Schoomaker. Sir, if I could have an alibi there. In 
the Army's case, this is not just a matter of increasing and 
improving the quality of life of the soldiers we have. But in 
the case of BRAC, the $2 billion, we actually have to build 
facilities to be able to put the forces we are growing. This is 
not a matter of improvement. It is a matter of having the 
capacity to actually station forces that we are moving and 
building. Without that, we in fact will retard the growth of 
the Army.
    If I could go just one step further, I presented in the 
past in testimony kind of an equation that said the current 
operational demands on our force exceed what the Quadrennial 
Defense Review (QDR) strategy said it was going to be, and the 
QDR strategy exceeded what the resourcing was. We have tried to 
fix the disconnect between the resource and the strategy 
through base appropriations and we tried to fix the delta 
between the strategy and the current demand on the force with 
supplemental appropriations.
    Now, with the growth of the Army we are starting to close 
those and I believe we can start merging in many cases 
supplemental and base budget kinds of things. But of course 
that means we have to grow the top line of the base budget.
    General Conway. Sir, you make a strong point on the 
importance of taking advantage of everybody that we do have in 
uniform. In the case of the Marine Corps, about 3\1/2\ weeks 
ago now we put out a directive that says we have to get every 
marine into the fight. When I travel about and ask for a show 
of hands, I will get a lot of people that will say two, three, 
and four deployments, a rare five. But I also get hands of 
people who say they have not been at all. So we are saying to 
our commanders out there, you have to get these marines there. 
That is why they joined. They expect to be able to defend their 
country, and that their Military Occupational Specialty does 
not match up or that they are the only guy that can do the 
drain plug thing does not matter, because in time those people 
will be competing for promotion and for opportunity against 
people who have been there. So we owe it to them at this point 
to give them that opportunity, and also to expand our combat 
experience within the Marine Corps.
    Senator Cornyn. At the great Marine Museum at Quantico that 
I just went out to see recently, I was reminded that every 
marine is a rifleman. So I appreciate what you are saying.
    Chairman Levin. Thank you, Senator Cornyn.
    Senator Sessions.
    Senator Sessions. Just to follow up on these BRAC 
questions, General Schoomaker, the money for the BRAC that was 
taken out by the Senate leadership, over my objection--and I 
had to be in the position of unfortunately voting against the 
CR just to let people know I disagreed with that very 
seriously. You had that in the baseline budget of the military?
    General Schoomaker. Sir, that is correct.
    Senator Sessions. So we had it in the baseline, and this 
clearly was a part of a baseline budget, not a war cost. It was 
a baseline budget. So now it has been moved over to the 
supplemental and either one of two things are going to happen. 
Either they are going to keep the supplemental at the 
President's request and make you take other moneys from the war 
to do the BRAC or we are going to raise the supplemental, which 
will create a false impression of how much the war costs at 
this period of time. Is that fair to say?
    General Schoomaker. Under the current circumstance that we 
find ourselves in now with this, it is the latter I hope that 
occurs.
    Senator Sessions. I understand that.
    General Schoomaker. I hope that the raising of the 
supplemental top line is what I----
    Senator Sessions. I know, and I support that. I am going to 
vote for that. But it is painful because some tough decisions 
were made to keep it within the budget and we spent that money 
on social matters. The Democratic majority spent it on other 
matters, deliberately leaving us short, knowing that we had to 
have this money to complete BRAC, and that we would put it back 
in on the emergency supplemental. I do not think that was good.
    General Schoomaker, let me first thank you for your 
service. You took on a difficult task. You have served 
exceedingly well. You brought great experience to it. The 
experience you brought to the Chief of Staff of the Army was 
that you had been the Commander of our SOF, which have proven 
themselves to be exceedingly valuable, particularly in this 
kind of conflict.
    Would you reflect for us just briefly on how much we moved 
and increased the SOF? Those are our forces who have cultural 
studies, language studies, embedded forces, and are trained to 
do asymmetric kind of warfare activities.
    General Schoomaker. Well, sir, I share your pride in our 
Special Operating Forces, and of course the Army has a great 
investment there. A lot of people think that our SOF forces are 
outside the Army end strength. In fact, all those forces, Army 
forces, are inside our end strength. So when we are growing SOF 
now in this program by an additional 14,000, we are adding five 
Special Forces battalions, we are adding the equivalent of a 
Ranger battalion, a Special Operations aviation battalion, we 
are doubling civil affairs and doubling PSYOPS and providing 
some logistics for them, it is a significant investment that 
the Army has.
    In fact, when I was commanding United States Special 
Operations Command (SOCOM) 46 percent of all SOF was in the 
Army. So we have a huge investment there and I am proud that we 
are continuing to support SOCOM because I agree with you. I 
think that the Special Operating Forces are a very, very 
important component of the kind of fight that we are in. But I 
will remind you that they cannot do it all. They are special 
because they do things that other forces are not organized, 
trained, and equipped to do--language qualification; they are 
very senior in terms of experience in rank; and they operate in 
ways that are very complementary to what general purpose forces 
bring to the fight.
    But I think we have made just leaps and bounds and I am 
very proud to have been associated with them. I go back a long 
way. I was part of the failed Iran rescue mission. I know what 
it was like when we were way at the bottom of the heap and when 
we confused enthusiasm with capability. Through the Cohen-Nunn 
amendment, to the National Defense Authorization Act for Fiscal 
Year 1987 Goldwater-Nichols Act and everything that has 
occurred in the growth of our SOFs, I think we have done this 
right, and we did it at the right time and it came together 
just in the nick of time for the kind of century that we now 
face today.
    Senator Sessions. With regard to Afghanistan, would you 
briefly tell us how the SOFs, how they contributed to that 
effort?
    General Schoomaker. They have a----
    Senator Sessions. Summarize that for us.
    General Schoomaker. Yes, sir. They have a major role to 
play in the training and equipping and they have a huge role to 
play in many Special Operations----
    Senator Sessions. In the initial----
    General Schoomaker. In the initial days, it was a Special 
Operations fight. Getting in there and enabling the Northern 
Alliance to be able to defeat the Taliban in such short order 
was quite a fact. In fact, I often use young Captain Mark 
Nuesh, who was one of the Operational Detachment-Alpha (ODA) 
team leaders that worked and was successful at the battle of 
Mazar-e Sharif, where a mere 14-man team with 2,500 Afghan 
fighters defeated a Soviet-equipped 10,000-man force dug in in 
a reverse slope defense in a defile, and they did it in one 
night. They did it using guile and precision and communications 
that were successful there.
    So I think that is an indicator of the kind of force 
multiplication role that our SOFs can play in that kind of a 
deal.
    Senator Sessions. Thank you for your tremendous leadership 
across the board. History will record you helped create the 
SOFs and bring them to the level they are today.
    General Conway, I just want to tell you how much I admire 
you and appreciate the opportunity to visit you in Iraq and the 
leadership that you and your people showed in Fallujah, in that 
fierce battle that was fought there. I wanted to appreciate 
that and say thank you for that. We are proud to have you head 
the Marine Corps.
    I would ask briefly, with regard to uparmored vehicles, 
Humvees, General Casey said that with regard to the Army, that 
he had issued a rule that none would be off the secure bases. 
Is the Marine Corps operating at that same level?
    General Conway. Sir, it applies to us as well. Our Multi-
National Force-West reports to the Multi-National Corps and 
those orders are all in effect, and we are doing exactly that. 
We are also in good shape with regard to the FRAG Kit 5s. But 
also, importantly for us because out west we are seeing a lot 
of underbody explosions, FRAG Kit 2, which is the underbody 
additional armor, is also there in large numbers to outfit all 
of our uparmored Hummers.
    Senator Sessions. I just do not think it is fair to have 
mothers and fathers who may be watching this thinking that we 
are riding around in Iraq and not being in armored Humvees and 
that kind of thing. This Congress has put up money and we have 
produced huge numbers. I think we went from like several 
hundred armored Humvees to 24,000, I was told this morning. 
None operate off bases in Iraq today.
    Also, General Schoomaker, this morning Secretary Harvey 
talked about these new brigades, and if you can just give me 
this number because my time has expired briefly, the new 
brigades through technology, good management, weapons systems 
that use fewer people to operate the weapons systems and the 
vehicles, you have been able to take the same number of 
soldiers in a brigade, but have far more infantry capability 
fighting force out of that. Would you share briefly how you 
have done that?
    General Schoomaker. Yes, sir. If you look at the objective 
brigade we are talking about, the Future Combat System (FCS)-
equipped brigade, that is 900 soldiers, roughly 900 soldiers 
smaller than the heavy brigade that it displaces. It has about 
20 percent of the sensors, 60 percent less logistics associated 
with it, and it has twice the number of infantry and squads in 
that brigade. So this is a perfect example where technology is 
allowing us to place manpower in the places that are necessary, 
doubling the number of rifleman in a brigade. It also provides 
the best situational awareness and the best force protection 
that technology can provide. So that is the path that we are on 
and he spoke to that this morning.
    Senator Sessions. Thank you. You have done that in a time 
of war and it has been most difficult, and thank you for your 
service.
    Chairman Levin. Thank you, Senator Sessions.
    Just a couple questions and then we will go to Senator 
Warner and back to Senator Sessions if he has additional 
questions, and then we will go to executive session, at least 
for a short time.
    On this brigade, the efficiencies technologically that are 
going to be able to be achieved, you said 900 less soldiers in 
the brigade?
    General Schoomaker. Sir, that is the FCS brigade that we 
will start fielding in 2014.
    Chairman Levin. Right. What is the percentage of that, does 
that represent? 900 fewer than what is the current approximate 
size?
    General Schoomaker. The program calls for 15 of these 
brigades that will displace 15 heavy brigades.
    Chairman Levin. But how many in a brigade, how many 
soldiers?
    General Schoomaker. I am sorry. We go--that brigade is 
around 2800 soldiers.
    Chairman Levin. So it would be a reduction from 2,800 
roughly to 2,100?
    General Schoomaker. 2,800 from 3,700. It goes from 3,700 
soldiers in every brigade down to about 2,800 soldiers.
    Chairman Levin. Thank you.
    On the BRAC issue, I understand that there is a commitment 
on the part of the appropriators that the BRAC money will be 
funded in the supplemental and we expect that by April. Is that 
your understanding?
    General Schoomaker. We definitely need it no later than 
April.
    Chairman Levin. Have you heard about that commitment?
    General Schoomaker. Well, I have heard people say that we 
are going to be fully funded. My concern is whether it will be 
additive or whether it will displace other necessary things in 
the supplemental. That is my concern.
    Chairman Levin. Fair enough. Fair enough. But on that issue 
itself, assuming that it does not displace or that it is done 
in a way which is acceptable, you have heard about that 
commitment?
    General Schoomaker. Yes, sir.
    Chairman Levin. That that money will be put into the 
supplemental.
    Is it also not your recollection that that money was in an 
appropriation bill?
    General Schoomaker. Sir, that was in our base request.
    Chairman Levin. I know that. But in the 2007 appropriation 
bill, which never got to conference, which the Senate adopted 
for military construction, that $2 billion was in the Senate 
version of that appropriation bill, but it did not--it was not 
allowed to go to conference; is that your recollection?
    General Schoomaker. Yes, sir, that is my understanding.
    Chairman Levin. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Very quickly, gentlemen, and I will ask you to provide this 
for the record. As we move towards increasing the end levels of 
both the Army and the Marine Corps, that puts additional 
burdens on the medical service that is rendered. I am told that 
there is internally an effort to reduce currently the number of 
medical personnel in uniform, to be forwarded up to the 
Secretary of Defense.
    I might ask that each of you focus on that and if you would 
kindly advise the committee whether you feel those additional 
cuts in uniformed personnel in the medical systems can be taken 
in view of the expectation that Congress will meet the 
President's request to increase end strength.
    General Schoomaker. You want this for the record, sir?
    [The information referred to follows:]

                Medical Military-to-Civilian Conversions

    From fiscal years 2006-2013, the Army programmed and funded the 
conversion of 4,366 military billets to civilian performance in the 
Defense Health Program. Unlike the Navy and the Air Force, the Army is 
not converting positions to save money from reduced end strength, but 
instead is realigning the converted military positions to the 
operational Army to meet operational demands and man the force. The 
emphasis will be on converting mid-grade military needed to build 
operational capability more quickly. The number of future conversions 
will be determined based on the operational demand, the level of 
funding available, and the number of convertible positions identified 
by the DOD Manpower Mix Criteria. The Army will only convert when we 
can certify that the conversions will not degrade medical readiness, 
decrease quality of care, increase health care costs, or decrease 
beneficiary access to care. The Army staff is carefully assessing how 
best to grow the force. It is expected that sufficient funding for 
additional civilians required for military-civilian conversions would 
offset the need for further military medical capability. At this time, 
the Army is still deliberating about the level of additional medical 
military-civilian conversions based on an ongoing assessment of Army 
force structure requirements.

    Senator Warner. Yes. Thank you very much.
    To what extent here in open session can you address the 
very serious set of facts whereby a number of the helicopters 
that have recently been lost in combat scenarios? That loss has 
now been confirmed by the Department as being attributed to 
enemy action, basically ground to air. What steps, if any, are 
the two chiefs of services taking that you can tell us in open 
session to try and remedy that situation?
    General Schoomaker. Sir, I will--what I will not discuss in 
open session is what we know about how they were hit. But I can 
tell you that----
    Senator Warner. I will raise that in the session, so we can 
cover that for the record.
    General Schoomaker. The Vice Chief of Staff of the Army, 
General Richard A. Cody, USA, who is the senior aviator in the 
Army, is returning today from an extended trip over there, and 
one of his missions was to get into this and to talk to every 
aviation brigade commander and talk to the leadership. We have 
had our chief of Army aviation engaged in this. We have our 
aviation center looking at it.
    It clearly is a combination of technologies and tactics, 
tactics, procedures. It is the full gamut of things. We have 
protected our aircraft now 100 percent with the aircraft 
survivability equipment.
    Senator Warner. Up to this point?
    General Schoomaker. You might remember that before we 
cancelled the Comanche program we had a hell of a lot of 
aircraft that were not----
    Senator Warner. Yes, I do.
    General Schoomaker.--did not have this on it. We now have 
100 percent of the aircraft that are over there, and have for 
quite some time, as a result of using that money to make that 
happen.
    But there are more threats than just missile threats in the 
theater, and so our tactics and the way that we operate have to 
continually adapt. The factors of unpredictability are large. 
So those are the kinds of things that we need to also do.
    Senator Warner. I think you have given us the reassurance 
that every resource that you have at your command is now being 
directed to bring up solutions.
    General Conway. Sir, I would rather talk about our specific 
tactics, techniques, and procedures in a closed session, but I 
can tell you generally speaking that the things that we have 
been doing we think have protected our helicopters fairly well. 
Now, the exception, of course, was the loss of the 46 that we 
now believe was shot down about 8 or 9 days ago.
    In looking at what we believe to be an accurate video, we 
are concerned that the aircraft survivability equipment did not 
properly deploy on the aircraft. So our investigation is going 
to get after why not. We also, like the Army, are of course 
going to have to continue to review our tactics, techniques, 
and procedures to make sure that we continue to make our 
aircraft safe.
    Senator Warner. Thank you.
    One last question, Mr. Chairman, and then I hope we can go 
to that closed session.
    We have just been on the floor engaged in a colloquy about 
bringing up Iraq resolutions. I will leave to the record that 
situation to try and explain what our leaders were working out, 
a good faith attempt by both leaders. But anyway, the 
resolution which I have put in, S. Con. Res. 7, which has been 
characterized by the press and others in many different ways, 
but the major thrust of the Senator from Virginia in putting 
that in was to direct the attention to the fact that I was 
hopeful that the Iraqi forces, 300,000 of them that we have 
trained, could be utilized to a far greater degree in that 
operation than envisioned by the President's plan, because they 
understand the language, they understand the extremely 
complicated reasons why there is sectarian violence of Sunni 
and Shia and vice versa. So much for that history.
    But we were assured and the President in his plan described 
about the parallel chains of command and the like and how the 
Iraqis would be on the point and our forces would basically be 
in a support role.
    So against the background, you can understand my 
astonishment when I picked up the New York Times this morning. 
I cannot verify the authenticity of this article, but I think 
it is important that we discuss this to the best you have 
knowledge on it in open session. I read: ``Thousands of 
American troops in armored Stryker vehicles swarmed three 
mostly Shiite neighborhoods in northeastern Baghdad on 
Wednesday, encountering little resistance during what 
commanders described as the first major sweep of the new 
security plan for the capital.''
    Then dropping down: ``But even though an Iraqi announced 
the new phase of the security plan, it was clearly an American-
led operation. Only 200 Iraqi police officers and soldiers were 
involved, commanders said, working along 2,500 Americans.''
    Now, I just have to tell you that that falls far short of 
the public representations made by the administration that this 
operation would be a joint one, so to speak, and that the 
Iraqis would take the lead, we would be basically in a support 
role. Can either of you provide any light on the article that 
is now being disseminated publicly? General?
    General Schoomaker. Sir, I talked to General Casey--I can 
shed no light on that article. I have no knowledge about that 
operation. But I did spend quite a bit of time yesterday with 
General Casey in discussion of how things were going in Baghdad 
up to the time that he left on Sunday, and his representation 
to me was that this--that the emphasis here is on Iraqi-led 
operations with U.S. forces backing up, with embedded trainers 
inside the Iraqi forces. So that has been the way the strategy 
over there has been described to me. That is what I believe is 
being executed, and I have no further knowledge of what you 
have described there.
    Senator Warner. Well, I would ask that you could provide 
the committee with your own views as to the authenticity of 
this article and the status of the balance of forces, namely 
Iraqi and U.S., as they move in on these operations.
    General Conway, I look back at the time that I was 
chairman. You were always very courteous and I tried to get 
over every week or 2 when you were in charge of the Joint Staff 
to avail myself of the briefings. I know that you kept up to 
the time that you proudly stepped into the Commandant's role a 
daily analysis of the situation. Can you comment at all on this 
article?
    General Conway. Sir, I cannot. It is counter to what I 
understood to be the plan as well, and of course our 
traditional plan is to put the Iraqis in the lead. It is their 
country and it is their military and they will be the ones that 
eventually secure the stabilization of the country. It is 
counter to articles that appeared just the day before 
announcing that Iraqi battalions were arriving as strong as 70 
percent or more so.
    So I think there is a plan to get them engaged. I do not 
understand the sequencing and the timing.
    Senator Warner. Well, I was led to believe that as we moved 
out on the phases that things would be in place to fulfill that 
representation, namely that it be an Iraqi-led operation and we 
would be in a support role. This is astonishing, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner.
    Let me join Senator Warner in his expression of dismay at 
that article. That runs counter to what we have been told that 
the surge would be, how it would be handled, and I do not know 
whether or not--I had to talk to Senator Webb for just a 
moment, but Senator Warner, did you request a report on that 
matter?
    Senator Warner. No, I asked each of these chiefs of their 
services to, after they have had an opportunity to determine 
the credibility of this report and perhaps other similar 
reports that I have seen, not as serious as this one, as to 
whether or not you feel this operation is proceeding as it was 
represented to you and to Congress.
    Chairman Levin. Thank you. We will then rely on you, 
General, to get us that report back on behalf of the Army.
    [The information referred to follows:]

                  Iraqis Leading Operations in Baghdad

    The Commander, U.S. Central Command (CENTCOM) and the other 
commanders on the ground in Iraq develop the operational employment of 
forces. The surge of forces increases the number of brigade combat 
teams in Iraq over the next several months. The objective of this re-
enforcement is to help Iraqi forces clear and secure Baghdad 
neighborhoods, thus protecting the local population while extending our 
partnership with the Iraqi Army to enhance training. Additional forces 
will also be sent to al-Anbar to disrupt and dismantle al Qaeda in that 
region. The Commander, CENTCOM continually assesses requirements for 
combat support/combat service support forces to ensure proper troop 
levels are maintained to support coalition goals.

    Chairman Levin. There was a story in yesterday's papers as 
well which read almost precisely the same. We saw pictures of 
the American troops in the lead.
    Senator Webb is next. He has not had an opportunity yet. He 
will take his turn. I am going to leave the gavel to him, and 
then, Senator Sessions or Senator Warner, if you have 
additional questions, he will then call on you and then he will 
recess to 222 for an executive session.
    Senator Webb.
    Senator Warner. First, I would note that I am pleased that 
my colleague from Virginia, after just a few months in the 
Senate, is now acting chairman.
    Chairman Levin. Well deserved.
    Senator Warner. I am very impressed. It took me 29 years.
    Chairman Levin. Well, let me say it is long overdue. 
[Laughter.]
    Chairman Webb.
    Senator Webb [presiding]. Thank you, Mr. Chairman.
    To my distinguished colleague from Virginia, it only took 
me 15 years to follow you over to Secretary of the Navy, so I 
am a little behind the power curve here in terms of what it 
might take in terms of becoming chairman.
    Gentlemen, I apologize for having had to leave the room. We 
have a competing hearing in the Senate Foreign Relations 
Committee and then a lot of maneuvering has been going on on 
the Senate floor. I appreciate your patience this morning.
    I did have a few questions I wanted to ask. One of them--
and this is a limited time, so in the interest of getting us 
all out of here I do not expect extremely long answers to these 
questions. But I do want to get them into the record and I have 
some concerns.
    The first is on force structure. I would like to commend--
and by the way, Senator Warner, if I may say one other thing, 
General Conway was an officer candidate in the company in which 
I was a platoon commander back in 1970. So I can assure you 
that they had a very rigid experience before he put on his 
second lieutenant's bars.
    Senator Warner. So they passed the Webb test, right?
    Senator Webb. Excuse me?
    Senator Warner. They passed the Webb test.
    Senator Webb. They passed the Quigley special test actually 
at that time.
    But I have long admired General Conway's career and he has 
my utmost congratulations on the assignment that he has right 
now.
    General Conway did mention early on, and I am glad that you 
did, the strain on the force structure in the Marine Corps and 
your desire to get back to a one to two deployment cycle for 
the units that are going over. I know that, General Schoomaker, 
you have mentioned these issues as well. The question I have, 
and I would like to get a clarification from both of you on 
this, on the one hand in your statement here, General Conway, 
you mention that you are emphasizing that the underlying 
requirement for your end strength increase is separate from the 
plus-up that is now being debated. At the same time--and I 
asked this question to the Secretary of Defense when he was 
before here--the whole political environment in terms of how 
our troops are being committed to Iraq is under debate right 
now and it is conceivable that there would be a dramatic 
drawdown in the force structure as you are ramping up, in the 
force structure committed to Iraq, as you are ramping up your 
end strengths here.
    The Secretary of Defense when I asked him this question 
indicated to me that there are what he called off-ramps in the 
budget process itself, taking into consideration that if the 
force structure were to be drawn down in Iraq there might be 
different estimates in terms of what the end strength might be.
    I would ask both of you whether a considerable drawdown in 
the force structure committed in Iraq would have an impact on 
the end strengths that you are asking for? Would you be looking 
to put the funding for this into other programs or would you 
still be asking for the same end strengths that are in your 
plan?
    General Conway. Sir, I will start and say that I think from 
a realistic point of view we have to accept that as a 
possibility. The Marine Corps request was built on this concept 
of a certain committed force and trying to get that force then 
to a 1:2 dwell. If that requirement comes down, dwell is made 
better and we are facilitated some.
    But I would asterisk it by saying as well that I believe 
that we are a Nation at war. I think that Afghanistan and Iraq 
represent the first battles of this long war and I think, like 
in any war, you do not know what is on the horizon. You do not 
know what is going to follow. So if asked for my military 
advice on whether or not we should look at off-ramping or 
stopping something short of 202,000 marines, at this point I 
would recommend we not do that until such time as we think that 
this war against Islamic extremists is over.
    Senator Webb. General Schoomaker?
    General Schoomaker. Sir, if I were still here I would 
strongly advise against not completing the plan to build the 
forces, the ground forces that are required. I think that the 
Army is too small for the century that we are in. I believe the 
plan we have is the proper plan and the proper slope to do it. 
So my advice would be that we complete the plan and we sustain 
this force. It is my opinion the Nation can afford it and it is 
necessary in this century.
    Senator Webb. Thank you.
    I would like to ask a question about this notion of 
enlistment waivers as you are building up your force. I was 
present at an earlier exchange and I do not know if this came 
up again while I was gone. But both of you mentioned that you 
do not see material differences in terms of attrition through 
training programs, et cetera, with people who have been granted 
the waivers. I am wondering if there has been any distinction 
with respect to the type of waivers that have been granted, for 
instance high school graduation waivers as opposed to moral and 
age waivers, or is this a general experience?
    General Conway. Once again, sir, I will start. The answer, 
at least in the case of the Marine Corps, is that--no. In terms 
of high school graduate requirements, in terms of category-4 
(CAT 094) levels of authority, there have been no changes. The 
DOD standard is 90 percent high school graduates. The Marine 
Corps standard is 95 percent. We have been recruiting 96 
percent. The DOD standard for CAT-4 is 4 percent. We recruit 1 
percent.
    The waivers that we have been granting are against that 
basically one-third of the American population that can qualify 
for military service and they have been what we call moral 
waivers, where if a young man or woman has some turpitude we 
make an assessment on it. We ask hard questions upfront. We do 
do the drug testing and that type of thing. But certainly we 
base the waivers based upon our assessment of the individual 
and the severity of what has occurred.
    So again to clarify, those waivers have been on a slight 
increase since 2002, but we have not found that our boot camp 
attrition or our non-end of active service attrition have 
either one gone up as a result of that.
    Senator Webb. So you are talking purely about the moral 
waiver?
    General Conway. Yes, sir, exactly.
    Senator Webb. What about age waivers? Are you--
    General Conway. No, sir, we do not. They have not exceeded 
what we would traditionally bring in.
    Senator Webb. General Schoomaker?
    General Schoomaker. Sir, first of all to put it in 
perspective. In 1979 we had 50 percent CAT-4s accessed into the 
force. In 1980 we had 56 percent CAT-4s accessed into the 
force. Today we have less than 4 percent CAT-4s accessed into 
the force.
    Senator Webb. Well, let me ask you a question about that 
before you go any further, because I am an old manpower guy. My 
recollection--I was working on the Hill at the time--is that 
they changed the definition of CAT-4 in 1979 and 1980, in that 
time period, where there are a lot of people who are now CAT-
3Bs who would have been CAT-4s back in 1979 or 1980.
    General Schoomaker. I am not aware of that. I do not know.
    Senator Webb. Do you want to get somebody to verify that?
    General Schoomaker. We certainly could, and we will provide 
it to you for the record.
    [The information referred to follows:]

                   Mental Category IV Categorization

    The definition of Mental Category IV (CAT IV or CAT 4) has not 
changed. Category IV remains the mental category assigned to 
individuals scoring in the 10th through 30th percentile of the U.S. 
population on the Armed Forces Qualification Test (AFQT) and is the 
lowest acceptable category for military service.
    From June 1976 to June 1980, the AFQT used by the Services was 
``misnormed'' or imperfectly calibrated and resulted in inflated scores 
at the lower ability levels. Thus, the Armed Forces inadvertently 
enlisted considerably more persons belonging in CAT IV than intended. 
When properly normed, the test scores indicated 46 percent of Army 
recruits in fiscal year 1979 and 52 percent in fiscal year 1980 
belonged in CAT IV (DOD totals for the same years were 30 and 33 
percent, respectively).

    General Schoomaker. But nevertheless, in terms of the 
magnitude, if they changed it then, we were still in double 
digits all the way through the middle of the 1980s. So the 
quality of this force is as high as I have ever seen in the 
almost 38 years that I have been associated with the Army in 
uniform and out.
    In terms of other waivers, it is still a very--we are 
talking about 1 percent of the force. I remind you that we 
recruited 175,500 soldiers last year, the best year we had in a 
long time. These waivers, just like in the Marine Corps, 
receive a great deal of scrutiny, and we watch the attrition in 
the training base as well as the units and we are seeing no 
difference between this.
    In terms of age, we allowed some soldiers to come in over 
40 years of age because they want to. But I believe the figures 
are correct. I think the magnitude of this is something like 
700 soldiers. This is not a large number of people. They turned 
out to be very fit, very motivated, and very committed. In 
fact, we have had some of these over 40 year olds that have 
actually been the honor graduates in their initial entry 
training. So this is in my view kind of a canard, that this is 
a problem.
    I am very, very satisfied with the way that we are doing 
what we are doing. I think it does bear a lot of watching. We 
do not want to return to the days where we see indiscipline and 
the difficulties that we experienced in our early years.
    Senator Webb. That is just to clarify here. In the interest 
of time, because I think people are wanting to close the 
hearing down, that is not really my angle on this. I said I am 
an old manpower guy. I am also, as General Conway will 
remember, an old trainer. I personally have never been that 
concerned about people who are non-high school graduates coming 
into the military. If there are statistics that show that these 
people are the ones--I know you moved now to where this General 
Education Degree completion, but you really basically have a 
similar product.
    Those are people who--many of those--if you give me a high 
mental category high school dropout who is enthused about what 
they are doing, A, they become very good soldiers and marines 
and, B, they become very good citizens. I have a number of 
close friends who are examples of that. Carlton Sherwood, a 
long-time friend of mine, was a high school dropout who became 
a Pulitzer Prize-winning reporter, a three Purple Heart marine. 
Walter Anderson, who is the Chairman and Chief Executive 
Officer of Parade Enterprises, was a high school dropout who 
went into the Marine Corps and became valedictorian of his 
college class when he finished.
    The argument that was used in order to keep these people 
out of the system was that since they failed to finish high 
school they probably were going to fail to finish an enlistment 
or training. But if your attrition figures do not show that--a 
high mental category high school dropout is potentially a very 
good soldier or marine.
    General Schoomaker. Senator, I think, if I could, to make 
your point. The Secretary of the Army testified the other day 
that we surveyed the--we have the best noncommissioned officer 
corps I can ever remember. He conducted a survey of the serving 
sergeant majors in the Army today. Thirteen percent of them 
reportedly entered the Army as CAT-4s.
    The Army and the Marine Corps build great citizens, and 
part of what we contribute is building young people. They are 
exactly as you described. They are people properly motivated, 
properly led, put in the proper environment, that in fact we 
are turning out great citizens for America, and I think that we 
are on the right path.
    Senator Webb. I agree.
    The Senator from Alabama, do you have any further 
questions?
    Senator Sessions. Briefly. Major General Walter 
Wojdakowski, USA, at Fort Benning was in my office yesterday 
and I asked him, could he tell the difference in the training 
level and is he worried about it. He said not any whatsoever. 
He was very firm on that.
    I think Senator Webb is raising a good point. I think if 
you choose carefully those who may meet--not meet some 
standards, then the military benefits and the whole Nation 
benefits, because I do think life in the military turns out to 
be a blessing for many, many young people.
    General Conway, when Senator Warner, Senator Levin, and I 
were in al-Anbar in August of last year things were not going 
well. The marines are primarily in that tough, tough area. The 
marines briefed us and there was some real concern I think we 
both felt. I have heard since there has been some progress. 
Could you briefly tell us what changes, if any, have occurred 
since August?
    General Conway. Yes, sir, I would be happy to. The sergeant 
major and I took a trip over Christmas to go out to see the 
troops.
    Senator Sessions. I believe it was October that--Senator 
Warner corrected me--when we were there.
    General Conway. You may remember, sir, Al-Qa'im at one 
point was the wild, wild west out on the Syrian border, and we 
put some great Marine battalions through there and I think they 
have paid for success through blood, sweat, and tears. But 
today I would argue it is probably the model for the rest of 
Iraq, because today the Sunni tribes out there have allied with 
the coalition forces. They have worked against the al Qaeda of 
Iraq (AQI). They have shut down, not entirely but 
significantly, the rat lines down through that Euphrates River 
Valley. There is a marketplace that goes every other day and 
there are 8 to 10,000 citizens there who mass without fear of 
being blown away because of the local security provided by 
Sunni tribesmen, police, and soldiers.
    I was surprised to find in Ramadi the essence of the same 
thing starting to take root. There is a great young Army 
brigade commander there who has a Marine battalion working for 
him. He reports to the Marine Expeditionary Force Commander 
forward out in Fallujah. But he showed us a chart of Ramadi 
about 3 months ago. This was again over Christmas time. Of the 
16 tribes in and around Ramadi, 12 were allied essentially 
against the coalition forces at that point. They were red or 
amber on the stoplight chart. Today it is just the opposite. 
Those tribes have finally had it up to here with the AQI 
because of indiscriminate killing of their sons and daughters, 
and they came to Colonel McFarland and Colonel Journey, the 
battalion commander, and said: ``If you will support us, we are 
going to work against these people and get them out of our 
culture.'' That is exactly what has been taking place ever 
since.
    Today those same 16 tribes show about 12 amber green and 
the others coming over. So I think that it is a real success 
story. We have not fully turned the corner yet. Ramadi is still 
an armpit and will be that for some time. But it is 
dramatically different from what it was and it is exactly what 
we were trying to do from the very beginning in the al-Anbar.
    Senator Sessions. Well, that is good to hear, because I 
left trouble, I got to tell you. I was uneasy. I have heard 
that. That is a good statement. I guess you should not bet 
against the United States military when they set their--
    General Conway. We just need time, sir.
    Senator Sessions.--minds to a tough challenge. It also 
points out that, even though we have had some bad news in 
Baghdad and other places, that things can change, because that 
is just in a matter of 2 or 3 or 4 months that this change has 
occurred there.
    I would just, on the supplemental and the $2 billion that 
came out of BRAC, we really have to replace that. That cannot 
be done any other way. It should not be taken from the 
military. It was in the bill when we voted on it last year. It 
was taken out and the money was spent on social programs and 
other things, and now we have to get it back in.
    I think, General Schoomaker, I will be prepared to support, 
even though I am a budget believer, that we will put it on top 
and not take it from your other resources.
    General Schoomaker. Thank you, sir.
    Senator Sessions. Thank you.
    Senator Webb. Senator Warner.
    Senator Warner. Proceed to room 222?
    Senator Webb. Yes. The committee is adjourned and we will 
resume in executive session in room 222.
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                       HELMET UPGRADE PAD SYSTEMS

    1. Senator Akaka. General Schoomaker and General Conway, I and the 
members of this committee are strong proponents of ensuring that our 
troops have the best equipment possible, especially personal protective 
gear. General Conway, in your statement, you indicated that the Marine 
Corps has implemented a new helmet pad system to decrease the impact 
from a blast or blow to the head. A charity organization, Operation-
Helmet.org, has been providing helmet upgrade pad systems to our 
marines for a couple of years. I believe it was anticipated that your 
new system would put them out of business. Unfortunately, that does not 
seem to be the case. Their Web site indicates that the feedback they 
are getting from the troops on the new Marine pad systems and the ones 
newly purchased by the Army are ``very hard, do not allow the helmet to 
adjust to their heads, resulting in headaches and discomfort.'' 
Operation-Helmet.org claims they have been supplying a brand of pads 
called Oregon Aero pads because of their ``excellent track record 
protecting from blast forces as well as `wearability'.'' I am concerned 
that the comfort issue could reduce the effectiveness of new helmet 
gear, and could cause out troops to remove their helmets periodically 
to relieve their discomfort, potentially exposing them to danger. Worse 
still, they may take steps to improve comfort at the expense of safety. 
Has the Marine Corps and/or the Army evaluated the new pad system being 
provided against the Oregon Aero pads or against any other competitive 
manufacturers? If so, what was the results of the comparison and the 
basis for choosing the pads currently being provided? If not, on what 
basis for selection of the current pad system being provided to the 
troops?
    General Schoomaker. The Army evaluates and qualifies the advanced 
combat helmet (ACH) impact pad system to the performance requirements 
in the ACH purchase description. The Army does not compare one 
manufacturer's impact pads to those of other manufacturers. Impact pads 
either meet the ACH performance specification, or they do not. All ACH 
impact pad sets provide comfort and wearability to the user. The Army 
has evaluated the impact pads in the Oregon Aero Ballistic Liner and 
Suspension System kit provided to soldiers and marines by the charity 
``Operation Helmet'' against the ACH performance specification. These 
pads do not meet the ACH requirement for blunt impact protection. 
Complaints regarding headaches and discomfort have been traced to 
improper fit of the ACH--specifically, that the impact pad arrangement, 
thickness and/or shell size combination is too small. Soldiers and 
marines experiencing discomfort should select the next smaller size 
impact pad set and/or the next larger helmet shell size in order to 
obtain a comfortable, correctly fitting helmet. The Army has 
distributed graphic training aides developed by the U.S. Army Training 
and Doctrine Command which describe procedures to follow to properly 
fit the ACH to avoid discomfort and enhance performance. The Army has 
qualified four manufacturer's impact pad sets for production. These 
four impact pad sets were qualified because they demonstrated through 
testing that they met the performance requirement for cushioning and 
blunt impact protection in the ACH purchase description.
    General Conway. Thank you for the opportunity to respond to your 
correspondence regarding helmet pads for our young men and women in 
uniform. I share your strong commitment that our marines and soldiers 
should be equipped with the best force protection equipment available.
    Let me assure you that the Department of Defense (DOD) is committed 
to providing the best helmet protection possible. The lightweight 
helmet (LWH) and the ACH were selected as superior solutions to meet 
the needs and requirements of our warfighters. However, no single 
helmet can provide complete protection against all major sources of 
head injury. Head injury on the battlefield can be divided into three 
main groupings: ballistic, blunt force impact and blast. Although the 
LWH with its sling suspension system performed extremely well in 
ballistic testing, the areas of blunt force and blast effects were of 
growing concern.
    To that end, the Marine Corps commissioned studies to better 
determine the efficacy of both the sling and padded suspension systems. 
Additionally, the DOD participated in the congressionally directed, 
independent, ballistic and nonballistic tests of the Marine Corps LWH 
and the Army ACH through the Office of the Under Secretary of Defense 
(Acquisition, Technology, and Logistics). After receiving the study 
results on the performance of both the pad and sling helmet suspension 
systems, the Marine Corps concluded that pad suspension systems 
provided improved protection against blunt force trauma. Because there 
are a wide variety of pad suspension systems available, the Marine 
Corps also commissioned the U.S. Army Aeromedical Research Laboratory 
(USAARL) to conduct tests on various pad suspension systems. The 
results of the USAARL testing indicated that the pad suspension system, 
procured by the Defense Logistics Agency (DLA), provided marines the 
best protection available.
    The current Marine Corps policy is that padded suspension systems 
will be installed in every LWH and only the DLA procured pad suspension 
system is authorized. Pads are available through the normal military 
supply system for all helmets that were previously outfitted with the 
sling suspension system.

      INCREASE IN MORAL WAIVERS FOR PERSONS WITH CRIMINAL RECORDS

    2. Senator Akaka. General Schoomaker and General Conway, a number 
of media outlets have reported recently on the increase in the number 
of new recruits needing moral waivers having criminal records. Many of 
these waivers are for felonies, and serious misdemeanors. I know that 
DOD officials have stated their support for the waiver program because 
it is a way to admit young people who may have made a mistake in the 
past, but have overcome their past behavior. As always, we must keep 
the safety of our troops in mind. You have both indicated in your 
testimony that the Army and the Marine Corps have monitored the 
performance of individuals with waivers through the basic training 
period. My question deals with whether you have studied their 
performance over a longer term. Has either the Army or the Marine Corps 
studied the long-term results of the program after these young people 
have been accepted into the military?
    General Schoomaker. There have been no recent studies conducted to 
assess the long-term performance of soldiers granted waivers for felony 
offenses. The Army evaluates cohort attrition out to 36 months of time 
in service. A review of the attrition data from the most recent cohort 
completing 36 months of time in service (fiscal year 2003 accessions 
cohort) reveals no significant difference between soldiers granted 
felony waivers and the rest of the cohort. In fact, the attrition rate 
for soldiers without felony waivers in the fiscal year 2003 accession 
cohort was 36.5 percent, while those with a felony waiver attrited at a 
rate of 34.4 percent.
    General Conway. Marine Corps Recruiting Command, Manpower Plans and 
Policies (Enlisted Plans) and The Center for Naval Analysis continually 
look at the performance of marines entering the Corps on legal waivers 
to ensure that we are applying the proper criteria in our waiver 
process, and that we are not achieving unacceptable rates of recruit or 
first-term attrition in this group. Our most current review of short-
range fiscal year 2003 to fiscal year 2005 Accessions show no 
noticeable trends in either recruit or non-EAS attrition for marines 
with moral waivers. Likewise a look at the fiscal year 1992 through 
fiscal year 1996 cohorts 10-year survival rates we found that Marine 
recruits with enlistment waivers have 10-year survival rates that are 
within a percentage point of those for all recruits and within a couple 
of percentage points of those recruits without waivers.

    3. Senator Akaka. General Schoomaker and General Conway, for 
instance, how have these recruits receiving waivers performed in combat 
compared to the overall population in the Army and the Marine Corps?
    General Schoomaker. There have been no studies to determine the 
performance of soldiers that enlisted with moral waiver in comparison 
the overall population in the Army. However, records of the 419 
soldiers that enlisted in fiscal year 2003 with a felony waiver show 
that 143 have deployed in support of the global war on terrorism; 93 
received the Global War on Terrorism Expeditionary Medal; 71 received 
the Iraqi Campaign Medal; 34 received the Combat Action Badge; 15 
received the Afghanistan Campaign Medal; 7 received the Purple Heart; 1 
received the Bronze Star; 9 received the NATO Medal; 12 received the 
Unit Valorous Award; 2 have received the Humanitarian Service Medal; 
114 received the Army Commendation Medal; 199 received the Army 
Achievement Medal; and 29 have received the Noncommissioned Officer 
Professional Development Ribbon.
    General Conway. Although, the Marine Corps has not measured the 
performance of marines with waivers in combat to the overall 
population, we have measured the percentage of marines with waivers 
meritoriously promoted to grade.

  TABLE 1. PERCENTAGE OF MARINES WHO ACCESSED WITH LEGAL WAIVERS RECEIVING MERITORIOUS PROMOTIONS: FISCAL YEAR
                                       1998 TO FISCAL YEAR 2005 ACCESSIONS
                                  [Percentage meritoriously promoted to grade]
----------------------------------------------------------------------------------------------------------------
                                               Lance Corporal                                     Staff Sergeant
                                                    (E3)        Corporal (E4)    Sergeant (E5)         (E6)
----------------------------------------------------------------------------------------------------------------
All.........................................             9.4              9.2              3.6              9.7
Any Waiver..................................             9.5              9.2              3.6              9.8
Legal Waiver................................            10.7              9.8              3.6              8.3
Felony......................................            12.0              9.2              3.5              8.5
Serious misdemeanor.........................            10.2             10.0              3.5              6.8
Minor misdemeanor...........................            10.9              9.5              3.9              8.6
----------------------------------------------------------------------------------------------------------------

    a. The high percentage of meritorious promotions to staff sergeant 
is due to the accession sample beginning in fiscal year 1998.

    4. Senator Akaka. General Schoomaker and General Conway, what 
percentage of those with waivers have been discharged due to conduct 
problems, and how does that compare to the overall population in the 
Army and the Marine Corps?
    General Schoomaker. An analysis was done using fiscal year 2003 
cohort to determine the attrition rate of the soldiers that enlisted 
with felony waivers versus the overall fiscal year 2003 accession 
cohort. Fiscal year 2003 cohort was used to provide a full 36 month 
analysis. The fiscal year 2003 overall accession cohort attrition was 
36 percent versus 34.4 percent of the soldiers with felony waivers. Of 
those, 18.3 percent of overall fiscal year 2003 accession cohorts were 
discharged for adverse reasons in comparison to 17.7 percent admitted 
with felony waivers.
    General Conway. Comparing all marines accessed in fiscal year 2004, 
the average separation rate for marines with legal waivers was 7.2 
percent as compared to 6.2 percent for marines with any waiver. The 
average misconduct separation rate for all marines was 4.6 percent.

    5. Senator Akaka. General Schoomaker and General Conway, looking 
back, the waiver program has been used for a long time. What percentage 
of those recruits with waivers have gone on to have long careers in the 
military, for instance more than 10 years, and how does that compare 
with the overall population in the Services?
    General Schoomaker. A review of the fiscal year 1996 data on non-
prior service (NPS) soldiers that were granted a moral waiver shows 
that 14.7 percent (319 out of 2149) are still serving in comparison to 
16.6 percent (11,330 out of 68,310) of the overall fiscal year 1996 NPS 
accessions cohort without a moral waiver.
    General Conway. To answer this question, we had to go back to 
examine data of marines recruited in the fiscal year 1992 to fiscal 
year 1996 timeframe. When comparing recruits with waivers to those 
without waivers the performance is consistent across each fiscal year 
and the recruits with waivers are within 1 to 2 percentage points of 
the recruits without waivers and 1 percentage point of all recruits. 
Again, we believe that our waiver policy is producing the results that 
support the needs of the Marine Corps and maintaining quality.

                  LEVEL OF INVOLVEMENT OF IRAQI TROOPS

    6. Senator Akaka. General Schoomaker and General Conway, Secretary 
Gates told this committee in January that the arrival of the Iraqi 
brigades in Baghdad by mid-February would be an important litmus test 
of whether the Iraqi government was serious about securing its capital 
city. General Dempsey was recently quoted in the United Press 
International as saying that three brigades had shown up in Baghdad 
with between 70 percent and 75 percent of their soldiers, a Kurdish 
unit from Sulaimaniyah and Kirkuk had arrived with only 56 percent of 
its expected troops, and that other inbound units from the Kurdish 
north were expected to arrive with 70 percent of their troops or more. 
However, last week, the New York Times reported that ``Thousands of 
U.S. troops in armored Stryker vehicles swarmed three mostly Shiite 
neighborhoods of northeastern Baghdad on Wednesday, encountering little 
resistance during what commanders described as the first major sweep of 
the new security plan for the capital. The push into the neighborhoods 
of Shaab, Bayda, and Ur, on the northern edge of Sadr City, came a day 
after Lieutenant General Aboud Qanbar, a top Iraqi military leader, 
claimed broad powers to search, detain, and move residents from their 
homes. But even though an Iraqi announced the new phase of the security 
plan, it was clearly a U.S.-led operation [emphasis added]: Only 200 
Iraqi police and soldiers were involved, commanders said, working 
alongside about 2,500 Americans.'' Our success in establishing and 
maintaining security in Baghdad and Al Anbar province during the surge 
relies on the operation having an Iraqi face to it. For it to work, the 
Iraqis must take the lead in the security crackdown, not the United 
States. As you well know, we have not provided General Petraeus with 
sufficient resources to sweep and hold these neighborhoods without 
significant help. If General Dempsey is correct, and the Iraqi brigades 
arrived on schedule, why were they not present in significantly larger 
numbers during this first action in the security crackdown?
    General Schoomaker. Sir, I appreciate your questions; however, they 
would be more appropriately addressed by the combatant commander in 
Iraq. In accordance with title 10, U.S.C., and the duties assigned to 
me by the Secretary of the Army, I do not have command or control of 
Army units that are assigned to Central Command.
    General Conway. Senator, as per title 10, U.S.C. and the duties 
assigned to me by the Secretary of the Navy, I do not have command or 
control of Marine units that are assigned to Central Command. I believe 
that the Central Command Commander can best address your question.

    7. Senator Akaka. General Schoomaker and General Conway, if the 
Iraqis were not ready, why was the operation not delayed until they 
were ready?
    General Schoomaker. Sir, I appreciate your questions; however, they 
would be more appropriately addressed by the combatant commander in 
Iraq. In accordance with title 10, U.S.C., and the duties assigned to 
me by the Secretary of the Army, I do not have command or control of 
Army units that are assigned to Central Command.
    General Conway. Senator, as per title 10, U.S.C. and the duties 
assigned to me by the Secretary of the Navy, I do not have command or 
control of Marine units that are assigned to Central Command. I believe 
that the Central Command Commander can best address your question.

    8. Senator Akaka. General Schoomaker and General Conway, how long 
will our troops maintain the new operational tempo without much more 
support from the Iraqis?
    General Schoomaker. Sir, I appreciate your questions; however, they 
would be more appropriately addressed by the combatant commander in 
Iraq. In accordance with title 10, U.S.C., and the duties assigned to 
me by the Secretary of the Army, I do not have command or control of 
Army units that are assigned to Central Command.
    General Conway. Senator, as per title 10, U.S.C., and the duties 
assigned to me by the Secretary of the Navy, I do not have command or 
control of Marine units that are assigned to Central Command. I believe 
that the Central Command Commander can best address your question.

    9. Senator Akaka. General Schoomaker and General Conway, for the 
security crackdown to have credibility, the Iraqis must show that they 
are treating all factions equally. How does the U.S. forces cracking 
down on a Shia neighborhood with minimal help from the government 
provide the Sunnis with an assurance that the government is being fair 
and impartial?
    General Schoomaker. Sir, I appreciate your questions; however, they 
would be more appropriately addressed by the combatant commander in 
Iraq. In accordance with title 10, U.S.C., and the duties assigned to 
me by the Secretary of the Army, I do not have command or control of 
Army units that are assigned to Central Command.
    General Conway. Senator, as per title 10, U.S.C. and the duties 
assigned to me by the Secretary of the Navy, I do not have command or 
control of Marine units that are assigned to Central Command.

                     ADDITIONAL BUDGET INFORMATION

    10. Senator Akaka. General Schoomaker and General Conway, during 
the hearing, Senator Levin requested that you provide additional budget 
information for the last 4 years showing what the Army and the Marine 
Corps requested in their budget submissions. Please provide a copy of 
your response to his request for the record.
    General Schoomaker. The table below displays the Army's combined 
base program request and supplemental request since fiscal year 2003 in 
three columns: as submitted to the Office of the Secretary of Defense 
(Comptroller), as approved by Office of the Secretary of Defense (OSD), 
and the Office of Management and Budget and as appropriated by 
Congress.

                                            [In billions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                Office of
                                                          Army Request to     Management and     Congressional
                      Total Budget                              OSD          Budget (OMB)/OSD   Approval (APPN)
                                                                                 Position
----------------------------------------------------------------------------------------------------------------
Fiscal Year 2003.......................................             135.6              115.6              115.2
Fiscal Year 2004.......................................             145.6              131.2              134.2
Fiscal Year 2005.......................................             168.3              155.4              159.5
Fiscal Year 2006.......................................             187.7              165.9              165.7
Fiscal Year 2007 (Base and title IX only)..............             160.4              160.7              159.0
----------------------------------------------------------------------------------------------------------------

    This table shows the amounts requested by the Army and subsequently 
approved by OSD/OMB for the fiscal year 2007 emergency supplemental, 
fiscal year 2008 base budget, and fiscal year 2008 global war on 
terrorism request.

                        [In billions of dollars]
------------------------------------------------------------------------
                                        Army Request to      OMB/OSD
            Budget Request                    OSD            Position
------------------------------------------------------------------------
Fiscal Year 2007 Main Supplemental \1\            66.0             58.9
Fiscal Year 2008 Base \2\.............           130.7            130.0
Fiscal Year 2008 Global War on                   105.1             92.1
 Terrorism Allowance \3\..............
------------------------------------------------------------------------
\1\ Adds $12.2 billion for Afghanistan Security Force Fund (ASFF), Iraqi
  Security Forces Fund (ISFF), and the Joint IED Defeat Organization
  (JIEDDO) not included in the Army's request to OSD but submitted to
  Congress by OMB/OSD.
\2\ Includes $7.7 billion for Grow the Army
\3\ Adds $8.7 billion for ASFF, ISFF, and JIEDDO not included in the
  Army's request to OSD but submitted to Congress by OMB/OSD.

    General Conway.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    11. Senator Akaka. General Schoomaker and General Conway, in 
addition, please highlight the items that were removed from your budget 
after you submitted your request.
    General Schoomaker. Prior to submitting the Army Budget Estimate to 
the OSD (Comptroller) in August, the Army began discussions with OSD 
and the Office of the Chairman, Joint Staff (OJCS) to examine the 
ability of the Army to meet its missions within the fiscal guidance 
provided. We established teams that included OJCS and OSD personnel to 
review and determine the cost to execute the Army's critical mission 
requirements. The result was an increase in the Army's fiscal guidance. 
Although the Army was not able to budget for 100 percent of the 
requirements, I am satisfied that we received a fair consideration of 
our requirements. After assessing the Army's fiscal year 2008 
President's budget request and the fiscal year 2008 global war on 
terrorism request, I submitted to Representative Hunter on February 9, 
2007, a list of unfunded requirements to which the Army would apply any 
additional resources. I have enclosed that list for your information.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    General Conway.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

medical treatment of wounded troops returning from iraq and afghanistan
    12. Senator Akaka. General Schoomaker, on February 18, there was an 
article in the Washington Post titled, ``Soldiers Face Neglect, 
Frustration At Army's Top Medical Facility.'' This article detailed 
significant problems in providing proper treatment to our seriously 
wounded troops returning from Iraq and Afghanistan. This article 
troubles me greatly. Under no circumstances, in my opinion, is there 
any excuse for providing our wounded and injured troops returning from 
Iraq or Afghanistan with substandard or insufficient care after they 
have sacrificed so much for our country. This is a moral obligation we 
owe our troops and their families. I am also disturbed that Congress 
has to learn about these problems through the press. It is imperative 
that our military leaders communicate these problems early, so that 
Congress can take action to provide whatever resources are needed to 
minimize or eliminate them. The Washington Post article indicates that 
efforts to fix the problems are underway. However, with the surge in 
Iraq, and the expected Taliban offensive in the Spring in Afghanistan, 
the potential exists for a surge in the numbers of wounded returning to 
the United States for treatment. What steps has the Army taken to 
ensure that they have sufficient capacity of trained medical personnel, 
as well as appropriate levels of other medical resources including 
hospital space and beds, available to support any increase in the 
numbers of wounded reporting to Walter Reed Army Medical Center (WRAMC) 
or any other Army medical facility for treatment?
    General Schoomaker. The problems at WRAMC reflect poor maintenance 
of barracks used to house soldiers receiving medical care as 
outpatients and an outdated administrative management of soldiers in 
the Physical Disability Evaluation System. The quality of the medical 
care at WRAMC and across all of the Army's hospitals and clinics 
remains second to none. We have taken steps to immediately address 
these problems and to improve living conditions and administrative 
processes across the Army as we discover them. As the troop surge 
progresses we will carefully monitor casualty evacuations and use all 
of the resources available to us to ensure we have the capacity and 
capability to ensure every soldier received the best medical care our 
Nation has to offer. If we need additional resources to accomplish this 
we will come back and ask Congress for those resources.

    13. Senator Akaka. General Schoomaker, what is the Army doing to 
provide improved comfort and assistance to the families?
    General Schoomaker. At WRAMC we are revamping the way we support 
wounded soldiers and their families. We have created a Warrior 
Transition Brigade and added over 130 military positions to the 
leadership team that provides daily care and leadership for our medical 
holdover soldiers and creating new leadership posts for company 
commanders, first sergeants, and squad leaders. This substantially 
reduces the noncommissioned leader-to-led ratio at the platoon level 
(from roughly 1:55 to one closer to that which all Army units operate 
at 1:12). Just like soldiers in every unit in the Army, these soldiers 
now have a full chain of command, starting at the squad leader level, 
to look after their health and welfare. Among other improvements for 
our families, WRAMC leaders will begin greeting family members at the 
airport and escort them to the hospital, letting them know in word and 
deed that they and their soldiers have a working support system. We are 
creating a one-stop shopping Soldier and Family Assistance Center to 
bring together assistance coordinators, personnel and finance experts, 
and representatives from key support and advocacy groups such as the 
U.S. Army Wounded Warrior Program, the Red Cross, Army Community 
Services, Army Emergency Relief, and Veterans Administration (VA). 
Also, we have begun a more efficient and thorough system for 
transferring our Warriors in Transition from inpatient to outpatient 
status. At WRAMC, a complete review of our discharge management process 
resulted in a revision of standard operating procedures. We developed a 
discharge escort system whereby hospital staff, including the brigade 
leadership, comes to the soldier to conduct discharge business, escort 
the soldier to the brigade, and assist with luggage and transition into 
the unit. We instituted training to re-emphasize the importance of 
hospitality for our soldiers and their families.

    14. Senator Akaka. General Conway, has the Marine Corps experienced 
any problems in dealing with the numbers of wounded needing treatment 
after returning from Iraq or Afghanistan? If so, what steps are being 
taken to rectify the problem?
    General Conway. The Navy is successfully caring for returning OEF/
OEF casualties. The most difficult issues remain in the identification 
and treatment of mental health conditions. We are specifically taking 
steps in the areas of Post-Traumatic Stress Disorder (PTSD), Traumatic 
Brain Injury (TBI), and the overall case management of casualties.
Post-Traumatic Stress
    Prevention:
         Prevention is at the forefront of early identification and 
        intervention of PTSD. We have embedded teams in the field 
        Operational Stress Control and Readiness (OSCAR) to promote 
        prevention and early intervention. Closely aligned with 
        warfighters while in garrison, providers instruct self-aid and 
        buddy-aid training.
         Key to Force Health Protection and at the forefront of early 
        identification is an emphasis on primary care delivered 
        behavioral health services.
         Navy Medicine has established a Deployment Health 
        Directorate, and identified a Combat/Operational Stress Control 
        (COSC) consultant to coordinate prevention and treatment 
        efforts.
    Identification:
         Sailors and marines receive post-deployment health assessment 
        (PDHA) immediately following deployment, and Post Deployment 
        Health Reassessment 90-180 days later.
         Thirteen Deployment Health Centers (DHCs)--non-stigmatizing 
        portals for identification and care--established at a cost of 
        $10 million. Through February 2007, DHCs saw more than 4,000 
        encounters (in excess of 3,700 primary care and 420 mental 
        health visits).
    Treatment:
         When intervention is necessary in theater, in accordance with 
        the proximity, immediacy, expectancy, simplicity principles 
        treatment occurs via embedded mental health personnel in 
        deployed units (Marine Corps OSCAR teams and Carrier Group 
        Clinical Psychologists).
         The Navy uses best practice guidelines for mental health 
        treatment such as the VA/DOD jointly developed clinical 
        practice guidelines.
         Navy has partnered with other services to establish a Center 
        for Deployment Psychology, providing education and training on 
        treatment of PTSD and other combat stress disorders.
Traumatic Brain Injury
         Navy medical personnel maintain heightened awareness to 
        possible TBI-related symptoms in servicemembers using increased 
        indices of suspicion when performing medical assessments. Unit 
        medical personnel use the Military Acute Concussion Evaluation 
        (MACE) developed by the Defense Veterans Brain Injury Center 
        (DVBIC). The MACE is a battlefield screening tool used to 
        identify symptoms in those servicemembers involved in blast 
        events. Additionally, mental health personnel assigned to 
        Marine Corps I Marine Expeditionary Force utilized the Combat 
        Trauma Registry to document presenting symptoms, which included 
        neuropsychological screening questions to identify TBI-related 
        symptoms in marines seeking in-theater mental health care.
         Post-deployment screening occurs immediately following 
        deployment using the PDHA, and again at 90 to 180 days using 
        the Post-Deployment Health Reassessment (PDHRA). DOD plans 
        additional TBI-related screening questions for the PDHA, the 
        PDHRA, and the Periodic Health Assessment.
         All casualties evacuated to Bethesda National Naval Medical 
        Center (NNMC) receive neuropsychological screening with 
        appropriate treatment and follow-up for later-onset symptoms. 
        Abnormal TBI screens receive 3-month follow-up, and referral to 
        appropriate level of treatment as needed. A dedicated Bethesda 
        NNMC database tracks all casualty treatment/follow-up. The 
        Physical Evaluation Board process and VA OIF/OEF Coordinators 
        also track patients to ensure continuity of care.
Case Management
         Case managers assist servicemembers and families with 
        coordination, communication, education, resource management and 
        advocacy. Since the start of the war there has been a shift of 
        resources from noncasualty case management to predominantly 
        OEF/OIF casualty management at locations receiving OEF/OIF 
        casualties. Since 2003, the number of assigned case managers 
        has increased from 94 to 112 in Navy medicine facilities.
         We are targeting an overall ratio of 1 case manager to 30 
        patients. The majority of our casualties are treated at NNMC, 
        Bethesda, NMCSD San Diego, Naval Hospital Camp Pendleton and 
        Naval Hospital Camp Lejeune. We are adding six additional 
        positions at Bethesda, four at San Diego, and one at Camp 
        Lejeune. We are conducting a structured review of case 
        management needs across all of Navy Medicine to assure adequate 
        resourcing.
         In addition to clinical case management, the Marine Corps has 
        very actively taken care of wounded marines through use of 
        Marine Liaisons in our military treatment facilities (MTFs), 
        the Marine for Life Program and the use of Wounded Warrior 
        Barracks to make sure that marines are getting exactly what 
        they need to get well. The Navy has developed the SAFE Harbor 
        Program mirroring the success for Marine for Life.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                               READINESS

    15. Senator Clinton. General Schoomaker and General Conway, section 
345 (Comptroller General Report on Readiness of Army and Marine Corps 
Ground Forces) to the National Defense Authorization Act for Fiscal 
Year 2007 requires the Comptroller General to submit to the Committee 
on Armed Services of the Senate and the Committee on Armed Services of 
the House of Representatives a report on the readiness of the Active 
component and Reserve component ground forces of the Army and the 
Marine Corps no later than June 1, 2007. Specific report requirements 
include: current readiness status; ability of the Services to provide 
trained and ready forces for ongoing operations; availability of 
equipment for training; current and projected requirements for repair 
or replacement of equipment; current personnel tempo and a comparison 
of such tempos to historical trends and an identification of particular 
occupational specialties that are experiencing unusually high or low 
deployment rates; and an analysis of retention rates in occupational 
specialties. Are you aware of this required Government Accountability 
Office (GAO) report that is due in 3 months that is exclusively focused 
on Army and Marine Corps readiness?
    General Schoomaker. Yes, the Army is aware of this effort.
    General Conway. Comparing all marines accessed in fiscal year 2004, 
the average separation rate for marines with legal waivers was 7.2 
percent as compared to 6.2 percent for marines with any waiver. The 
average misconduct separation rate for all marines was 4.6 percent.

    16. Senator Clinton. General Schoomaker and General Conway, is the 
Army and Marine Corps cooperating with the GAO on this report?
    General Schoomaker. Yes, the Army is cooperating with the GAO on 
this report.
    General Conway. The Marine Corps is cooperating fully with the GAO.

                               DWELL TIME

    17. Senator Clinton. General Schoomaker and General Conway, the 
Services have identified the time that servicemembers spend at home 
station between deployments as ``dwell time''. During this period 
personnel and families are supposed to be given a respite. Sufficient 
dwell time affords deployed troops and families not only an opportunity 
to reintegrate into a non-deployed status, but also should provide: 
professional education opportunities, increase family time, training 
schedules that adequately prepare them for future deployments, extended 
equipment maintenance periods, and planned key leader and command 
changes. Can you explain how the escalation of troops has abbreviated 
dwell time for soldiers and marines?
    General Schoomaker. In order to meet the plus-up, OSD and the Joint 
Staff will have to use a combination of unit extensions (extending 
units in Iraq and Afghanistan beyond their 12 month rotation) and early 
deployments (sending units to Iraq and Afghanistan with less than 12 
months at home). However, the Army will continue to only send units 
that are trained and ready for combat operations. The number one 
priority for the Army is setting security conditions for the 
democratically-elected governments of Iraq and Afghanistan to govern 
and police progress while placing emphasis on efforts to build up and 
advise indigenous security forces within their countries. The next-to-
deploy forces are struggling to achieve just-in-time readiness. 
Redeployed units face significant reset challenges, primarily from 
resources and time available. The reset period is truncated due to the 
short time before next deployment and the unit dwell time which does 
not allow adequate time to reset equipment and train for full spectrum 
operations; however they will be trained to conduct the counter 
insurgency mission in Iraq and Afghanistan. Furthermore, the Army will 
continue to support the commanders in other theaters to locate, 
disrupt, and attack al Qaeda and associated terrorist networks 
worldwide with necessary forces which protect and deter against any 
actions toward our homeland. The resulting domino effect of the Army's 
manning, training and equipping efforts is the accelerated execution of 
field training exercises and deployments to training centers in order 
to conduct mission rehearsal exercises in preparation for deployment 
into theater. Additionally, in some instances new equipment fielding 
and training is conducted to ensure soldiers are equipped with and 
trained on the most modern equipment in the Army's inventory. 
Commanders at all levels endeavor to balance the very heavy burden of 
ensuring their units are manned, trained and equipped with the 
absolutely necessary requirement to ensure they have quality family 
time, respite from a year long combat tour and time for personal and 
professional development. Their ability to balance these competing but 
very necessary demands are challenged during the acceleration as they 
prepare to return to combat but, as has been proven during the early 
stages of the escalation of troops, have been successful.
    General Conway. Assuming the recent surge (plus-up) lasts until Aug 
07, 3 Infantry Battalions and 12 Battalion/squadron equivalents will 
temporarily break 1:1 dwell ratio. If the plus-up extends to February 
2008, the number increases to 11 Infantry Battalions for a total of 23 
Battalion/squadron equivalents that will temporarily break the 1:1 
dwell ratio. We expect that their dwell would revert back to pre-surge 
levels after that rotation cycle.

    18. Senator Clinton. General Schoomaker and General Conway, what 
training and maintenance has been curtailed?
    General Schoomaker. In the Army Force Generation (ARFORGEN) model, 
when a unit returns from an operational deployment, it is stabilized to 
enable the unit to recover and conduct maintenance to begin training to 
focus on the unit's next mission. Under current circumstances, units 
returning from Iraq or Afghanistan are stabilized for roughly 120 days, 
which allows personnel to take 30 days of leave, equipment to be 
repaired, and soldiers to attend needed schools. When a unit is 
required to redeploy within a year, it is given highest priority for 
filling manning and equipment shortages and maintenance on all 
equipment as early as possible. Maximum use is made of available pre-
deployment training time and of the combat experience possessed by the 
soldiers and leaders in the unit who previously deployed to prepare the 
unit for its up-coming mission. Training for counterinsurgency 
operations is the focus of units, while training for conventional 
warfighting skills is curtailed. Through the monthly unit status 
report, the progressive increased readiness of a unit is closely 
monitored and, if needed, steps are taken to ensure that all units are 
fully trained prior to deployment.
    General Conway. Deploying Marine Corps units and personnel continue 
to train for OIF/OEF deployment as specified by our pre-deployment 
training program. Battalions moved forward in their rotational cycle 
are subject to the same pre-deployment training standards as their 
fellow marines. We have accelerated the normal cycle through our main 
mission rehearsal exercise, Mojave Viper, to accommodate consistent 
training for all units rotating into theater. Flexibility in scheduling 
of Service Block III and IV advanced collective training has allowed 
completion of all training requirements in support of early deploying 
units.
    Additionally, home station maintenance has not been curtailed due 
to the global war on terror or because of the 1:2 dwell time. The 
Marine Corps has emphasized the necessity to maintain home station 
equipment to ensure it is ready for unit training. As of 22 March 2007 
maintenance readiness is 95 percent.

    19. Senator Clinton. General Schoomaker and General Conway, which 
units that are deploying have had to cancel their Mission Rehearsal 
Exercises at national training centers and have been forced to conduct 
reduced home-station training without premier training resources our 
national training centers offer?
    General Schoomaker. Two of the five plus-up brigades (4/2 SBCT and 
2/3 HBCT) will conduct their MRE at home station in order to use the 
time that would have been required to transport personnel and equipment 
to a combat training center (CTC) at Fort Irwin or Fort Polk. Had more 
time been available, the units in question would have deployed and 
trained at a CTC. The decision to not execute the rotation at the CTC 
and conduct the training at home station is not taken lightly and is 
made by the senior leadership of the Army. Over the past 4 years, five 
BCTs (including the two most recent units) have conducted home station 
mission rehearsal exercise (MREs) to preserve time. About 20 days has 
been saved by these units. When a home station MRE is conducted, we 
bring the CTC to the home station, expert observer controllers, trained 
opposing forces, cultural and other role players and instrumentation to 
provide objective feedback to the unit are all moved to the home 
station. The tasks trained at home station MREs mirror those trained at 
the CTCs. By conducting a home station MRE, valuable time is given back 
to these units for training that would have been consumed loading, 
transporting, and unloading the equipment to a CTC.
    General Conway. No Marine Corps units have cancelled unit 
predeployment training at Service training venues nor have any units 
reduced home-station training in support of the OIF force surge. 
Battalions moved forward in their rotational cycle will be subject to 
the same predeployment training standards as their fellow marines. We 
have accelerated the normal cycle through our main mission rehearsal 
exercise, Mojave Viper, to accommodate consistent training for all 
units rotating into theater. The early deployment of specific units 
did, in isolated cases, require the compression of scheduled Block I 
and II home-station training in order to meet Block III and IV training 
prerequisites, the execution of Block III and IV training, unit 
predeployment leave, and deployment latest arrival dates.

    20. Senator Clinton. General Schoomaker and General Conway, are 
divorce and separation rates increasing in the Army and the Marine 
Corps as a result of repeated deployments without allowing for proper 
dwell times?
    General Schoomaker. It is reasonable to assume that the stress of 
frequent deployments and the dangers affiliated with war do contribute 
to marital discord and divorce. However, the data does not support that 
stress of deployments and reduction of dwell time are the primary 
reason for increases in divorces, nor does it indicate that there is a 
causal relationship between the two. A decision to end a marriage is 
generally multi-dimensional and one that is very individualized. 
Deployment separations often provide an opportunity for both husband 
and wife to re-evaluate their relationship; many times the decision to 
end a marriage is based on lack of commitment to the relationship. The 
United States is still actively involved in the war in Iraq, with a 
large of number of soldiers deployed in theater. The fiscal year 2006 
rate of divorce for officers is basically the same as it was in fiscal 
year 2002; and the rate of divorce for enlisted personnel in fiscal 
year 2006 is only slightly higher than fiscal year 2002.
    The large number of soldiers deployed to theater, as well as the 
repeated deployments, could contribute to the desire for soldiers to 
separate from service; however, the number of enlisted soldiers who 
completed their service obligation and then separated from the Army in 
fiscal year 2006 was not significantly different from the number who 
completed their obligation and separated from service in fiscal year 
2000 (pre-September 11). In fact, the number of soldiers who re-
enlisted in the Army in fiscal year 2005 and fiscal year 2006 was 
higher than it has been since the beginning of the Iraqi war.
    General Conway. The Marine Corps divorce rate has remained 
relatively consistent over the last 3 years. Of note, each year the 
divorce rate of marines deployed in OIF/OEF or elsewhere is lower than 
that of those marines who have not deployed. However, because divorce 
is a personal issue between the individuals involved and all pertinent 
details cannot be captured in a database, we cannot draw further 
conclusions about the divorce rate of deployed versus nondeployed 
service men and women.

    21. Senator Clinton. General Schoomaker and General Conway, one of 
the keys to developing soldiers and marines is ensuring that they have 
time for professional education where they can absorb their experiences 
and deepen their thinking. What professional education classes and 
courses have been canceled or rescheduled as a result of reducing dwell 
time?
    General Schoomaker. The Active Army has neither cancelled nor 
rescheduled any resident-based professional education courses due to 
reduced dwell time. Since 2001, the Army has energetically transformed 
its professional education for soldiers to meet the Nation's needs in 
combating terrorism on a worldwide front. It is extremely important to 
the Army to ensure that soldiers have time for professional education 
courses for the reasons you've stated and others. These courses provide 
soldiers opportunities to share their operational experience with peers 
and faculty and receive and assimilate instruction on rapidly 
developing warfighting doctrine and broaden their intellectual horizons 
in preparation of future leader roles and responsibilities. The Army 
continues to adjust to operational demands in Iraq and Afghanistan by 
exporting some of these courses to soldiers at their home station so 
they can go to school during the day and home to their families at 
night. In those cases where it is neither feasible nor beneficial to 
export a course, the Army compresses the course lengths and extends the 
training week. As a final initiative, the Army is reconfiguring its 
classroom instruction to a combination of resident and on-line 
instruction. This will result in the same level of education as 
previously provided, with the added benefit of keeping the soldier at 
home station longer.
    General Conway. Only one program, the CMC National Fellows Program, 
has been suspended. The CMC National Fellows program was an outreach 
program that consisted of 10 fellowships with corporate America. The 
National Fellows Program was suspended because the needs of the 
operating forces were greater than the outreach program. No other 
professional education classes or courses have been canceled or 
rescheduled as a result of decreasing dwell time.

                       MENTAL HEALTH ASSESSMENTS

    22. Senator Clinton. General Schoomaker and General Conway, section 
735 (Additional Elements of Assessment of Department of Defense Task 
Force on Mental Health Relating to Mental Health of Members Who Were 
Deployed in Operation Iraqi Freedom (OIF) and Operation Enduring 
Freedom (OEF)) to the National Defense Authorization Act for Fiscal 
Year 2007 directs that the DOD task force responsible for mental health 
assessments consider specific needs with respect to the mental health 
of deployed personnel. Specific task force requirements include: 
identifying conditions and disorders including PTSD, suicide attempts, 
and suicide; evaluation of the availability to members of assessments 
under the Mental Health Self-Assessment Program of the DOD; 
availability of programs and services under the Mental Health Self-
Assessment Program; and recommendations on mechanisms for improving the 
mental health services. Are you aware of the Mental Health Self-
Assessment Program?
    General Schoomaker. Yes, we are well aware of the Mental Health 
Assessment Program. Information about the Self Assessment Program has 
been widely disseminated, and is on the new Army Behavioral Health Web 
site at www.behavioralhealth.army.mil. We have a broad array of more 
sophisticated screening instruments, to include the Post Deployment 
Health Assessment and Post-Deployment Health Re-Assessment, which 
involve a face to face encounter with a primary care provider. If 
clinically appropriate, the soldier is referred to a behavioral health 
provider. The DD Form 2796, Post-Deployment Health Assessment, screens 
for PTSD, major depression, concerns about family issues, and concerns 
about drug and alcohol abuse. The primary care provider reviews the 
form, interviews the soldier as required, and refers the soldier to a 
behavioral health care provider as required. The primary care provider 
may make referrals to onsite counselors or to MTFs. The DD Form 2900, 
the PDHRA of global health has a specific emphasis on mental health. 
The PDHRA screening program is offered to Active component and Reserve 
component soldiers deployed to a combat zone (only) 90 to 180 days 
post-deployment. There have been over 140,000 screenings performed. If 
following the re-assessment there are identified health care needs, 
soldiers will be offered care through by military medical treatment 
facilities, by VA medical centers or veterans centers, by private 
health care providers through TRICARE or through community-based health 
care organizations established by the Army.
    General Conway. Yes, we are aware of the program and have 
participated in the task force.

    23. Senator Clinton. General Schoomaker and General Conway, what is 
the status of the required reports?
    General Schoomaker. The task force has met on a regular basis and 
has diligently conducted its assessment since the appointment of the 
members on May 15, 2006. The task force is currently discussing its 
findings and recommendations and will deliver its report to the 
Secretary of Defense on May 15, 2007.
    General Conway. We understand the task force is to submit the 
report to OSD Health Affairs in May 2007.

    24. Senator Clinton. General Schoomaker and General Conway, what 
are the initial overall assessments of the mental health of the forces?
    General Schoomaker. The overall mental health of the Armed Forces 
is good as assessed by the Army Mental Health Advisory Teams annually 
since 2003. The stresses of war have had an unavoidable impact on the 
mental health of our Armed Forces, and the Army takes significant 
measures to monitor the mental health of soldiers and to care for the 
mental health of all servicemembers and their families. The Army fully 
supports the efforts of the DOD Mental Health Task Force in making its 
assessment of mental health care provided by the DOD to members of the 
Armed Forces and their families.
    General Conway. The report will not be available until May 2007. As 
such, we have not had the opportunity to review the report assessments.

    25. Senator Clinton. General Schoomaker and General Conway, what is 
the Army and the Marine Corps doing to address mental health illnesses 
and disorders identified by these initial reports?
    General Schoomaker. The Army is committed to ensuring all soldiers 
receive the behavioral health care they need. An extensive array of 
mental health services has long been available. Since September 11, the 
Army has augmented behavioral health services and counseling. We 
anticipate a continued high demand for services and are committed to 
providing the necessary resources to respond. However, we do recognize 
that the behavioral health capacity is strained at many locations, 
including Alaska, Fort Hood, Fort Drum, and in several overseas 
locations. The Army recognizes the significant impact of war 
experiences on soldiers. A wide range of behavioral health services is 
available in the Army, including screening for PTSD and appropriate 
referrals for care. Historically and today, the most common and 
predictable mental health problem as a result of exposure to war and 
terrorism is PTSD. Unsurprisingly, as the global war on terrorism has 
continued, the number of cases of post-traumatic stress disorder has 
increased. PTSD is one of a range of deployment related psychological 
effects of war. Most combat veterans will have some of the symptoms of 
PTSD for weeks to months after their return, and perhaps fleetingly for 
the rest of their lives. Deployment also causes stress on marriages, 
Families and other relationships. Army programs are designed to build 
mental resiliency and toughness for soldiers and their Families. 
Positive post-deployment contact with all soldiers, regardless of 
symptoms, is needed to support their ability to continue the global war 
on terrorism mission. Pro-active family support is integral to the 
success of soldier-directed behavioral health interventions as well. 
Some of the efforts follow. There is a robust combat and operational 
stress control presence in theater, with over 200 deployed behavioral 
health providers to Iraq alone. Mental health advisory team reports 
have demonstrated the success of these efforts. A new program, Re-
engineering Systems of the Primary Care Treatment (of depression and 
PTSD) in the Military (RESPECT-MIL) is a new program designed to 
decrease stigma and improve access to care by providing behavioral 
health care in primary care settings. The pilot test at Fort Bragg was 
successful and the RESPECT-MIL program is now being implemented in 15 
other Army locations. Numerous Battlemind products are in the process 
of development and/or have been implemented. These are training 
products designed to enhance recovery and resiliency. The Post-
Deployment and Spouses Battlemind are available at www.battlemind.org.
    General Conway. We have not yet seen the report, but we are working 
on preventing, identifying, and advocating for the treatment of mental 
illnesses and disorders in general, and especially those related to 
deployment. Among many other initiatives, a brief listing of notable 
Marine Corps actions follows.
    The OSCAR Program: In 2004, the Marine Corps piloted the OSCAR 
Program, which embeds mental health assets in the active Marine 
Divisions throughout the deployment cycle, to improve access and 
continuity of care, and to improve trust and utilization of mental 
health services.
    COSC Training and Monitoring: We require all commanders to 
implement standardized COSC training and monitoring in their units to 
ensure individual marines and their families receive necessary 
evaluation and treatment for deployment-related mental health issues 
and do not fall through the cracks. The Marine Operational Stress 
Surveillance and Training Program specifies the required briefs, 
screenings, and reporting required for all marines deployed for 90 days 
or more.
    The Leaders Guide For Managing Marines in Distress: We developed 
the Marine Corps Leaders Guide for Managing Marines in Distress, a 
quick reference for leaders of marines at all levels which addresses 
high-risk, time-intensive issues affecting marines and their families 
(such as deployment-related stress, grief and loss, suicidal behavior, 
relationship problems, and legal and financial problems).

   PILOT PROJECTS ON EARLY DIAGNOSIS AND TREATMENT OF POST-TRAUMATIC 
                            STRESS DISORDER

    26. Senator Clinton. General Schoomaker and General Conway, section 
741 (Pilot Projects on Early Diagnosis and Treatment of PTSD and Other 
Mental Health Conditions) of the National Defense Authorization Act for 
Fiscal Year 2007 directs that the DOD carry out not less than three 
pilot projects to evaluate the various approaches to improving the 
capability of the military and civilian health care systems to provide 
early diagnosis and treatment of PTSD and other mental health 
conditions. Any pilot project carried out under this section would 
begin no later than October 1, 2007, and cease on September 30, 2008. 
Pilot projects will: evaluate effective diagnostic and treatment 
approaches for use by primary care; focus on members of the National 
Guard or Reserves who are located more than 40 miles from a military 
medical facility and who are served primarily by civilian community 
health resources; and provide outreach to the family members on PTSD 
and other mental health conditions. Are you aware of these pilot 
programs?
    General Schoomaker. Yes. The Army Medical Department is developing 
several pilot projects for consideration by the Office of the Assistant 
Secretary of Defense for Health Affairs.
    General Conway. We are aware of and participating in the Combat 
Stress Intervention Program project, which is a collaboration between 
the Walter Reed Army Institute of Research, Washington and Jefferson 
College, Conemaugh Health System, and others.

    27. Senator Clinton. General Schoomaker and General Conway, has the 
DOD identified the Army or the Marine Corps to participate in these 
pilot programs?
    General Schoomaker. Yes, the Army will be participating in a study 
led by Colonel Michael J. Roy, U.S. Army Medical Corps, looking at the 
use of virtual reality therapy and imaging in combat veterans with 
blast injury experiencing PTSD. This study will include patients with 
PTSD and traumatic brain injuries (TBI), to understand better the 
possible interaction of these two conditions. This is the first in a 
series of planned studies to improve the understanding of the impact of 
physical and psychological traumas in a combat environment, to examine 
the neurologic effects of consequent sequelae including blast injuries 
and posttraumatic stress disorder, and to identify the most effective 
therapies available for PTSD. Functional Magnetic Resonance Imaging and 
psychophysiologic indices will be used to differentiate subtle 
neurologic differences between groups of combat veterans. The efficacy 
of Virtual Reality Exposure Therapy will also be assessed.
    General Conway. We are participating in the project cited above in 
question 26.

    28. Senator Clinton. General Schoomaker and General Conway, if you 
could design a pilot program, what areas would you focus on?
    General Schoomaker. The effectiveness of early diagnosis and 
treatment, while intuitively attractive, is not yet known. We would 
like to better assess which early interventions are most effective. 
There is a wide array of settings in which to do this, including with 
combat stress control teams, in primary care, behavioral health care, 
and with injured soldiers. Of critical importance, is to mitigate the 
interaction between psychological issues and mild TBI.
    General Conway. We would focus on several areas, including:

         A prospective, longitudinal study evaluating biological, 
        psychological, and social factors that predict resiliency to 
        combat/operational stress in warfighters. Identifying the 
        resiliency factors that can be promoted in warfighters before, 
        during, and after deployment is one of our greatest and most 
        important challenges. The Marine Corps is collaborating with 
        the VA and several universities to conduct such a study with 
        Marine ground combatants.
         A large-scale epidemiological study of the prevalence of the 
        entire spectrum of deployment-related mental disorders and 
        stress problems in the entire range of personnel exposed to 
        combat/operational stress, including ground combatants, 
        aviation personnel, combat service support personnel, medical 
        personnel, chaplains, and Reserve component personnel of all 
        types. Existing epidemiological research, mostly conducted by 
        Walter Reed Army Institute of Research, did not include all 
        Services and all operational communities. Therefore, existing 
        estimates of the prevalence of PTSD, depression, anxiety, 
        substance use disorders, violence, and other stress problems 
        are of questionable generalizability across Services and 
        communities. The Marine Corps and its partners in Navy medicine 
        have undertaken epidemiological research in Active component 
        marines and sailors who have deployed with Marine units.

    29. Senator Clinton. General Schoomaker and General Conway, what 
feedback from families and returning National Guard and Reserve members 
are you receiving on the availability of mental health treatments and 
resources?
    General Schoomaker. There has been much concern about the mental 
health needs of National Guard and Reserve soldiers and their Families. 
In many cases, they are in remote, rural locations with few mental 
health assets. These locations are underserved by mental health 
providers in general, and often a real paucity of TRICARE providers. 
There have been already interventions targeted towards this population, 
such as Military OneSource and the PDHRA. The VA has been very active 
in supporting the PDHRA. The States are providing services to their 
National Guard elements, to include mental health services. Many of the 
States have very proactive re-integration programs. For example, 
Minnesota has a very innovative program, which include reunions, 
education, and training at 30, 60, and 90 days. This strategy is 
proffered as a best practice guideline for the other states. However 
there is not a centralized ability to mandate any specific practices.
    General Conway. Anecdotally, we are hearing some reports that there 
are problems with availability, particularly for child/adolescent 
psychiatric care and for reservists in remote areas, but we have not 
seen data to confirm this. Although there may be some difficulty with 
availability of services at MTFs and through TRICARE, our Marine and 
Family Services Counseling Centers have access to additional surge 
capacity available through a contract with the Military Family Life 
Consultant, Mental Health Network. This capacity has yet to be fully 
utilized. There are also services readily available in most locations 
through the Military OneSource face-to-face counseling benefit 
available for family members, which have also been under utilized. In 
both cases, the under utilization appears to be due to preference to 
use MCCS providers rather than contractors, who are perceived to be 
less familiar with military issues than our own providers. The Marine 
Corps is currently collaborating with the National Child Traumatic 
Stress Network and several universities to implement research to 
determine how current military operations are affecting Marine Corps 
families, and how well current mental health support services are 
meeting their needs.

  TRAINING CURRICULA FOR FAMILY CAREGIVERS ON CARE AND ASSISTANCE FOR 
                         TRAUMATIC BRAIN INJURY

    30. Senator Clinton. General Schoomaker and General Conway, section 
744 (Training Curricula for Family Caregivers on Care and Assistance 
for Members and Former Members of the Armed Forces with TBI) to the 
National Defense Authorization Act for Fiscal Year 2007 directed that 
the DOD establish a panel, to be known as the `Traumatic Brain Injury 
Family Caregiver Panel', to develop coordinated, uniform, and 
consistent training curricula to be used in training family members in 
the provision of care and assistance to members and former members of 
the Armed Forces with traumatic brain injuries. Are you aware of this 
panel?
    General Schoomaker. Yes. The Defense and Veterans Brain Injury 
Center offered their resources and existing programs in this area to 
U.S. Army Medical Research & Materiel Command and the Office of the 
Assistant Secretary of Defense for Health Affairs.
    General Conway. Yes. This panel is in development through the 
DVBIC.

    31. Senator Clinton. General Schoomaker and General Conway, has the 
DOD identified the Army or the Marine Corps to participate in these 
panels?
    General Schoomaker. To date, the Army is not aware of any decisions 
on this program and they have not been asked to contribute further.
    General Conway. I anticipate representatives from all services will 
be invited to participate in this panel. I know that Headquarters, 
Marine Corps, Health Services (HQMC-HS) has received an invitation.

    32. Senator Clinton. General Schoomaker and General Conway, is 
there any specific feedback provided to you during your visits with 
soldiers and marines and their families on resources they are lacking 
when providing TBI treatment?
    General Schoomaker. We hear from families that they need assistance 
for after their family member goes home from hospital. Even those 
soldiers who are able to remain at duty and who perform well in a 
structured environment at work may have more difficulties at home when 
they then experience fatigue and irritability and more difficulty in 
the less structured environment, including parenting. Because of the 
established stigma to receiving care, and because of available 
resources, it can be difficult to get soldiers the medical care they 
very much need.
    General Conway. Overall the feedback I have received is positive. 
There seems to be some variability in services depending on their 
location in the country. Marines living near Military Treatment 
Facilities or in large population centers have many resources available 
for treatment. For example, marines living in or near Camp Pendleton in 
southern California receive treatment from the local Naval Hospital, 
from the Naval Medical Center, San Diego, from the local VA and the 
poly-trauma center in Palo Alto, as well as several civilian 
institutions such as Scripps institute and Sharp rehabilitation center. 
Those living in more isolated areas have fewer resources available 
locally and may need help with transportation or finding creative 
solutions to their difficulties. There is a servicemember in Idaho who 
is 6 hours from their VA center in Denver. The VA has arranged for 
regular VTC follow up visits to minimize the need to make the long 
trip.

       POST-TRAUMATIC STRESS DISORDER AND TRAUMATIC BRAIN INJURY

    33. Senator Clinton. General Schoomaker and General Conway, 
according to a January 2007 report from Harvard University, TBI and 
PTSD are two of the common ``signature wounds'' sustained by Iraq and 
Afghan war veterans. We also know that both conditions require prompt 
identification and treatment. Unfortunately, distinguishing mild TBI 
from PTSD can be difficult since they have common symptoms--such as 
irritability, anxiety, and depression. However, knowledge of a 
soldier's or a marine's normal memory and cognitive skills prior to 
deployment could potentially improve post-deployment detection of mild 
TBI. Could you please discuss what predeployment tests are done on a 
soldier's or a marine's memory and cognition?
    General Schoomaker. There are certainly overlapping symptoms of 
PTSD and mild TBI. We are attempting to train our health care providers 
on both those topics. There are numerous updates in screening, 
education and treatment of TBI. The Army sent a message to all units in 
Iraq and Afghanistan last summer regarding screening and treatment of 
TBI in the theater of operations. The Defense and Veterans Brain Injury 
Center developed new guidelines for the screening and treatment of mild 
TBI in November 2006. These guidelines have been disseminated to 
medical and behavioral health providers. During pre-deployment 
screening, all soldiers fill out a pre-deployment screen, which is 
reviewed by a primary care provider. In that screen, there is not a 
detailed pen and paper test for memory and cognition. However, if the 
soldier reports any problems, they will be further evaluated.
    Although PTSD and TBI have overlapping symptoms, they are different 
conditions with different mechanisms and clinical presentations. Early 
identification is critical and is being taught to military providers. 
Specifically, TBI results from mechanical forces to the head and a 
disruption in mental functioning. Thus, a soldier who is physically 
injured may have a brief period of being dazed or confused, and then 
experience headache, nausea, and vomiting thereafter, can be evaluated 
and identified as TBI. That same individual may later experience 
nightmares and flashbacks for the situation, which are not 
characteristic of TBI, but are characteristic of PTSD. That soldier may 
also be evaluated and identified as PTSD.
    General Conway. There is currently no pre-deployment testing of a 
marine's memory or cognition for several reasons. There are no 
evidenced based studies to show that pre-testing in this population 
will aid in diagnosis and treatment either in the field or after return 
home. There is also no scientifically validated test available at this 
time for this population. Several existing tests are being evaluated 
and there is a study in progress to establish normal baselines for 
marines. Without established norms and validated testing tools, there 
is no meaningful way to either apply pre-deployment results to post-
deployment changes or specifically attribute those changes to TBI. This 
baseline study is the first step in evaluating any benefit in pre-
testing marines.
    Even when a validated test is available and norms established, 
testing every marine will be an enormous challenge involving a 
significant cost and time commitment. Additional research questions 
that need to be answered include treatment recommendations for recruits 
who are below established norms on accession and for marines who are 
below norms on pre-deployment testing but have no history of exposure 
to blast or injury.

    34. Senator Clinton. General Schoomaker and General Conway, what 
pre-deployment screening or tests are available for soldiers and 
marines with recent deployment and combat experience who are returning 
to combat, especially since some symptoms have not emerged during their 
dwell time and could potentially be triggered while experiencing combat 
for a second, third, or fourth time?
    General Schoomaker. All soldiers fill out a pre-deployment screen, 
which is reviewed by a primary care provider. In that screen, there is 
not a detailed pen and paper test for memory and cognition. However, if 
the soldier reports any problems, they will be further evaluated. It is 
certainly likely that soldiers may experience triggers of their PTSD 
symptoms. The Defense and Veterans Brain Injury Center created a 
screening tool called the MACE using validated examinations from the 
Standardized Assessment of Concussion (SAC), to evaluate a person in 
whom a concussion is suspected. The MACE is currently being used by 
medics in theatre to confirm diagnosis and assess current clinical 
status. This information would be available to providers reviewing a 
pre-deployment assessment for a subsequent deployment; specific 
inquiries regarding prior symptoms would ensure that the soldier has 
recovered in the interim. Since the beginning of the war, the Army has 
had over 200 behavioral health providers in Iraq, including combat 
stress control teams and others, to help deal with PTSD, TBI, and other 
behavioral health issues. We have also revised and expanded the Army's 
Combat and Operational Stress Control course for behavioral health care 
providers. This redesigned course focuses more classroom time on 
managing soldiers who may have suffered PTSD during previous 
deployments.
    General Conway. Marines are subject to a PDHA upon return and a 
PDHRA 90-120 days after returning from deployment. If these screens 
fail to identify a medical problem, then the predeployment health 
assessment should identify any medical problems which may impact their 
impending deployment. If a medical condition surfaces during 
deployment, they will receive appropriate evaluation and treatment, and 
possibly medical evacuation if warranted.

                     RESERVIST DEPLOYMENT POLICIES

    35. Senator Clinton. General Schoomaker, in your prepared statement 
you stress the importance of recent changes in reservist deployment 
policies and how this will allow the Army to rebalance the force and 
create more predictability for soldiers and families. Reserve 
deployments were managed on an individual basis. Now, deployments will 
be managed on a unit basis. The changed policy also addresses the 18-
month maximum mobilization time for members of the Reserve Forces, and 
reduces the maximum mobilization timeframe to 1 year. Involuntary 
mobilization of Guard/Reserve units will remain a 1-year mobilized to 
5-year demobilized ratio. However, a requirement exists where certain 
selected Guard/Reserve units will be remobilized sooner than the 
current policy goal. How are these new policies and requirements being 
managed within the Army?
    General Schoomaker. The Army is currently mobilizing Reserve 
component units in accordance with the mobilization policy set forth in 
the Secretary of Defense's Memorandum of January 19, 2007, 
``Utilization of the Total Force.'' The Army is adjusting planned 
rotations in order to comply with the new policy. The Army is shifting 
training, which has traditionally been conducted during post-
mobilization, to the pre-mobilization period in order to maximize 
units' operational employment time in theater. This will help to ensure 
unit stabilization in predictable cycles so that we may continue to 
mobilize, train, and equip Reserve component soldiers and units to meet 
the needs of the combatant commander.

    36. Senator Clinton. General Schoomaker and General Conway, how 
much sooner than the current policy goal will selected Guard/Reserve 
units be remobilized?
    General Schoomaker. Operational demands will determine what 
capabilities will be required and how often units will need to 
mobilize. Once a capability is determined mission essential by the 
combatant commander in theater, the Army will identify the specific 
unit to fill the requirement based on the unit's capability, current 
readiness levels, previous mobilization(s), and dwell time. It is 
important to note that the 1:5 (1 year mobilized to 5 years at home) 
ratio is a planning objective under the new policy and the Secretary of 
Defense acknowledges that operational requirements will drive the 
frequency of mobilizations for units.
    General Conway. The Marine Corps is using a Force Generation Model 
for its Reserve component based on 1 year activation to 4 years of 
dwell. This model, approved prior to publication of the current policy 
goal of 1 year activation to 5 years dwell, provides the necessary 
predictability for our force planners, the Reserve marine, his family 
and his employer. Deployment assignments within the model are based on 
unit combat readiness as well as dwell time considerations. Most Marine 
Reserve units will have greater than 4 years dwell with four of our 
infantry battalions meeting or exceeding the current policy goal.
    As the Marine Corps Active component end strength increases to 
202,000 and the 1:2 dwell is achieved, we expect the Reserve component 
to be able to restructure the Force Generation Model to more closely 
reflect the current policy goal of 1 year activation to 5 years dwell.

    37. Senator Clinton. General Schoomaker and General Conway, will 
these units be filled by individuals placed into ad-hoc units and 
organizations, and if they are, doesn't that violate the spirit of the 
new policy and prolong the period before you will be able to reset the 
Reserve and National Guard Forces?
    General Schoomaker. A minimum number of Army National Guard (ARNG) 
soldiers will be cross leveled to fill mobilizing units through out a 
transitional period immediately following the implementation of new 
mobilization policy. These mobilizing units will not be ad-hoc but 
rather existing units which will have a limited number of individuals 
assigned to bring them up to their required end strength to deploy. 
Every effort is made to ensure that the impact to National Guard units 
that are not deploying, soldiers, and their Families are minimized. 
Additionally, proposed compensation in the form of transferable 
education benefits to Family members, medical and dental coverage, and 
long term civilian schooling options, coupled with other creative 
compensation for soldiers who have their dwell break interrupted, will 
help minimize losses and the need for cross leveling thus improving 
reset and ARNG readiness.
    It may in fact take longer to reset the ARNG. However, with the new 
mobilization policy, the requested authority provided for the ARNG to 
craft new stabilization policy beginning at alert (up to 12 months 
prior to mobilization, coupled with minimal cross leveling at the time 
of sourcing (year three of the ARFORGEN cycle), the ARNG can replace 
soldiers prior to platoon/company collective training. All of which 
further supports mobilization as a well trained, fully synchronized 
unit.
    The ARNG recognizes the potential for this to prolong the reset 
period and continues to modify its plan in reaching the steady state of 
the ARFORGEN cycle at the earliest possible date, while continuing to 
support the Army's needs for the global war on terror.
    General Conway. Marine Reserve units will be employed as either 
whole units or as detachments based on the force requirements. Due to 
past policies, a requirement for some cross-leveling remains necessary 
initially; however, we believe implementation of the Force Generation 
Model will minimize and eventually eliminate the need for cross-
leveling to form whole units. We believe we are acting within the 
spirit and the intent of the new policies and we will be able to reset 
the force sooner rather than later.

           SPECIAL WORKING GROUP ON NATIONAL GUARD TRANSITION

    38. Senator Clinton. General Schoomaker and General Conway, section 
676 (Special Working Group on Transition to Civilian Employment of 
National Guard and Reserve Members Returning from Deployment in OIF or 
OEF) to the National Defense Authorization Act for Fiscal Year 2007 
directs that the DOD establish a working group to identify and assess 
the needs of members of the National Guard and Reserve returning from 
deployment in OIF or OEF in making the transition to civilian 
employment on their return from such deployment. Are you aware of this 
working group?
    General Schoomaker. The OSD for Reserve Affairs has the lead on 
this issue. We understand they will collaborate with the Department of 
Veteran Affairs and the Department of Labor to identify and assess the 
needs of members of the National Guard and Reserve returning from 
deployment in OIF/OEF and assist in the transition to civilian 
employment. The National Guard Bureau created a working group, within 
the Army, to examine these issues. They produced a proposal for 
improving Reserve component reintegration which is currently being 
staffed within the Department of the Army.
    General Conway. Yes, I am aware of the working group. My staff 
(M&RA) has been in contact with the Office of the Assistant Secretary 
of Defense for Reserve Affairs (OASD/RA) Action Officer responsible for 
coordinating the convening of the working group. It is our 
understanding the working group will be an interagency group comprised 
of members of the DOD, Department of Veterans Affairs, and the 
Department of Labor. It is also our understanding the working group is 
scheduled to convene in mid April 2007.

    39. Senator Clinton. General Schoomaker and General Conway, what 
challenges are you aware of that national guardsmen and reservists are 
facing when they transition to civilian employment?
    General Schoomaker. Reserve component soldiers face a variety of 
challenges when transitioning from active status back to their civilian 
employment. Medical practitioners have great challenges in getting 
their patients back. During the soldiers' absence their patients went 
to other medical providers to get the care they needed.
    Self-employed or small business owners face unique problems after 
being away from that business for any period of time. Reestablishing 
the business can be challenging, costly and time consuming. In 
addition, numerous soldiers work for small businesses. Some of those 
businesses are not familiar with the Uniformed Services Employment and 
Reemployment Rights Act of 1994 reemployment provisions. The State 
committees for Employer Support of the Guard and Reserve (ESGR) can 
provide assistance to resolve those problems once a business is aware 
of their obligations.
    Soldiers who are students have a difficult time resuming their 
studies where they left off. Soldiers who depart in mid-semester have 
both an academic problem and financial problem. Fortunately, most 
university and colleges are very understanding and make consideration 
for deploying soldiers.
    General Conway. Fortunately, we have seen very few cases where 
returning Reserve marines have problems with their employer. We 
currently have an excellent working relationship with the office of the 
ESGR and incorporate their products and message into our preactivation/
predeployment preparation in order to educate our marines, their 
commanders, and their employers on everyone's responsibilities to each 
other. Two-way communication between the marine and their employer is 
essential to success. One of the challenges we have been addressing 
within the Marine Corps is to provide our marines, their families, and 
their employers with greater clarity on what is expected of the marine. 
For example, when will the marine deploy?; how long will he/she be 
gone?; what benefits does the marine expect the employer to cover while 
activated? The Secretary of Defense's recent adjustment of the 
Department's activation policy is a step in the right direction to 
better assist us in managing the expectation of not only our individual 
marines, but also their families and their employers.

          Note: The Marine Corps does not maintain any statistics on 
        conflicts between Reserve marines and their employers; however, 
        OASD/RA provided the following statistics from the latest 
        Status of Forces survey (May 2006) where the results indicate 
        that 79 percent of OIF/OEF activated servicemembers return to 
        work for the same employer while 19 percent go to work for a 
        different employer. Of those returning to the same employer, 17 
        percent reported that their employer reintegration experience 
        was worse than they expected.

    40. Senator Clinton. General Schoomaker and General Conway, if the 
working group recommendations are not timely, what suggestions or 
policies have you implemented to ease transition?
    General Schoomaker. There are several programs in place that 
provide a great service to our soldiers. The Army Career and Alumni 
Program (ACAP) is a big success for soldiers transitioning from 
military life. This program provides many services to include 
assistance with writing a resume and finding a job, providing points of 
contact for service providers, advice on benefits for education and 
training, briefings on the Soldiers and Sailors Relief Act, briefings 
on veteran's benefits, finances and assisting soldiers in setting up 
individual transition plans. The Army seeks to ensure every 
demobilizing soldier with more than 180 days of active duty is given 
the opportunity to utilize ACAP.
    All Reserve component soldiers are eligible for follow-up services 
with ACAP for an additional 180 days after demobilization because the 
Army recognizes that many Reserve component soldiers have limited time 
during the demobilization process. The National Guard Bureau has 
created a working group to examine this issue. The working group 
produced a proposal for improving Reserve component reintegration which 
is currently being staffed within the Department of the Army.
    Additionally, the ESGR is a great resource for soldiers 
experiencing reemployment difficulty. Through information services and 
informal mediation, the ESGR will assist in preventing, resolving, or 
reducing employer and/or employee problems and misunderstandings that 
result from National Guard or Reserve membership, training, or duty 
requirements. ESGR has a national network of over 900 volunteer 
ombudsmen who help resolve issues between employers and their employees 
who serve in the National Guard and Reserve. Every demobilizing soldier 
is briefed on the services ESGR offers.
    General Conway. Communication between the marine and his employer 
remains probably the single most important thing we can do to ensure 
everyone's expectations are managed. Within the Marine Corps I have 
recently approved the Long War Force Generation Model (LWFGM) outlining 
Reserve unit activation requirements in support of Operation Iraqi 
Freedom for the Marine Corps through 2011. Through the LWFGM we are 
better able to provide our marines, their families, and their employers 
with a greater level of predictability to assist in managing their 
respective lives and businesses. This in turn should translate to 
better expectation management on the part of the marine and their 
employer upon the marines reintegration back into their civilian life.
                                 ______
                                 
               Questions Submitted by Senator John McCain

     READINESS FOR HOMELAND DEFENSE AND DOMESTIC NATIONAL DISASTERS

    41. Senator McCain. General Schoomaker, the Army has played a 
critical role historically in ensuring the Nation's security at home 
and can expect to play an even greater role in the future to counter 
terrorist attacks and respond to other domestic emergencies. While the 
Department of Homeland Security has the lead responsibility for 
homeland security, recent disasters, such as hurricane Katrina, suggest 
that the DOD--and the Army and National Guard in particular--must be 
prepared to make up for any deficiencies. How do you see the war in 
Iraq and operations in Afghanistan impacting the readiness of Army and 
National Guard Forces that may be called upon to respond to an attack 
or other incident or disaster in the United States?
    General Schoomaker. The Army's capability to provide trained and 
ready forces to NORTHCOM or in the case of States, the capability of 
the National Guard to respond to the requirements of the Governors, is 
a by-product of the capability to accomplish wartime missions that our 
forces are organized and designed to perform. Army forces deploying 
into combat continue to be the best led and are manned, trained and 
equipped for the missions they are assigned. The pace of current 
operations and our commitment to fully manning, training, and equipping 
our deploying forces for their assigned missions leaves holes in the 
readiness of our next to deploy units. However, as the magnitude of the 
response to Hurricane Katrina indicates--despite holes in the force 
readiness--there is still considerable residual capability in all 
components of the Army, to include the ARNG, to respond in the event of 
catastrophic incident or attack.

    42. Senator McCain. General Schoomaker, currently, most forces 
assigned to homeland defense and civil support missions also have a 
warfighting role which could detract from their availability and 
readiness to perform the homeland defense mission. What are the pros 
and cons of establishing units dedicated to the homeland defense 
mission?
    General Schoomaker. It is true that most of the forces with 
assigned homeland defense mission also have warfighting roles. The Army 
established the following units with dedicated homeland defense 
missions:

          a. Weapons of Mass Destruction (WMD) Civil Support Teams 
        (CST). The Secretary of the Army has certified 49 WMD-CST in 
        the National Guard. Each CST has 22 highly trained Air and Army 
        Guard soldiers on-call 365 days per year ready to respond 
        within 6 hours from notification. The CST program quickly 
        established itself as a highly reliable and credible homeland 
        defense capability. Since their creation, these units have been 
        called to duty more than 2,000 times to respond to suspected 
        chemical, biological, radiological, nuclear, and high yield 
        explosive (CBRNE) incidents in support of local first 
        responders at airports, schools, and other public facilities 
        across the Nation. As the first military unit on the ground, 
        CSTs provide strategic reconnaissance and situational awareness 
        from the incident site through the State to the National 
        Command Authority.
          b. CBRNE Enhanced Response Force Package (CERFP). The Army 
        established 12 CERFP teams that provide decontamination, 
        medical support, and search and rescue capabilities. The CERFPs 
        are regionally aligned with the 10 FEMA regions, the National 
        Capital Region, and the west coast/Pacific region. Units and 
        troops assigned to the CERFP train and remain dedicated to the 
        mission for 1 to 2 years between their combat rotations and can 
        be on-scene within 24 hours due to their regional distribution. 
        CERFPs are not dedicated to the homeland defense mission; they 
        are dual missioned forces that have both their normal 
        warfighting role and an additional CONUS CBRNE consequence 
        management role.
          c. National Capital Region Integrated Air Defense System (NCR 
        IADS). The NCR IADS has provided a rotational National Guard 
        Air Defense Battalion in the NCR since 2001. This force is 
        linked directly with the North American Aerospace Defense 
        Command to provide continuous protection from air attacks in 
        the NCR.

    The pros of dedicating units are:

          a. Assigning forces to a solely Homeland Defense (HD)/Defense 
        Support of Civil Authorities (DSCA) mission would make it 
        possible to man and equip them for these tasks. In turn, their 
        war-related equipment, not needed for HD/DSCA could be 
        transferred to deploying units.
          b. These units would also be able to focus on training for 
        the Command and Control (C2) of a HD/DSCA mission. As it 
        currently stands, forces are hard pressed to train for the 
        unique C2 requirements of this joint, interagency mission.
          c. Dedicated forces would allow for habitual training 
        relationships with their supported command and among each 
        other.
          d. Cross-fertilization of skills and equipment needed for the 
        overseas mission and the homeland defense mission has resulted 
        in increased capabilities in our Army. As an example, the 
        HAZMAT equipment set originally designed for Army Reserve 
        Chemical Units in a Homeland Defense mission provided the basis 
        of the equipment set issued to our forces overseas to detect 
        Toxic Industrial Chemicals and Materials.

    However, the cons to dedicating units are:

          a. Pulling units out of the service force generating rotation 
        schedule increases stress on the remainder of the force, which 
        segregates units into different mission sets reduces the Army's 
        strategic depth and flexibility.
          b. Transferring combat equipment out of these dedicated units 
        creates non-deployable units. Such dedicated forces, not 
        capable of deployment, may be better placed in the Department 
        of Homeland Defense.
          c. Homeland Defense tasks for units are near identical to 
        warfight tasks, i.e. medical, transportation, engineer, CBRN 
        defense, military police, medical evacuation, maintenance, 
        security forces, supply, communications, personnel, etc.
          d. The number of dedicated units will be limited, and at 
        times, sourcing may not be in the proximity of the mission 
        area. The Federal response may be faster using non-dedicated 
        State and Federal forces which are broadly distributed in 
        CONUS. This is a key principle of the current National Guard 
        support to State efforts that has proven highly successful and 
        will leverage the geographic dispersion of capabilities.

    43. Senator McCain. General Schoomaker, how is the Army ensuring 
that its chemical units that are tasked to respond to a domestic CBRNE 
attack are at a high level of readiness, given their dual-tasking to 
both overseas and homeland defense missions?
    General Schoomaker. The U.S. Army Chemical Corps is undergoing 
transformation. General purpose chemical units are being given some of 
the capabilities currently resident only in specialized chemical units. 
For example, the Hazard Response Decontamination (HRD) platoons will 
enable our general purpose chemical units to assess (identify and 
detect) hazards, thereby reducing the mission requirements of 
specialized chemical units. Through the HRD platoon concept, we will 
enable our general purpose units to detect more agents for those non-
traditional hazards they might encounter on overseas and HLD missions 
and to support personnel or mass casualty decontamination operations. 
Equipping changes will provide hazard response equipment to the 
platoons in addition to their traditional CBRNE equipment.
    The Army's Chemical Corps transformation expands the chemical 
units' capability to prevent and mitigate the effects of CBRN agents 
through enhanced early warning, disposal, detection, identification, 
and decontamination capabilities.
    These capabilities have been achieved through the following:

         Creating dismounted CBRN reconnaissance in Infantry brigade 
        combat team (IBCT) CBRN reconnaissance platoons,
         Increasing Special Forces recon detachments to 14 soldiers,
         Activating 110th Chemical Battalion (tech escort),
         Activating 48th Chemical Brigade (initial operating 
        capability October 1, 2007), and
         Improving flexibility and capabilities of tech escort 
        battalions.

    In addition, the Army began its first armored CBRN reconnaissance 
modernization since Desert Storm by fielding the Stryker Nuclear, 
Biological, and Chemical Reconnaissance Vehicle (NBCRV) in 2006. 
Combined, the DOD Chem-Bio Defense Program and the Army have programmed 
over $1 billion in funding to procure 190 of these systems across the 
Future Years Defense Plan. These systems will bring Army CBRN 
reconnaissance units to their highest readiness levels in 20 years. 
However, meeting the Army requirement will require additional 
procurement of 86 vehicles.
    The Army is also achieving transformation results through actions 
taken based on the outcomes of the Quadrennial Defense Review. A WMD 
Elimination capability will become fully operational by fiscal year 
2009 in the 20th Support Command (SUPCOM). This new capability will 
expand the 20th SUPCOM's current capability to support worldwide CBRNE 
operations in support of combatant commanders and other Federal 
agencies. By fiscal year 2009, the unit will have the capability to 
command and control assigned CBRNE forces, conduct CBRNE technical 
advice and assistance, maintain technical reach back to national 
laboratories, and provide training, readiness, and oversight of 
specialized CBRNE force capabilities.
    Additionally, 12 ARNG chemical units will be integrated into a 
CBRNE Enhanced Response Force Package (CERFP) to provide state 
governors, and or the Federal Government, a task-organized Army 
response force providing casualty extraction, mass decontamination and 
medical treatment capabilities.
    Since 1999, the U.S. Army Reserve Chemical Decontamination and 
Reconnaissance platoons have trained on those tasks needed to respond 
to CBRN-CM incidents in the United States. This has included training 
HAZMAT qualified reconnaissance soldiers to work with our Nation's 
first responders and training selected soldiers on mass casualty 
decontamination procedures. These HAZMAT skills have been put to use in 
Iraq.

              CHEMICAL BIOLOGICAL INCIDENT RESPONSE FORCE

    44. Senator McCain. General Conway, the 500-man Marine Corps 
Chemical Biological Incident Response Force (CBIRF) is one of the U.S. 
military's premier capabilities for assisting local, State, or Federal 
agencies and designated combatant commanders in the conduct of 
consequence management in the event of a chemical, biological, or 
nuclear terrorist attack. Does the Marine Corps plan to expand this 
important capability? If not, why not?
    General Conway. The Marine Corps developed CBIRF as an interim 
solution to an interagency capabilities gap until an enduring 
interagency capability could be developed. Examples of capabilities 
that have since been developed, or are in the process of being 
developed, include the U.S. Public Health Service National Medical 
Response Teams' Weapons of Mass Destruction and the National Guard 
CBRNE Enhanced Response Force Packages that can respond under the 
authority of the Governors before Federal forces respond. It is 
important to remember that in accordance with the National Response 
Plan, local and State first responders will respond before Federal 
agencies. DOD will respond at the direction of the President, or 
Secretary of Secretary of Defense, as part of the overall Federal 
response in support of the State and local first responders.
    CBIRF is an interim solution to a gap in the Nation's capability to 
respond to chemical or biological incidents. It is not intended to be a 
long-term, permanent solution in Marine Corps capabilities. 
Consequently, there is no plan to substantially expand current 
capability. Any planned enhancement of CBIRF, however, would be in 
support of the Marine Corps title 10 responsibilities, roles, and 
missions.

    45. Senator McCain. General Conway, what is the requirement for 
such a capability?
    General Conway. The geographic combatant commanders have general 
requirements for CBRNE consequence management capabilities. The Marine 
Corps CBIRF can be sourced by the Joint Force Provider as a force to 
help provide those required capabilities.

    46. Senator McCain. General Conway, what is this requirement based 
on?
    General Conway. Marine Corps Commandant General Krulak recognized a 
critical gap in the ability of the U.S. Government to respond to 
chemical or biological incidents following the 1995 Aum Shinrikyo 
attacks on the Tokyo Subway system using Sarin gas. Consequently, he 
directed the development of CBIRF as an interim capability until an 
enduring government-wide capability could be developed. In the interim, 
CBIRF continues to be a force that can be sourced to meet the 
requirements of the geographic combatant commanders, to include 
Commander, U.S. Northern Command, for CBRNE consequence management 
requirements.

    47. Senator McCain. General Conway, are there ways that the other 
Services, the National Guard, and civilian first responders might 
benefit from the extensive training and experience resident in the 
CBIRF unit?
    General Conway. In accordance with the ``lead--support--enable'' 
construct of the Department of Defense's Strategy for Homeland Defense 
and Civil Support, the Marine Corps' efforts to enable first 
responders' capabilities includes training between CBIRF, National 
Guard units, and civilian responders.

    [Whereupon, at 12:41 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
